<html>
<title> - TOWARD A CLEAN ENERGY FUTURE: ENERGY POLICY AND CLIMATE CHANGE ON PUBLIC LANDS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                         TOWARD A CLEAN ENERGY


                         FUTURE: ENERGY POLICY


                          AND CLIMATE CHANGE


                            ON PUBLIC LANDS

=======================================================================

                           OVERSIGHT HEARING

                               before the

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                        Tuesday, March 20, 2007

                               __________

                           Serial No. 110-13

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov




                     U.S. GOVERNMENT PRINTING OFFICE

34-820 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

                     COMMITTEE ON NATURAL RESOURCES

               NICK J. RAHALL II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Ken Calvert, California
Frank Pallone, Jr., New Jersey       Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Grace F. Napolitano, California      Stevan Pearce, New Mexico
Rush D. Holt, New Jersey             Henry E. Brown, Jr., South 
Raul M. Grijalva, Arizona                Carolina
Madeleine Z. Bordallo, Guam          Luis G. Fortuno, Puerto Rico
Jim Costa, California                Cathy McMorris Rodgers, Washington
Dan Boren, Oklahoma                  Bobby Jindal, Louisiana
John P. Sarbanes, Maryland           Louie Gohmert, Texas
George Miller, California            Tom Cole, Oklahoma
Edward J. Markey, Massachusetts      Rob Bishop, Utah
Peter A. DeFazio, Oregon             Bill Shuster, Pennsylvania
Maurice D. Hinchey, New York         Dean Heller, Nevada
Patrick J. Kennedy, Rhode Island     Bill Sali, Idaho
Ron Kind, Wisconsin                  Doug Lamborn, Colorado
Lois Capps, California               Vacancy
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                   Jeffrey P. Petrich, Chief Counsel
                 Lloyd Jones, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                    JIM COSTA, California, Chairman
          STEVAN PEARCE, New Mexico, Ranking Republican Member

Eni F.H. Faleomavaega, American      Bobby Jindal, Louisiana
    Samoa                            Louie Gohmert, Texas
Solomon P. Ortiz, Texas              Bill Shuster, Pennsylvania
Rush D. Holt, New Jersey             Dean Heller, Nevada
Dan Boren, Oklahoma                  Bill Sali, Idaho
Maurice D. Hinchey, New York         Don Young, Alaska ex officio
Patrick J. Kennedy, Rhode Island
Hilda L. Solis, California
Nick J. Rahall II, West Virginia, 
    ex officio
                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on March 20, 2007...................................     1

Statement of Members:
    Costa, Hon. Jim, a Representative in Congress from the State 
      of California..............................................     1
        Prepared statement of....................................     3
    Pearce, Hon. Stevan, a Representative in Congress from the 
      State of New Mexico........................................     3

Statement of Witnesses:
    Ball, Dr. Timothy F., Chair, Natural Resources Stewardship 
      Project....................................................    61
        Prepared statement of....................................    63
    Matson, Noah, Director, Federal Lands Program, Defenders of 
      Wildlife...................................................    52
        Prepared statement of....................................    54
    Murray, Robert E., Chairman, President and Chief Executive 
      Officer, Murray Energy Corporation, Cleveland, Ohio........    37
        Prepared statement of....................................    40
    Myers, Mark D., Director, United States Geological Survey, 
      U.S. Department of the Interior............................     5
        Prepared statement of....................................     7
        Response to questions submitted for the record...........    10
    Schendler, Auden, Executive Director, Community and 
      Environmental Responsibility, Aspen Skiing Company.........    47
        Prepared statement of....................................    49
    Westerling, Dr. Anthony, Assistant Professor of Environmental 
      Engineering, University of California, Merced..............    43
        Prepared statement of....................................    45
    Williams, Deborah L., President, Alaska Conservation 
      Solutions, Former Special Assistant to the Department of 
      the Interior, Alaska.......................................    24
        Prepared statement of....................................    27


OVERSIGHT HEARING ON ``TOWARD A CLEAN ENERGY FUTURE: ENERGY POLICY AND 
                   CLIMATE CHANGE ON PUBLIC LANDS.''

                              ----------                              


                        Tuesday, March 20, 2007

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:56 p.m. in 
Room 1334, Longworth House Office Building. Hon. Jim Costa 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Costa, Pearce, Faleomavaega, 
Hinchey, Kennedy, and Solis.

   STATEMENT OF THE HONORABLE JIM COSTA, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Costa. The Subcommittee on Energy and Mineral 
Resources, as a part of the Committee on Natural Resources, 
will come to order. I apologize to those of you who have been 
waiting patiently in the audience. Unfortunately, as I think 
most of you know, we have no control over or very little 
control over how votes are scheduled on the House Floor, and 
unfortunately, that has delayed us this afternoon. But I 
believe those are the last votes for the day, so we should be 
uninterrupted at this point.
    So the oversight hearing of the Subcommittee will now come 
to order. The Subcommittee is meeting today on the impacts of 
the energy policy, as the Speaker has indicated she wants to 
get ideas from the House by June. We are looking at that in 
context this afternoon with changes that are occurring in the 
climate, and on public lands, as it impacts our public lands.
    Under Rule 4(g), the Chairman and the Ranking Minority 
Member may make opening statements. I have a brief statement to 
make. If any Members have any other statements, we would like 
to therefore include them in the record under unanimous 
consent.
    Additionally, under Committee Rule 4(h), additional 
material for the record should be submitted by Members or 
witnesses within 10 days of the hearing. We would appreciate 
the witnesses' cooperation, and also Members, as I oftentimes 
have questions that I want to submit. I ask that material be 
submitted in a timely way to the Committee staff because we 
then have to forward them to our witnesses so that we can get 
responses, and request they be in writing.
    While this is a meeting of the Subcommittee, I also want to 
remind members, because we get interest from time to time, 
depending upon the subject matter, that under Committee Rule 
3(e), all members of the Committee may sit with this 
subcommittee during any hearing, and of course, by unanimous 
consent members of the Subcommittee may participate in any 
meeting or hearing. If other members are present, I ask them to 
participate. So I ask unanimous consent, if there is no 
objection, that any members of our Full Committee that want to 
participate with the Subcommittee today have the ability to do 
so. Any opposition?
    All right. To the degree that we have some of our other 
colleagues here from the Full Committee, we will welcome them, 
obviously. I think we have that bit of housekeeping done.
    Let me just talk briefly in my opening statement about our 
efforts to examine what I think many folks are concerned about 
as it relates to climate change. This afternoon I think we are 
going to see in the best sense of the House and representative 
democracy how we have differences of opinion, and how those 
differences of opinion are opined and how those relate to 
questions. Obviously, there are different points of view on 
this issue, and I suspect this afternoon we will hear those 
different points of view.
    Chairman Rahall, as I indicated at our previous hearing, 
has asked the various subcommittees, including this one, in 
response to Speaker Pelosi's direction, to look at legislation 
that we might recommend over the next two and a half months, 
three months, and we are doing that. We are trying to do that.
    Today's hearing, I think, will provide another opportunity 
for members to learn more about the differences of opinions 
that the effects of climate change may have on public lands and 
our resources. The Subcommittee starts by considering the 
scientific community's premise and I think there is a large 
testimony of point of view that the planet's climate is 
changing.
    I was in Antarctica about a year and a half ago, and saw a 
lot of research that currently NOAA, NASA, the Department of 
Defense, and others are doing as it relates to the study of 
climate change, as well as many of the leading universities in 
our country who were down there during the summer months, as 
they are in other parts of the world, trying to make a 
determination.
    So to that end, I am pleased that we are going to have the 
opportunity to have that discussion here this afternoon, and I 
guess when you get down to the bottom line, and this is where 
we may agree to disagree, certainly if you study the history of 
this planet over 4.5 billion years, it is constantly changing 
and evolving. But I think the difference of opinion that we 
will see exhibited here today is really to what degree as 
climates have historically changed, to what degree we as 
mankind have impacted that change during and since the 
Industrial Age.
    So I am looking forward to hearing the testimony from all 
the witnesses. We are going to begin, first of all, with Mr. 
Mark Myers who is the Director of the U.S. Geological Survey, 
who will report on ongoing work that the Department is doing as 
it relates to climate change.
    Then we also have our second panel, and to accommodate one 
of the witnesses, we will be making changes to try to 
accommodate one individual's time situation. The Chair always 
tries to be sensitive to folks and to be accommodating if I 
have sufficient information and it works. We are pleased to see 
our colleagues here, and before we have our next witness, I 
will defer to the Ranking Member for an opening statement.
    [The prepared statement of Mr. Costa follows:]

            Statement of The Honorable Jim Costa, Chairman, 
              Subcommittee on Energy and Mineral Resources

    This afternoon the Subcommittee will begin an examination of the 
effects climate change and our domestic energy policy and laws are 
having on the public lands, waters and resources. Chairman Rahall has 
tasked the Subcommittee, in response to Speaker Pelosi's direction, 
with crafting legislation that will address climate change and energy 
security goals by June 1, 2007.
    Today's hearing will provide an opportunity for Members to learn 
more about the effects of climate change on the public lands and 
resources. The Subcommittee starts by considering the scientific 
community's premise that the Earth is getting warmer and that there are 
negative impacts associated with climate change.
    To that end, I am pleased to welcome our witnesses: Dr. Mark Myers, 
the Director of the U.S. Geological Survey who will report on the 
ongoing work of the Department of the Interior as it relates to climate 
change, Mr. Auden Schendler, a representative of the skiing industry 
who will report on climate change effects on tourism and recreation, 
Mr. Noah Matson, an advocate for wildlife conservation to report on the 
effects of climate change on fish and wildlife populations, Ms. Deborah 
Williams, a conservation advocate to report on the climate change 
effects in Alaska, and Dr. Anthony Westerling, Director of the Sierra 
Nevada Research Institute to report on the effects of climate change on 
wildfire and forestry. Also testifying at the request of the minority, 
will be Dr. Timothy Ball, Director, Natural Resources Stewardship 
Project, located in British Vancouver, Canada, and Mr. Robert Murray, 
Chairman, Murray Energy Corporation
    In the coming weeks, the Subcommittee will investigate specific 
issues, including carbon sequestration opportunities on public lands, 
renewable energy development, offshore energy, the application of 
advanced technologies to reduce the adverse greenhouse effects of 
fossil fuel development, and economic opportunities associated with 
climate change. All of these hearings will be focused on public land 
issues within the Committee or Subcommittee's jurisdiction.
                                 ______
                                 

 STATEMENT OF THE HONORABLE STEVAN PEARCE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Mr. Pearce. Thank you, Mr. Chairman. I appreciate the 
hearing and the opportunity to bring witnesses in to talk about 
this climate change. It is a very timely and controversial 
issue, and it has gotten much attention from the House, House 
of Representatives, from Hollywood, from the press. It seems 
like everybody is talking about climate change. In fact, the 
Speaker is setting up her select committee on climate changes 
and her call to the Committee Chairman to change climate, to 
effect a change by summer deadline. I am sure it will garner 
even more attention.
    I am going to respectfully ask that we not fall victims to 
hyperbole, instead approach this issue seriously and 
deliberately. We should not limit ourselves to artificial 
deadlines or leadership pressure to produce legislation. Man is 
a part of the environment, not an intruder, and our 
responsibility is to enhance the lives of the American people, 
and our way of life depends upon taking this issue very 
seriously.
    Carbon dioxide or CO<INF>2</INF> is portrayed as a gun by 
Hollywood, and some people in the political community. It is 
not a gun, it is not a poisonous fruit. I am not a scientist 
but I know that when we breathe we exhale CO<INF>2</INF>, but 
plants inhale CO<INF>2</INF>. In other words, they need that to 
live. That requirement on all sides to understand the 
beneficial nature of CO<INF>2</INF> is extraordinarily 
important as we consider policy decisions that will affect all 
people in the country.
    I look forward to this hearing. Our two panels of witnesses 
has an opportunity to begin understanding what we know and much 
more importantly, what we don't know about CO<INF>2</INF> and 
climate change, especially as it relates to our national energy 
policy and managing Federal lands and waters.
    I worry that the political momentum being given to climate 
change will lead to rash and even dangerous results. Indeed, 
this committee was originally scheduled to hold the hearing 
tomorrow regarding oil and gas royalty collections. Instead of 
addressing a very serious issue like that, which is within the 
jurisdiction of the Committee, the hearing was rescheduled to 
next week because there were concerns that others would steal 
our press thunder.
    I wonder if this is how the policy priorities will be set 
in the future. I am not a scientist but I read that there are 
different views in the science world whether climate change is 
caused by human activity or whether it is by natural activity. 
So members in this Congress have given much deference to an 
executive summary of the United Nations Intergovernmental Panel 
on Climate Change, the IPCC, which states that climate change 
is very likely due to human causes.
    I want to caution that the IPCC executive summary is not 
the full report. The full report is not scheduled to be 
released until after a markup schedule by Chairman Rahall to 
move climate change legislation out of this committee. If there 
were ever an example of a cart ahead of the horse, this might 
well be it.
    The bottom line is that until the scientific community is 
clear Congress cannot justify policies that would double or 
triple our constituents' power bills that are already very 
high, that would double or triple the cost of the commute work, 
which is already expensive, or which would send jobs to China, 
and that is exactly what proposed legislative policies to date 
will do.
    We want to thank the witnesses today for taking the time to 
testify. I especially want to thank the two witnesses on the 
second panel, Mr. Bob Murray. He is the CEO of Murray Energy. 
Thank you for being here today. He represents the largest 
independent coal producer in the country. The United States, of 
course, is a Saudi Arabia of coal. Over 50 percent of our 
electricity comes from coal, and we have to continue to be able 
to use coal as a source of electricity. However, coal will bear 
the brunt of many climate change legislation.
    Mr. Murray, we can make coal cleaner but not without more 
technological development. Mr. Murray, I look forward to 
hearing from you what climate change energy policies would mean 
for coal development and cost, what it will mean for jobs in 
this country.
    I also look forward to hearing from Mr. Ball, the only 
actual climate scientist testifying today. I understand that 
his research raises questions on whether humans have caused 
climate change as opposed to the sun, for example. Dr. Ball's 
research shows that the science is not clear as Hollywood would 
have us believe. It concerns me that his work has sparked 
severe backlash for questions he has raised.
    Last, I want to ask the Chairman going forward for a 
commitment regarding this invitation. I know it is essentially 
a Full Committee hearing, which is being held in the 
Subcommittee. This committee will take a lot of testimony today 
that is the jurisdiction of other subcommittees. This is the 
Energy and Mineral Resources Subcommittee. I hope we can focus 
on energy issues.
    In addition, I will hope that we can do our part and give 
witnesses, both Federal and private, enough advanced notice to 
meet their internal needs and our deadlines. We short-change 
both ourselves and our witnesses if we do not allow adequate 
time. The goal we all share is to have an informative dialogue 
so that we can report out the best legislation possible.
    Again I would like to welcome all of you and thank you 
again, Chairman Costa, for the hearing.
    Mr. Costa. Thank you very much the gentleman from New 
Mexico. As I indicated on the outset, you would find some 
differences of opinion, and clearly by your opening statement 
and mine we have witnessed that.
    I do want to correct for the record, this committee was 
never scheduled to meet next week to deal with the subject 
matter. The Full Committee is going to meet next week, and 
while we have our Subcommittee hearing this week, our 
Subcommittee will not meet again until after the Easter Recess. 
Next week, it will be the Full Committee that talks about 
royalties at risk, and the administration of mineral management 
services which is a continuation of the Full Committee hearing 
that took place in February.
    So Chairman Rahall is using his discretion as the Chair to 
continue that discussion that began back in February, and so we 
will be meeting on March 28, the Full Committee, not the 
Subcommittee. We have not changed the order.
    Hearing that, let us get on with the witnesses because a 
colleague of ours, Gil McCarthy and I had a hearing session in 
Bakersfield, and I asked, when we were putting the witness list 
together, one of them I am quite familiar with said, ``I am 
happy to participate, but are you guys going to listen or are 
you going to talk?'' And I said, ``This listening session is to 
listen, not to hear us talk.''
    So with that thought in mind, I would like to listen to our 
witnesses, both from the first and second panel, and our first 
witness here is Mr. Myers from the United States Geological 
Service who has been doing a lot of good work, and we will look 
forward to hearing your testimony. Would you please open, Mr. 
Myers.

              STATEMENT OF MARK MYERS, DIRECTOR, 
                UNITED STATES GEOLOGICAL SURVEY

    Mr. Myers. Mr. Chairman and Members of the Subcommittee, 
fist of all, thank you for the opportunity to testify on the 
role the USGS science in addressing climate change impacts on 
public lands and potential energy resources.
    The USGS has a longstanding history of conducting research, 
monitoring and modeling of climate change and its physical and 
biological impacts.
    Mr. Costa. Your microphone is not on. You might want to 
start over again.
    Mr. Myers. Is that better?
    Mr. Costa. That is much better.
    Mr. Myers. OK.
    Mr. Costa. We can't listen if we can't hear. Thank you.
    Mr. Myers. Well, thank you.
    The USGS has a longstanding history of conducting research, 
monitoring and modeling of climate change and physical and 
biological impacts of climate change. this work includes strong 
multi-disciplinary capabilities and expertise that are well 
established and distributed across the United States, along 
with a proven capacity to assess prehistoric, historic, and 
current climate effects.
    The strengths the USGS provides are a well-balanced niche 
predominantly conducting but leading climate change science 
across the nation's terrestrial, freshwater, and coastal 
systems. The USGS is unable to provide unbiased science to 
decision makers.
    Global climate change is one of the most complex and 
formidable challenges facing society today. While climate 
change is a naturally continuous earth process, it is also 
related to human-induced activities as well. Whether the causes 
are natural or from human influence, our focus is on the 
impacts of climate change and the potential ecological and 
economical responses, including those impacts to energy 
infrastructure, production, and transportation.
    Climate change affects biota, water, ecosystems, cultures, 
and economies. The Department of Interior therefore has a 
unique responsibility to further the scientific understanding 
of climate change processes and impacts in order to effectively 
manage its lands and trust resources. In addition, there is a 
critical connection between climate change, energy issues, 
including energy use, production, and transportation.
    Figure 1 in my written testimony illustrates the climate/
energy feedback loop where the two have complementary impacts, 
and that perpetuates continual impacts, both positive and 
negative with respect to energy.
    Continued increases in fossil fuel energy will lead to 
increasing greenhouse has emissions. This, in turn, may 
potentially lead to increased global temperatures and increases 
in climate change impacts such as permafrost degradation, sea-
level rise, and increased intensity of strong storms. These 
climate change impacts lead to a completion of the feedback 
with energy, including a decreased water availability to 
generate hydro power and damage to oil and gas production 
infrastructures, including coastal and Arctic pipelines.
    Some feedback impacts actually may have positive impact. 
For example, a decline in Arctic sea ice will lead to greater 
access to energy resources in the Arctic.
    The USGS provides on-the-ground science information from 
its numerous observation and monitoring networks and research 
activities that span the biological, geological, and 
hydrological sciences. These observations and related research 
efforts are important components for building climate models, 
energy assessments, and especially those to deal with the 
impacts of climate changes to terrestrial freshwater marine 
ecosystems.
    Our findings and data are critical information to decision 
makers regarding many important climate issues such as, one, 
the future availability of water for people in ecosystems in 
arid regions; proliferation of invasive species, and impacts of 
biodiversity, critical habitat, and ecosystems; current and 
future trends in climate warming in the Arctic and resultant 
permafrost degradation; and the impacts on energy and 
transportation; consequences of abrupt changes in climate, 
including suitable rise and impacts to low-lying coastal 
communities; and the extent to which current climate change in 
climate variables are due to natural versus manmade causes.
    The Department of Interior has a significant stake in 
mitigation of and adaption to climate change due to the vast 
lands' natural resources in communities for which it has 
responsibilities. Of particular interest to this committee are 
those impacts on public lands and the point where those public 
lands intersect energy infrastructure, production, and 
transportation.
    Although science has come far in understanding the impacts 
of climate change and human ecosystems, many significant 
challenges and unique opportunities to better understand the 
long-term effects of our climate remain. These include: a need 
to develop holistic earth systems science approach to help 
communities and natural resource management prepare for and 
reduce climate change impacts; to help better distinguish 
natural changes from those imposed from the natural system by 
human activities.
    The science must also address human-induced global change 
so the cost/effect of mitigation strategies can be developed 
and implemented by decision makers; and developing a better 
understanding of how the earth and its physical and biological 
processes interplay, and therefore collectively respond to 
climate change over short term, and well into the future.
    In summary, to further our scientific understanding of 
climate change and impacts, we need to better forecast climate-
related impacts to physical and biological systems; forecast 
precipitation changes as a consequence of changing climate; and 
understand how processes that regulate climate will be affected 
by the range of temperature change as well as abrupt climate 
change events; determine how global warming affects or may 
affect the frequency and intensity and path of strong storms, 
including hurricanes; and understand the outcomes of climate 
changes on ecosystem.
    Thank you, Mr. Chairman. I would be happy to answer any 
questions.
    [The prepared statement of Mr. Myers follows:]

   Statement of Dr. Mark D. Myers, Director, U.S. Geological Survey, 
                    U.S. Department of the Interior

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to present testimony on the role of U.S. Geological Survey 
(USGS) science in addressing climate change impacts on public lands and 
potential energy resources.
    The USGS has a long-standing history of conducting research, 
monitoring and modeling of climate change and its physical and 
biological impacts. This work includes strong multi-disciplinary 
capabilities and expertise that are well established and distributed 
across the United States, along with a proven capacity to assess 
prehistoric, historic, and current climate effects. These strengths 
provide USGS with a critical role in conducting climate change science 
across the Nation's terrestrial, freshwater, and coastal systems and in 
providing unbiased science to decision makers. The USGS works closely 
with our partners in the U.S. Climate Change Science Program to address 
the challenges posed by global climate change.
    Global climate change is one of the most complex and formidable 
challenges facing society today. While climate change is a natural, 
continuous Earth process, changes to the Earth's natural climate are 
related to human activities as well. Whether the causes are natural or 
from human influence, our focus is on the impacts of climate change and 
the potential ecological and economic responses, including those 
impacts to energy infrastructure, production, and transportation.
    Climate change affects biota, water, ecosystems, cultures, and 
economies. The Department of the Interior (DOI) therefore has a 
responsibility to further the scientific understanding of climate 
change processes and impacts in order to effectively manage its lands 
and trust resources. In addition, there is a critical connection 
between climate change and energy issues, including energy use, 
production, and transportation.
[GRAPHIC] [TIFF OMITTED] 34820.001

    .epsThe figure above illustrates the climate-energy feedback loop 
where two components impact each other and perpetuate continued impacts 
(both positive and negative). Continued increases in fossil fuel energy 
use will lead to an increase in greenhouse gas emissions. This, in 
turn, may potentially lead to increased global temperatures and 
increases in climate change impacts such as permafrost degradation, 
sea-level rise, and an increased incidence of strong storms. These 
climate change impacts lead to a completion of the feedback loop with 
energy, including a decrease of water available to generate hydropower 
and damage to gas and oil production infrastructure (coastal and arctic 
pipelines). Some feedback impacts may actually have a positive effect 
on energy. For example, a decline in Arctic sea-ice may lead to 
enhanced oil and gas exploration within the coastal zones of the Arctic 
Ocean.
    The United States and other nations will be challenged to develop 
adaptation and mitigation strategies that will anticipate the effects 
of a changing climate and its impacts on humans and ecosystems.
    As the science bureau within DOI, USGS has a long history of 
participation as a member of the climate change science community. DOI, 
represented by USGS, is one of 13 Federal agencies engaged in global 
change research in support of the U.S. Global Change Research Act of 
1990 and is represented as a member of the U.S. Climate Change Science 
Program and the Arctic Monitoring and Assessment Programme (AMAP). The 
USGS strives to understand how the Earth works and to anticipate 
changes in earth systems. To accomplish this, USGS science aims to 
understand the interrelationships among earth surface processes, 
ecological systems, and human activities. This includes understanding 
current changes in the context of pre-historic and recent earth 
processes, distinguishing between natural and human-influenced changes, 
and recognizing ecological and physical responses to changes in 
climate. The USGS has multi-disciplinary capabilities (biologic, 
geologic, hydrologic, geographic, remote sensing, and socio-economic) 
with scientific expertise distributed across the United States and many 
parts of the world. This ability to provide ground-truthing across 
multiple scientific disciplines in a wide variety of spatial and 
temporal scales enables USGS to play a key role within the climate 
science community.
    The USGS provides on-the-ground science information from its 
numerous observation and monitoring networks and research activities 
that span the biological, geological, geographical, and hydrological 
sciences. These observations and related research efforts are important 
components for building climate models, especially those that deal with 
the impacts of climate change to terrestrial, freshwater, and marine 
ecosystems.
    Our findings and data provide critical information to decision-
makers regarding many important climate-related issues, such as:
    <bullet>  Future availability of water for people and ecosystems. 
Specific projects include hydroclimatology studies in the Pacific 
Northwest and arid southwest for assessing current and future changes 
in water availability and related impacts on dam and reservoir 
management. The Bureau of Reclamation, as well as several State water 
agencies, are principal stakeholders for this work.
    <bullet>  Proliferation of invasive species and impacts on 
biodiversity, habitat, and ecosystems. USGS is conducting several major 
studies throughout the United States looking at the evolution of forest 
and rangeland communities as a response to warming climate and changes 
in precipitation. The U.S. Forest Service, several land resource 
bureaus of the Department of the Interior, and numerous State resource 
agencies are important stakeholders.
    <bullet>  Current and future trends of climate warming in the 
Arctic and resultant permafrost degradation and impacts on energy and 
transportation. USGS is conducting several coordinated studies on the 
North Slope and Yukon Basin of Alaska. Emphasis is on permafrost and 
climate effects monitoring and related ecological and socio-economic 
changes. This work is a partnership with the U.S. Forest Service, the 
U.S. Fish & Wildlife Service, the Bureau of Land Management, the 
National Park Service, the University of Alaska, Alaska State agencies, 
and various Native communities.
    <bullet>  Consequences of abrupt changes in climate including sea-
level rise and impacts on low-lying coastal communities. USGS projects 
include the Chesapeake Bay and Greater Everglades Priority Ecosystem 
Studies. The USGS is collaborating with many partners, including the 
U.S. Army Corps of Engineers, the U.S. Environmental Protection Agency, 
the National Oceanic and Atmospheric Administration, and the land 
management bureaus within DOI.
    <bullet>  Impacts of climate change on land use and landscape 
change. In partnership with NASA and NOAA, USGS is involved in a 
variety of activities that are critical to understanding the impacts of 
climate change on public lands. These include monitoring of coastal 
zone topography and bathymetry; the production and distribution of 
national topography data; and improving our knowledge or topographic 
surface change through lidar and radar imaging of the U.S. national 
land surface.
    The scientific and policy implications of mitigation strategies 
associated with these issues are complex. For example, rising sea-level 
exacerbates the vulnerability of coastal resources to coastal change 
due to storms and erosion. Vulnerable areas include thousands of miles 
of coastal resources for which DOI has land management responsibility. 
Efforts to alleviate coastal erosion and storm vulnerability often 
include ``beach nourishment,'' the placement of large quantities of 
beach-quality sand on the beach and nearshore to build protective 
barrier beaches and dunes. With rising sea-level, the demands for beach 
quality sand, commonly extracted from offshore deposits, is likely to 
increase. In most regions, the quantity of this sand is limited, and 
the ability of recoverable resources to meet increased needs is in 
doubt. Moreover, recovery of in place resources can impact habitat and 
modify the natural movement of sediment between the nearshore and the 
coast. Additionally, the increasing demand is occurring as on-land 
sources for sand and gravel for construction are becoming more costly.
    DOI has a significant interest in the mitigation of and adaptation 
to climate change due to the vast lands, natural resources, and 
communities for which it has responsibility. Of particular interest to 
this Committee are those impacts to public lands and the point where 
those public lands intersect with energy infrastructure, production, 
and transportation. These impacts may include:
    <bullet>  Shifts in carbon cycle, accelerated greenhouse gas 
emissions, and resultant effects on native communities, transportation 
networks, and managed infrastructure in high-latitude landscapes;
    <bullet>  Possible increases in the magnitude, frequency, and 
northern migration of strong storms and tidal surges related to 
changing climate and the associated risk to offshore and onshore oil 
and gas infrastructure and managed resources;
    <bullet>  Changes to strategies and cost of remediation and 
reclamation of lands disturbed by energy and mineral production, 
because of the added complexity created by climate change.
    <bullet>  Changes in the extent and severity of forest fires and 
associated effects on land management, forest composition, and carbon 
storage.
    The USGS and other Federal agencies are actively engaged in 
understanding the impacts of climate change on both humans and 
ecosystems. USGS studies show that some impacts of climate change may 
be more urgent than others. For example, recent USGS image analysis of 
coastal erosion along a permafrost coastline in Northern Alaska showed 
a dramatic rate of coastal erosion--in some areas almost a kilometer of 
coastal erosion over the last 50 years. These findings have significant 
implications for energy development, native coastal villages, 
endangered species, and other land and resource management 
responsibilities.
    Although science has come far in understanding the impacts of 
climate change on humans and ecosystems, many significant challenges 
and unique opportunities to better understand the long-term climate 
future for our planet remain. These include:
    <bullet>  Developing a holistic, earth-systems science approach to 
help communities and natural resource managers prepare for and reduce 
climate change impacts;
    <bullet>  Better distinguishing natural climate change from that 
imposed upon the natural system through human activities. The science 
must also address human-induced global change so that cost effective 
mitigation strategies can be developed and implemented by decision 
makers;
    <bullet>  Developing a better understanding of how the earth and 
its physical and biological processes interplay, and therefore 
collectively respond to climate change over the short-term and well 
into the future;
    <bullet>  Forecasting climate-related impacts to physical and 
biological systems;
    <bullet>  Forecasting precipitation changes as a consequence of 
changing climate;
    <bullet>  Determining how global warming affects, or may affect, 
the frequency, intensity, and paths of strong storms, including 
hurricanes;
    <bullet>  Understanding outcomes of climate change on ecosystems.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony. I will be pleased to answer questions you and other Members 
of the Subcommittee might have.
                                 ______
                                 

Response to questions submitted for the record by Mark Myers, Director, 
                         U.S. Geological Survey

1.  In your written and oral testimony you said that global warming 
        will cause an increase in the frequency and intensity of 
        storms. Climatologists say that the intensity of storms is 
        related to temperature gradients between different air masses 
        and climate models show that temperature gradients will 
        diminish during warming. If that is the case, why do you 
        anticipate that global warming will cause an increase in the 
        intensity of storms?
    My written statement uses the word ``may'' as opposed to ``will'' 
in connection with a potential increased incidence of strong storms. 
Specifically, my testimony stated that ``to further our scientific 
understanding of climate change and its impacts we need to better 
determine how global warming affects, or may affect, the frequency, 
intensity, and paths of strong storms, including hurricanes.'' We 
cannot say for certain whether global warming has or will cause an 
increase in the frequency and intensity of storms.
    This is an area of intense debate among the scientific community. 
Ongoing research has demonstrated multi-decadal cyclical behavior in 
the Atlantic region is an important factor in determining hurricane 
activity, however, recent research indicates global warming has an 
impact on hurricane intensity. It is important to stress that there are 
many factors such as air and ocean temperature, wind shear, and other 
conditions such as El Nino and La Nino that impact hurricanes. More 
research is needed to fully understand how these factors interrelate.
2.  Satellite images taken over the last 20 years have shown that the 
        greenness of the environment has increased. This should improve 
        and enhance biodiversity. Why do you say that global warming 
        will adversely impact biodiversity?
    The point here is that increases in overall greenness do not 
necessarily coincide with increase in biodiversity; biodiversity is not 
simply a function of ``greenness'' or related increase of global 
temperature. Biodiversity is related to a combination of many factors, 
including ideal precipitation, timing of precipitation, seasonality, 
plant community health, diseases including those related to insect 
infestation, and competition with other native and invasive species. 
Ongoing science that is looking at the issue of biodiversity changes 
along with changing climate have shown that certain areas of the world, 
including the Pacific Northwest (transitions in plant communities) and 
Alaska (encroachment of the Boreal forest into the Arctic tundra) are 
facing, and will continue to face, losses in biodiversity within a 
warming climate. Other areas, such as the Great Basin, are also seeing 
an overall decline in biodiversity as invasive cheat grass overtakes 
areas once dominated by native desert and high plains scrub plants.
3.  If carbon dioxide is a more significant greenhouse gas than water 
        vapor, why does it generally cool down in the desert at night 
        during the summer and remain hot and miserable in the 
        southeast?
    Carbon dioxide is a more significant greenhouse gas only from the 
standpoint of its human-induced contribution to the atmosphere (from 
fossil fuel combustion) and its effect on climate change. Water vapor 
is the most abundant, naturally-occurring greenhouse gas, and plays a 
major role in controlling climate. Its abundance is expressed in terms 
of relative humidity. Water vapor absorbs energy radiating from the 
earth's surface and warms the atmosphere. The example expressed in this 
question is a case of contrasting humidity conditions. In the desert, 
where the humidity is low, the sun sets and the energy radiated from 
the earth's surface escapes quickly due to the lack of water vapor in 
the atmosphere. Thus, the air cools quickly. In the southeast, where 
the humidity levels are high, the energy radiated from the earth's 
surface at night is trapped by the water vapor in the atmosphere 
keeping the air warmer longer.
4.  How do you know that carbon dioxide is causing the changes in 
        climate today when it has not in the past?
    Carbon dioxide is a strong greenhouse gas that has been tied to 
past changes in climate in ice core records and other proxies. 
Scientists involved in the recent Intergovernmental Panel on Climate 
Change (IPCC) concluded with ``very high confidence'' (IPCC WGI uses 
``very high confidence'' to express expert judgment that a statement 
has a 9 out of 10 chance of being correct) that recent climate changes 
are being caused in part by anthropogenic activities, including the 
addition of carbon dioxide to the atmosphere (IPCC Fourth Assessment, 
Working Group I) from the burning of fossil fuels. In fact, the IPCC 
report called carbon dioxide ``the most important anthropogenic 
greenhouse gas.''
5.  What scientific research and data did you use to support your 
        statement that human activity and specifically the use of 
        fossil fuels is adversely affecting the Earth's climate?
    My testimony referred to both positive and negative impacts of the 
climate-energy feedback loop. Specifically, I testified that continued 
increases in fossil fuel energy use will lead to an increase in 
greenhouse gas emissions which may lead to increased global 
temperatures and increased climate change impacts. There are now many 
scientific studies that have drawn a direct correlation between human 
activity, specifically fossil fuel use, and changes in the Earth's 
climate. The best and most authoritative example is the 
Intergovernmental Panel on Climate Change (IPCC) Fourth Assessment 
Working Group I, Executive Summary which states that there is 
unequivocal evidence that humans and their carbon dioxide emissions are 
having a warming effect on today's climate. In 2005, the White House 
issued a statement acknowledging that global warming is occurring and 
that humans are a significant contributor to overall warming of the 
planet.
6.  What climate models, if any, are you using to support your 
        testimony? Has the model been validated by hind casting? Please 
        provide the data used in the model and the results.
    I did not use any specific models in order to develop my remarks 
for either the written or oral testimonies. I referred only to general 
results that can be corroborated through the past and current IPCC 
reports which do rely on the 23 global climate models, all of which 
have well-defined uncertainties and error estimates, and which are 
frequently hindcasted against both past instrumental (approximately 100 
year records) and geologic (thousand-year timescale) information in 
order to assess their accuracy in use for predicting future climate 
change.
                                 ______
                                 
    Mr. Costa. Thank you very much, Mr. Myers. I want to begin 
with the round of questioning.
    Let me remind members so that we can have an opportunity to 
listen, that the Committee Rule 3(c) imposes a five-minute 
limit on questions, and I will, for the sake of allowing all 
the members to ask questions, try to keep that more or less on 
point given the time nature.
    There is a couple of questions I want to ask, and others I 
will submit later on for the record. Mr. Myers, as the 
Department of the Interior's science bureau, do you believe 
that the Department should have a role in addressing climate 
change, and if so, what is that appropriate role?
    Mr. Myers. Mr. Chairman, the Department of Interior manages 
one in every five acres in the United States. Also, the 
Department of Interior lands are a key component in the 
production of energy for this country, including coal, oil, and 
gas, and other non-conventional resources. So the Department 
definitely has a role in both climate, in terms of managing the 
lands and understanding the effects of climate change and doing 
what it can to adapt to those changes in lands that Interior 
manages.
    Mr. Costa. All right, one in five acres. That is obviously 
significant. Because there is a lot of Federal agencies 
involved and engaged in this effort today, notwithstanding 
those from the private sector, how does your scientific 
capabilities compare--the Geological Survey--from other Federal 
scientific contributors?
    I mean, are we being redundant? Is there a collaboration?
    Mr. Myers. Well, first of all, there is a collaboration to 
the climate change science program, so there is integration of 
that science that occurs on the national level.
    But second, the USGS has some unique characteristics 
because of its ability to integrate geological, biological, 
water data, and geospatial mapping capabilities.
    Mr. Costa. That is the heart of the question, the niche 
that you have to play with the other Federal agencies.
    Mr. Myers. Yes.
    Mr. Costa. And your experience and your technological and 
scientific capacity that exists within the service you think 
provides that niche?
    Mr. Myers. We certainly fill that particular niche. Now, 
there are other areas in the atmospheric area and the deep 
oceans where NOAA and NASA are the key players.
    Mr. Costa. That is why I referenced that observation I had 
when I was in Antarctica about 14 months ago.
    You talked about the realities of climate change and the 
impacts of various responses, and I have a particular focus 
because of many of us who live in the Southwest obviously are 
very concerned as it relates to water availability, and how we 
provide our water supply when you have an arid or semi-arid 
conditions.
    We have designed a water management system in California 
that is based upon what we believe is the history of the last 
110 years. Clearly, that is small snapshot whether or not to 
whatever level you attribute the causes of man to the climate 
change, it is a small snapshot to try to base--based upon 
literally millions and billions of years of climatic changes 
that have taken place.
    How do we get a better handle on the impact of water 
availability on areas where the Sierra Nevada, for example, is 
Mother Nature's icebox where we store our snow from November 
through March, and of course, if that snow is not available 
there, it makes it very difficult throughout the rest of the 
year.
    Mr. Myers. Mr. Chairman, you need an integrated approach. 
The first component is looking at the long-term geologic record 
so you have a long-term baseline. The second is taking those 
records that you have that are highly accurate but a shorter 
span, like stream gauge records, understanding the last 30 to 
50 years where we might have good stream gauge data, and look 
at changes. The third is using remote sensing, other monitoring 
techniques to look at changes in snow pack and conditions, and 
then relate that back to atmospheric climate models that need 
to be regionalist.
    So that combination will give you trend line data, for 
instance, that will show you a decrease, an overall decrease in 
the snow pack, which is again leading to a change in water 
availability in the West.
    Mr. Costa. Just recently, we have looked at some tree ring 
studies over the last eight-nine hundred years, and the time 
period that we have been in compared to the other cycles has 
been unusually wetter than it has been in previous cycles, and 
if that is a pattern that will continue, we are going to get 
more drier weather, which will make it difficult for a growing 
stage.
    I have some other questions, but my time is almost up so I 
will yield to the Ranking Member for purpose of his ability to 
ask questions or make comments.
    Mr. Pearce. Thank you, Mr. Chairman. Thanks for being here, 
Mr. Myers. We appreciate your testimony.
    In your paper, you have the circular diagram and you have 
one end of it with a gap, the hydrocarbon, energy, and product 
use, and the bottom end of that circular diagram shows climate 
change. Is it your intent to draw the conclusion for us people 
up here on the panel that hydrocarbon, energy, and production 
use would be then the major impact of climate change, of global 
warming? Is hydrocarbon use--in other words, it is there in a 
block, it jumps off the page at one--is that the only factor?
    Mr. Myers. It is clearly not the only fact. We are trying 
to show the relationship of the feedback mechanisms and----
    Mr. Pearce. What other things might affect that?
    Mr. Myers. Well, certainly variations in solar radiation, 
the amount of dust, the availability and amount of sea ice; in 
the long term, the earth's rotation and other long-term 
climatic effects. But certainly the effects of increased 
CO<INF>2</INF> from certain type of fossil fuel energy 
production does add a factor to it.
    Mr. Pearce. If we are talking about the level of 
CO<INF>2</INF> as it relates to climate change, is there an 
optimal level of CO<INF>2</INF>? In other words, we are about 
what, 385 parts per million right now?
    Mr. Myers. We are.
    Mr. Pearce. And is there an optimal level?
    Mr. Myers. I wouldn't know what that was. Again, it is a 
feedback mechanism. Certainly from best calculations about 31 
percent of----
    Mr. Pearce. Basically you are saying we don't know. What 
happens as we reduce the carbon in the atmosphere? What 
scientific outcome on that?
    Mr. Myers. Reducing CO<INF>2</INF> in the atmosphere, if 
everything else is held constant, will decrease the absorption 
capability of solar radiation, and therefore cool the climate 
somewhat.
    Mr. Pearce. OK. What happens if we decrease it all the way 
to zero? Is that a desirable outcome?
    Mr. Myers. Not if humans want to live in earth.
    Mr. Pearce. So what happens?
    Mr. Myers. Basically, the temperature would get to cold to 
sustain life.
    Mr. Pearce. Yes, because CO<INF>2</INF> has a function. 
Where do plants, in other words, you got 385 parts per million, 
and plants require CO<INF>2</INF> in the atmosphere. At what 
point do plants begin to suffer?
    Mr. Myers. Well, certainly as you change CO<INF>2</INF> in 
any given part of the environment, given temperature, water 
availability and other issues, you change the plant biome.
    Mr. Pearce. Do we know at what level that plants begin to 
suffer? In other words, if you them in a closed environment, 
maybe just a little glass beaker, you put a bean plant in there 
and you grow it, and you begin to withdraw CO<INF>2</INF>, at 
what part per million does it begin to suffer?
    Mr. Myers. With a plant in isolation it would depend on the 
plant type, and I don't have an exact number for you. We can 
get that.
    Mr. Pearce. But there is a quantifiable level at which we 
begin to effect the ability of the planet to breathe or 
whatever.
    One of the panelists that is coming up declares that there 
is no remaining scientific debate we are causing global 
warming, and it is past time to do something about that. Would 
you be willing to testify that we are through with the 
scientific debate, that there is no more scientific debate?
    Mr. Myers. Certainly the state of science is always that we 
improve our knowledge in an incremental basis.
    Mr. Pearce. No, that is not my question. My question is are 
you willing to affirm that the science debate is over, that 
there are no really viewpoints on the opposite side held by 
credible scientists?
    Mr. Myers. There are certainly viewpoints on the other 
side, but the preponderance of evidence is that the climate is 
in fact increasing in that both the----
    Mr. Pearce. No, this is the time to--this says we are ready 
to do the policy. Is the science, in your mind, fixed enough 
that we are ready to do policy?
    Mr. Myers. In my mind, from the Department of Interior's 
perspective, we need to start adapting to the changes that we 
are seeing with respect to climate in the environment.
    Mr. Pearce. Just yes or no. Let us try it that way.
    Mr. Costa. I think that is a yes. I would interpret that as 
a yes.
    Mr. Pearce. All right, put it in the record as a yes. I am 
from the West. I don't know all these languages here. I barely 
speak West Texan adequately.
    Let us see, what about major inputs other than humans--
volcanos, forest fires--are those inputs of carbon measured by 
USGS?
    Mr. Myers. Well, certainly there is an input, a significant 
input----
    Mr. Pearce. No, no, no, I have 18 seconds left.
    Mr. Myers. Yes.
    Mr. Pearce. You are going to have to have a short answer. 
Are they measured by USGS?
    Mr. Myers. Yes.
    Mr. Pearce. And can you tell me what those measures are? In 
other words, compared to the human input, somewhere on a scale 
of importance, do they put more or less than humans?
    Mr. Myers. In current conditions in the last say 30 years, 
less.
    Mr. Pearce. Less?
    Mr. Myers. Less, yes.
    Mr. Pearce. In the last 30 years?
    Mr. Myers. For instance, like volcano eruption. Now, 
obviously, the overall carbon cycle still produces the majority 
of CO<INF>2</INF> in the atmosphere, the natural recurring 
CO<INF>2</INF> cycle, but with respect to say volcanos versus 
human conditions, humans are----
    Mr. Pearce. Can you declare how much less?
    Mr. Myers. I will have to get the numbers for you, sir.
    Mr. Pearce. If you would, please, because this becomes a 
very important thing because we need to see relative effects on 
the climate, relative effects on the carbon, and as I see the 
wild fires raging through----
    Mr. Costa. He is going to respond to your question.
    Mr. Pearce. I would appreciate that. Thank you, Mr. 
Chairman.
    Mr. Costa. Thank you.
    Our next member, the gentleman from American Samoa, Eni.
    Mr. Faleomavaega. Thank you, Mr. Chairman, and I want to 
commend Mr. Myers for his testimony here this afternoon, and I 
would like to first commend the Speaker of the House of 
Representatives for taking the initiative in making global 
warning an issue as a national issue that we ought to honestly 
debate.
    I recall that some six years ago we simply shut out the 
whole issue of global warming when our President decided to no 
longer continue the dialogue when the Kyoto Protocol was 
proposed. Out of some 150 countries that signed the Kyoto 
Protocols, two have not signed, and that is Australia and our 
own country.
    I recall even one of my colleagues or our colleagues called 
global warming as global bologna, and it is unfortunate because 
it seems that some of our leaders make light of this issue, 
whether is there really a serious issue concerning global 
warming.
    I wanted to commend Mr. Myers for his testimony saying that 
Geological Survey truly gives out unbiased science, and I want 
to thank you for that. If I read it correctly in your 
testimony, the Geological Survey has multi-disciplinary 
capabilities dealing with biological, geologic, hydrologic, 
geographic, remote sensing, and social-economic--I have no idea 
what these words mean--with scientific expertise--OK.
    I understand from your testimony that Geological Survey 
does do concurrent studies together with several other Federal 
agencies, and my question is, where are we at? Do we really 
have a serious problem with global warming or is it just 
someone's figment of imagination?
    Mr. Myers. Thank you. We believe, yes, we do have a problem 
with respect to change in climate, and then the changes in the 
environment that we are seeing, and the need to adapt to those 
changes. It is not my position, again, from a scientific 
organization to suggest what those policies might be, but we 
are in fact observing significant changes to the planet with 
respect to climate and associated effects.
    Mr. Faleomavaega. You know, the problem we are having is 
almost like getting an expert witness in court, and depending 
on what persuasion you are in for, pro energy and the heck with 
global warming, so you get your line of experts, and this seems 
to be going on, we have had this news for years. Unfortunately, 
also when the Vice President called all the chief, major CEO 
executives about energy, corporations, they had a great meeting 
at the White House. Guess what? To this day we have no idea 
what they talked about. Now, to me, that is not a very good way 
of conducting or trying to find out exactly what is in the 
public interest about this very issue of global warming.
    I will try this question again, Mr. Myers. Are we really 
seriously having a problem with global warming?
    Mr. Myers. Yes, I believe we are seeing----
    Mr. Faleomavaega. Don't say yes. Please, you are the 
unbiased science, and I am really happy that you made that 
distinction with all other agencies. You give us the unbiased 
science. Are we really having this serious problem of global 
warming?
    Mr. Myers. Yes. Again, we are seeing significant effects in 
changes to the planet because of changes in climate.
    Mr. Faleomavaega. And this ongoing study has been going on 
for four years now? Three years? Two years?
    Mr. Myers. The survey has been studying the effects of 
climate change for over 20 years.
    Mr. Faleomavaega. And for the 20-year period, and I don't 
know how long you have been there, Mr. Myers, in the Geological 
survey, it is in your best judgment as a scientist I assume 
that yes, there definitely is an impact on global warning on 
our planet? Is this in your best judgment? I am not asking you 
as a Democrat or a Republican, as a scientist, in your best 
opinion we really do have a problem with global warming?
    Mr. Myers. Because the USGS is primarily designed an 
operational observational science, we are seeing significant 
changes to the landscape because of changes to climate.
    Mr. Faleomavaega. I note with interest that Mr. Murray is 
the chief executive of one of the best operated energy 
companies in the country. Here is my problem--I'm trying to 
figure out how you establish a balance between human needs and 
maintaining the cleanliness of our natural resources?
    I think that seems to be the issue that we are trying to 
resolve here, but, unfortunately, it always seems to be one 
extreme to the other, but never trying to find out what can we 
do without any ideological preferences, but just to say what 
can we do to resolve this basic issue?
    Mr. Myers. Well, certainly some things we can bring to the 
table is research in alternative energy sources. For example, 
natural gas hydrates, huge potential source of energy in the 
Gulf of Mexico, and on the Alaska North Slope, and off many 
islands in the world that could be harnessed as a very clean 
source of energy; increased use of geothermal, and other 
sources of energy; recognizing mechanisms to classify and 
understand geologic carbon sequestration. We know we could do 
significant research, and research is going on, but on a 
national level scale, understanding of the capability of the 
geologically sequestered carbon; the baseline work for some of 
the alternative energies as well as conventional energy 
resources like natural gas, again the ability--I will go back 
to carbon sequestration.
    If you do have coal, and you want to store that carbon, 
where are you going to put it? We need to understand the basic 
underlying geologic reservoirs, the sustainability, the 
capability of those reservoirs to store it, and we need to 
understand what infrastructure we need to build and the cost of 
that infrastructure.
    Mr. Faleomavaega. Of interest I note that we have enough 
supply of coal and shale in our own country that will give us 
enough energy for our needs for the next 1,000 years I am told 
if we properly harvest it or whatever we do to create a clean 
environment if ever coal is to become one of our prime, as it 
is now.
    Do you think that the technology can be done in such a way 
that coal is a good source of energy?
    Mr. Myers. Certainly. There are wonderful coal technologies 
that can be used very cleanly. There are conventional coal 
technologies that can be used as well. Again, the USGS brings 
an understanding of where that coal is, we do the national, and 
we actually do the world assessment of coal availability. We 
can understand the qualities of that coal. We can also look at 
the environmental effects of producing that coal, and then 
alternative technologies, like carbon sequestration, which 
could limit CO<INF>2</INF>.
    Mr. Faleomavaega. Thank you, Mr. Chairman. Thank you.
    Mr. Costa. Thank you very much, and as our tradition to 
alternate back and forth between the majority and the minority, 
I will refer back to the Ranking Member for clean up.
    Mr. Pearce. Thank you, Mr. Chairman. We are going to try to 
work our way through this quickly because we do have two 
panels. The vote ran us late.
    Mr. Myers, on the whole concept of beneficial outcomes, is 
the human race going to be better or worse served by any 
cooling in the climate or any warming in the climate? I will 
say warming in the climate. Does that affect human race, say if 
it is increased by a degree or two, three, whatever?
    Mr. Myers. Certainly the human race will have to adapt to 
certain different conditions in key ecosystems such as in the 
Arctic where the permafrost is melting we are seeing an 
increased coastal erosion. We are seeing a disappearance of sea 
ice. That is going to change that environment, so humans have 
to adapt to that.
    Water availability is going to change. There are going to 
be some areas are going to be under a change of a couple 
degrees. They are going to receive more water. Other areas are 
going to receive less water. Storm severity is going to 
increase, coastal issue will be an issue.
    So I believe there is a need for adaptation to the changes 
we are going to see, going to see with respect to environment. 
Again, as you go back into the geologic record, the planet has 
sustained significant changes over its history, and changes 
that exceed the current changes that we have seen, but that is 
before we were so prevalent on the planet. So I do believe 
there is going to be a need to be adaptation as we see the 
climate change.
    Mr. Pearce. I don't know exactly what you feel like, but as 
far as with respect to the climate, can we get where we need to 
go without significant reductions in the coal or oil and gas 
uses for energy development? Can we get there without those 
decreases?
    Mr. Myers. I don't feel qualified really to answer that 
question. Again, it is a policy question rather than a science 
question. I think certainly technologies that are out there----
    Mr. Pearce. No, I mean coal and oil and gas, you use them 
in your chart here, hydrocarbons. My question is can that 
square remain unchanged and get where we need to go with the 
carbon levels?
    Mr. Myers. Certainly under current levels' production 
atmospheric CO<INF>2</INF> will increase. That said there are 
hydrocarbon sources, such as natural gas, a conversion to a 
greater use of natural gas that would lead to less greenhouse 
gas.
    Mr. Pearce. As far as coal, coal provides 50 percent of our 
energy, 53 percent, can we get where we need to go with current 
level of coal use or do we need to diminish that?
    Mr. Myers. We certainly could adapt coal----
    Mr. Pearce. No, not could. I am just asking----
    Mr. Myers.--technology. You could dramatically decrease if 
you left coal stable for electrical generation, but for other 
purposes use increased amount of natural gas or decreased----
    Mr. Pearce. I don't mean to be putting you in a position 
that obviously you are really uncomfortable because we are 
sitting up here trying to get the best that we can. I know one 
or two scientists in Congress. The rest of us are like me, just 
I have studied in science in the ninth, tenth, eleventh grade, 
I am not sure I did in the twelfth grade. We are trying to see 
or way through this, and that is a fairly simple question, and 
a direct answer would help. I am going to ask everybody on the 
next panel, give them a heads up. We have asked the same 
question, so your answer gets averaged down there.
    I am going to yield back to the Chairman here in the 
interest that we do need to get finished up. I have a couple 
more if we get another chance.
    Mr. Costa. All right. You know, I think it is good to point 
that out. One of the areas that we are going to be in the 
future here talking about is carbon sequestration, and 
obviously the Chairman, who comes from a large coal area, is 
focused about how we can continue. We know that about half of 
our energy is produced from--electricity, excuse me, as you 
stated, from coal in the country, and obviously how we deal 
with that is an important factor. I think we are all aware of 
that.
    The gentleman, Mr. Hinchey is--you are correct. Thank you 
for pointing that out. Mr. Kennedy, the gentleman from Rhode 
Island.
    Mr. Kennedy. Thank you, Mr. Chairman. Mr. Chairman, if I 
could, I would just say I think you are very generous and I 
commend you with respect to acknowledging the minority and 
giving the minority a chance to speak at every chance in 
between because I haven't been at any committee hearing in all 
my 12 years where the minority would have a chance to speak in 
place of not having any other members of the minority there.
    Mr. Pearce. Would the gentleman yield?
    Mr. Kennedy. Yes, I would be happy to do that.
    Mr. Pearce. We did it exactly that way at the last hearing.
    Mr. Costa. The last hearing, I was the only one here and 
there were three other members, and so it was a great day for 
me, I must tell you. I got all my questions in.
    Mr. Kennedy. Oh, then it is the first experience I have 
ever had with it, so I am happy to be enlightened.
    Mr. Costa. I try to be even-handed on these things.
    Mr. Kennedy. I am happy to be enlightened.
    Mr. Costa. So you have stolen my thunder this afternoon, 
but I am glad to have you here.
    Mr. Kennedy. And I was commending you for that, Mr. 
Chairman.
    [Laughter.]
    Mr. Costa. Thank you.
    Mr. Kennedy. Mr. Myers, I wanted to ask you, I come from a 
state called the Ocean State, so you can imagine my concern 
with all of the prospects of global warming and the increased 
sea level. Could you tell me what plans there are in the offing 
to prepare for the increased seal level, and the possible 
flooding that would take place should these geological 
predictions take place? Do you have those kinds of forecastings 
and what do they look like?
    Mr. Myers. Mr. Kennedy, we do a lot of baseline scientific 
work with respect to coastal processes, not only the sea level 
rise but subsidence in some areas where the ground mass is 
actually going down, so it is a combination. We do a fair 
amount of work on oceans. I think the President's proposed 
budget on ocean action plan is to look seriously at some of 
those issues in a holistic way. We tend to look at watersheds 
in a holistic way, and look at the effects of that.
    Certainly the work, the scientific work we do, and other 
agencies do hopefully gets incorporated into the Corps of 
Engineers and other agencies, FEMA and other agencies that deal 
with emergency disaster. I know there is good working 
relationships both with the Corps and FEMA on that. I don't 
know the details of all the planning efforts. Again, we provide 
baseline by science, and then they develop the plans and the 
mitigation strategies.
    Mr. Kennedy. Because obviously we can't begin to prepare 
early enough now if this--you know, the predictions of 
increased sea level between 11 and 16 inches over the course of 
the next century are to come true, we can't even begin early 
enough now in our State of Rhode Island in terms of the 
economic impact that it will have on our state. I should dare 
say the country, given the juxtaposition of where the 
population is in our country vis-a-vis the ocean, and I would 
hope that this policy of what we are doing here today would be 
to lay out the groundwork as to what we need to do as a country 
to prepare for those rising sea levels as well as what to do to 
prevent those rising sea levels, which is what I think we are 
ultimately here to do is to prevent those rising sea levels, 
but at the same time we ought to be prepared to deal with what 
may inevitably be taking place.
    I would also like to ask you about what the capability is 
between you and NASA in terms of the mission to plant earth, 
and what the satellite capability is that you have or do not 
have insofar as doing these measurements. Do you feel that NOAA 
needs more capacity, that NASA and Mission to Planet Earth 
needs more capacity for you to do a better job at what you do?
    Mr. Myers. Mr. Kennedy, we use a number of satellites, 
including NOAA and NASA, but also the USGS run Landsat 5 and 7 
satellites, and we are trying to make sure we can get Landsat 8 
satellite built in a timely way to get launched in about a 2011 
time frame.
    It is important to have long-term continuity of data. 
Again, you need the satellite coverage, but the continuation of 
existing satellite coverage, the same parameters, so we can get 
a 30-40-year history because again as you look at change, 
looking at it over a few year time frame doesn't give you 
really a very good picture. You have to have a long period of 
records. So those satellites that sustain that long period of 
record, and also repeatable so you can repeat the imagery on a 
regular basis are critical satellite data which then links into 
in-situ monitoring on the ground to match up with the satellite 
data.
    Mr. Kennedy. If you would prepare for the Committee some 
more detailed recommendations as to the needs that you have in 
doing the spectrum kind of measurements from space through the 
Mission to Plant Earth, geological surveys, just as we would in 
a ``go-to-space'' look at other planets, the way we would look 
at our own, I think it would be very helpful because the point 
of these hearings is to work with other committees, to inform 
them as to what they need to be doing from our own hearings, 
and support their efforts as well, and I know many members of 
this committee, including myself, set on other committees. I 
sit on the Commerce Appropriations Committee that funds NOAA. I 
also sit on the committee that funds NASA, and we will be 
considering funding for new satellites, and also the schedule 
of launches and things of that sort, and it would be really 
good to have your input in those regards.
    Thank you.
    Mr. Myers. Thank you. I would be happy to provide that.
    Mr. Costa. The gentleman from Rhode Island, we are 
attempting--for your information--to possibly look at doing a 
joint subcommittee meeting with the Subcommittee on Oceans and 
Fisheries to look at those impacts, so it is not really quite 
of the purview of this subcommittee. But for the State of the--
what did you refer to that--Oceans?
    Mr. Kennedy. The Ocean State.
    Mr. Costa. The Ocean State. OK. If we are able to work that 
out, you will obviously want to participate in that 
subcommittee hearing.
    All right, the next, my gentleman from New Mexico.
    Mr. Pearce. Thank you, Mr. Chairman. I only have one 
question and then I will probably yield back the rest of the 
time so we can get on to the second panel, and Mr. Myers, so 
you can stop smiling quite that big.
    What were the CO<INF>2</INF> levels prior to the Industrial 
Revolution, and prior to the 1940s or whatever? I don't know if 
I have the right terminology or not, but you know what I am 
talking about. People are saying that since the 
industrialization the levels have really jumped.
    Mr. Costa. It would be the Nineteenth Century, aren't we 
talking about? Not the 1940s? Two hundred years?
    Mr. Pearce. The 1940s are key.
    Mr. Myers. Certainly below 300 parts per million in, I 
believe, around the 250 range.
    Mr. Pearce. About 250, and then they are what today?
    Mr. Myers. They are again 385.
    Mr. Pearce. OK, so 385 versus 250. What would happen if 
that number were significantly changed, that pre-industrial 
number, that 1940s number? What would happen if that were say 
380? What would that do to all the models?
    First of all, is the actual science occurring by 
measurement or models?
    Mr. Pearce. The actual parts per million in the atmosphere 
today, and then back-casting in the geological record through 
ice cores is in actual measurements.
    Mr. Pearce. OK, those are actual measurement, but the 
conclusions, are those models or are those actual demonstrated 
scientific effects?
    Mr. Myers. The future projections?
    Mr. Pearce. Yes.
    Mr. Myers. Those are modeled.
    Mr. Pearce. OK. So now then obviously if that number was 
not 250 like you said but was a higher number, say 380, what if 
it is almost exactly the same as today, how would that change 
the models? Significantly or not significantly?
    Mr. Myers. Mr. Pearce, for what period of time? For a long 
period of time or just a blip?
    Mr. Pearce. No. You would know that better than I do. Just 
all the assumptions that are being made, what if that 
assumption is wrong? What is the assumption is low, and what if 
the actual fact is closer to 380?
    Mr. Myers. Certainly there are times in the geologic 
records that----
    Mr. Pearce. No, no, no. I am asking--that is not my 
question.
    Mr. Myers. OK.
    Mr. Pearce. My question is what if that is an inaccurate 
number? What does it do to the models? Does it affect them 
drastically or not drastically. From my standing up here, it 
appears like a significant piece of the equation?
    Mr. Myers. Mr. Pearce, I don't know. We would have to rerun 
the models. Again, that would be--generally the GS does not run 
those models. It would have to be Encars or some other----
    Mr. Pearce. OK. You are testifying here the--I mean, you 
are putting strong words in the testimony, and so it is kind of 
a key thing. You did state that human activity is causing 
global warming, and if that number were different, would that 
change that statement?
    Mr. Myers. What I said was human impacts are part of the 
global climate change and global warming. Certainly natural 
impacts are also part of it.
    Mr. Pearce. All right. I am not trying to get--I mean we 
are trying to come up with the best that we can because we have 
to choose the right course of action for the whole country for 
a long period of time. If we choose incorrectly on either side, 
and so that to me appears to be a significant number, and if it 
is incorrect, then that is a significant change in our 
philosophical debate.
    Let me see. I will yield back, and thank you, Mr. Chairman.
    Mr. Costa. Maybe during the sequestration hearing, we will 
get a chance to examine those numbers.
    The next member is a person I have had the pleasure to 
serve with for many years, the gentlewoman from Southern 
California, Congresswoman Solis.
    Ms. Solis. Thank you, and thank you, Mr. Chairman, for 
having this very important hearing, and I am delighted that the 
discussion is centering on this important topic because, as you 
know, the Speaker did develop this select committee on energy 
independence and global warming.
    Obviously, for many, this is much more important than in 
locals that you would probably not even think of, and I want to 
kind of address myself to those core cities, the large cities 
in the United States, and to see if there is any data that is 
out there regarding any different trends in climate change as 
that has occurred over the last 20 or 30 years, partly because 
we see a large infusion of population in our inner cities, and 
different rural areas that are now being more heavily occupied.
    What does that mean for the future, not just in the 
Southwest, but in those heavily populated areas where perhaps 
our infrastructure needs aren't quite there?
    Mr. Myers. Thank you for that question. I think you can 
categorize it in different areas. Among the Gulf Coast or the 
Southeast Coast where hurricanes are a significant factor, in 
fact, the severity of hurricanes are increasing, then the civil 
preparedness needs to be looked at with respect to larger 
storms and have typically been modeled. A Katrina-level storm, 
for example, it certainly wasn't modeled for with respect to 
the level of storm surge because we hadn't demonstrated that 
level of storm. So certainly severity of storm needs to be 
looked at, and the effect on coastal environments.
    Sea level rise is an issue in those areas that are very low 
lying, and with respect to the populated areas in large cities 
that are in these low-lying areas.
    In the West, water availability would be an issue as we see 
changes in the distribution, the amount of snow pack, and the 
availability of water, and competition for use of that water.
    Ms. Solis. In the Southwest, and especially in Southern 
California, we have had a very unseasonably warm winter, and 
here, so to speak, as well in the Northeast. But it has a 
general high impact with respect to the use of energy, and the 
flow of that energy, and I am just wondering, are there models 
where we might be able to predict where we are going to see 
drought and severe types of weather where in California, for 
example, at this particular time we are seeing outbursts of 
fire, uncontrolled fire that is affecting many parts of the 
southern part of the state?
    Mr. Myers. Certainly there are models now. The models that 
we have need improvement in terms of being effective regional 
models, and that is being looked at. I think that is one of the 
future research areas.
    As was talked about before, understanding the variability 
in climate from an historical perspective and then from a 
geological perspective allows to very fine tune those models 
with the observational data, and hopefully will be able to 
actual have shorter-term models that have utility with respect 
to water availability supply in the future.
    Ms. Solis. Do you plot out that information right now based 
on geography and demographics?
    Mr. Myers. Certainly the regulatory bodies do, like the 
Bureau of Reclamation in the West. They are pretty careful 
about that. We actually record, for instance, stream gauge 
data, the long-term stream gauge record, and use that to look 
at the amount of discharge and the predictable, not only season 
by season, but year by year over a long-term record.
    We also look, in doing the science with respect to 
groundwater and groundwater availability, soil moisture.
    Ms. Solis. All right. One of the concerns that I have is 
someone representing a more suburban/urbanized area is that 
recently many of our cities, I would say well over--I believe 
it is 409--have agree through their own, I guess, discussions, 
the Conference on Mayors passing protocols and goals and 
standards to try to mitigate the negative effects of global 
warming and climate change in their cities, and I am wondering 
what can we do in terms of the Federal government to help 
provide our states amply and our cities with information that 
they might be able to include in their general planning and 
things of that nature.
    Mr. Myers. I think there is two thrusts. One is the water 
availability, the ability to develop models, the ability to 
help predict so you can have a predictable understanding of the 
availability of water, the changes in the biomes, but also on 
the hazards front, work to help predict, and in the case of 
some of the coastal states that have earthquake effects, what 
happens when the aqueducts get broken? You know, what is the 
combination effects? What is the fire, earthquake risk, and 
then combine it with the availability of water?
    So I think a lot of that work the survey has been involved 
with that with a lot of the local communities, and I think that 
is an incredibly valuable and important service. Again, as the 
adaptation component to recognize climate changes are 
occurring, and what those effects might be in urban areas.
    Ms. Solis. Mr. Chairman, I know my time is up, but I would 
like to for the record enter in a report by the Conference of 
Mayors that was issued in Chicago 2005, wherein there is an 
outline of what many of our local communities and cities have 
done across the country. In many ways they are far ahead of the 
game than we are, if I might.
    Mr. Costa. All right, without objection.
    [NOTE: The report submitted for the record has been 
retained in the Committee's official files.]
    Mr. Costa. Congresswoman Solis, I also will reference, I 
don't know if you will be able to say for the second panel, but 
Dr. Westerling is an associate professor at our newest UC 
campus in California, Merced, and his focus is the impact of 
research on, in part, forest fires, and their impact on climate 
changes, so that might be a good question you want to ask him 
at that time.
    All right, Mr. Myers, thank you. You are so prestigious to 
be a panel one. We appreciate your time and we need to get some 
of those maps. We are working on that, right?
    Mr. Myers. We are working on it.
    Mr. Costa. That is a totally different subject.
    Mr. Myers. Yes.
    Mr. Costa. But members of the Subcommittee and, of course, 
the Full Committee, know that the United States Geological 
Service is one of, I think, the best of map makers in the 
world, and they have tremendous information for us, and would 
urge the members of the Subcommittee as well as the Full 
Committee to avail themselves of the USGS information that they 
have. Anyway, thank you.
    Mr. Myers. Thank you.
    Mr. Costa. All right, our next panel, we have six members, 
I believe, on that panel, and if you will all come forward. I 
am going to go through the list of the six witnesses, and then 
we will begin with our rounding questioning, and the first 
witness that we have before us is Ms. Deborah Williams, who is 
President of the Alaska Conservation Solutions, and a former 
Special Assistant to the Department of Interior as it relates 
to Alaska, and it is my understanding that while she is 
originally from California, she for the last 20 years has 
adopted Alaska as her state. So with that understanding, we 
will begin with you, Ms. Williams, if you are ready to go.
    I want to apologize to the members, by the way, of the kind 
of setup here. Members, I like to have--when witnesses have the 
multimedia stuff, but we are kind of handicapped in this room. 
It is far away and it is hard to see. In the future, we will 
try to also have handouts that complement whatever presentation 
folks are making. It is what it is this afternoon.

 STATEMENT OF DEBORAH WILLIAMS, PRESIDENT, ALASKA CONSERVATION 
 SOLUTIONS, FORMER SPECIAL ASSISTANT TO THE DEPARTMENT OF THE 
                        INTERIOR, ALASKA

    Ms. Williams. Thank you so much, Mr. Chairman.
    Global warming represents the single greatest threat to 
Alaska's public lands and to the people who rely on those 
public lands. The impacts from global warning in Alaska are 
scientifically measurable, costly, damaging to Alaska Native 
cultures, harmful to treasured plants and animals, and 
detrimental to future generations of Americans.
    Fortunately, we can successfully address this tremendous 
problem utilizing multiple strategies, including the rapid 
deployment of renewable energy resources.
    My name is Deborah Williams. I am President of Alaska 
Conservation Solutions, and formerly served as a Special 
Assistant to the Secretary of Interior for Alaska. I have also 
been asked to testify on behalf of the Alaska Conservation 
Alliance, representing 40 organizations with a combined 
membership of over 38,000 Alaskans.
    Alaska is very significant with respect to global warming 
on public lands for two reasons:
    First, Alaska contains a substantial percentage of our 
nation's public lands. For example, Alaska contains 
approximately 50 percent of all the lands that the Department 
of Interior manages.
    Also, Alaska is warming faster than anywhere else in the 
nation. In the last 50 years, we have warmed 4 degrees 
Fahrenheit according to the National Assessment Synthesis team, 
while the rest of the globe has warmed 1 degree.
    As described more fully in my 12-page testimony, the 
impacts in the last frontier from global warming are pervasive, 
damaging, and include, to name a few, dramatic declines in sea 
ice, glaciers and permafrost, significant losses in ponds and 
lakes. In fact, in some public lands in Alaska, we have lost 
over 54 percent of the ponds. They have completely dried up.
    We have had substantial reductions in wetlands. We have had 
measurable and pervasive decreases in tree growth, record-
breaking tree diseases, and we have had massive fire seasons. 
In two years alone, in 2004 and 2005, 11 million acres of 
Alaska burned.
    We have had substantial increases in certain diseases that 
have caused declines in certain animal populations such as 
salmon, and most notably, in King salmon in the Yukon River. 
The Yukon River in Alaska has increased over 10 degrees 
Fahrenheit in the last 25 years, and that has resulted in new 
terrible diseases for our salmon populations.
    We have had adverse impacts on Alaska Native subsistence 
and other peoples' subsistence. We have had ocean 
acidification. We have had damage to and loss of 
infrastructure, and we have had adverse impacts on health for 
Alaskans throughout the state.
    Because of this committee's jurisdiction, I wanted to 
highlight three impacts that demand protective action with 
respect to non-renewable resource development. As this 
committee know. polar bears in Alaska are deeply threatened. 
They have experienced drownings, dislocation from sea ice, 
cannibalism, starvation, smaller skull size, and significantly 
higher cub mortality. Furthermore, polar bears are now denning 
primarily on land instead of ice.
    Therefore, first recommendation: Protecting the coastal 
plain of the Arctic National Wildlife Refuge which supports the 
highest concentration of polar bear denning sites in our nation 
is more important than here.
    The Bering Sea, which is our nation's fish basket, is 
experiencing significant declines. Recommendation: Because this 
tremendously important asset and ecosystem, which provides 
almost 50 percent of all the fish produced in our nation, is 
undergoing stresses from global warming, Congress, through the 
recommendation of this committee, should re-institute the 
moratorium on offshore oil and gas production as soon as 
possible.
    Global warming is causing accelerated shoreline erosion, 
and as a result is redefining our public land maps in Alaska. 
For instance, Newtok has lost two to three miles of shoreline 
in the last 40 years. The critical habitat area north of 
Teshekpuk Lake, in the northeast corner of the National 
Petroleum Reserve Alaska, is already losing low elevation lakes 
to rising ocean. This inundation not only affects habitat, it 
is also affecting oil and gas infrastructure. At least one 
older drilling site in the National Petroleum Reserve is now 
under water.
    The third recommendation: This committee should order a 
study to examine the threats to oil and gas infrastructure and 
past drilling sites on public lands in Alaska from inundation 
caused by global warming, particularly within the National 
Petroleum Reserve.
    Unfortunately, there were wonderful representatives from 
Utah, Shishmaref, and Kivalina, the three communities most at 
risk and that must be relocated now who were here for this 
committee, they had to leave. But on their behalf we truly need 
this committee to recommend and Congress to help relocate these 
communities, and as a nation we have a moral obligation to 
relocate them.
    Now for the good news. Fortunately, Alaska has a very 
positive role to play in the reduction of greenhouse gas 
emissions. As described fully in the Renewable Energy Atlas of 
Alaska, Alaska has outstanding and inexhaustible geothermal 
wind, biomass, wave, tidal, and hydro electric energy supplies. 
There are some exciting developments in Alaska regarding 
renewable energy, but there needs to be much more done. 
Congress needs to assist Alaska, the nation, and the world in 
developing renewable energy potential. I would like to 
highlight three recommendations in that regard.
    Geothermal, wind and ocean: With respect to wind, Congress 
should support the work of the Denali Commission and others in 
the instillation of wind generation capacity throughout Alaska, 
and throughout the nation. We also have the potential for wind 
to create hydrogen for local use and ultimately for export. 
That is something that this committee can recommend.
    With respect to biodiesel, there is tremendous potential 
with respect to biodiesel, and that is something both in Alaska 
and throughout the Nation that this committee should recommend 
and we should explore.
    And geothermal, this committee should quickly and 
decisively support expanded geothermal research and power 
production, including supporting Senator Murkowski's REFRESH 
Act of 2007, and finally, ocean power. With our 34,000 miles of 
coastline, more than the rest of the nation, in Alaska, we 
offer one of the best wave resources and tidal resources in the 
world.
    Final recommendation: Congress needs to support the 
research and financial assistance associated with developing a 
renewable wave and tidal energy as soon as possible. MIT and 
others have recently come out with reports strongly 
recommending this.
    We, in America, are indeed a great people. It is time to 
address the tremendously destructive reality of unaddressed 
global warming, and seize the wonderful opportunities 
associated with renewable energy, energy conservation and 
energy efficiency.
    Mr. Costa. Thank you, Ms. Williams.
    Ms. Williams. One last sentence?
    Mr. Costa. One last sentence.
    Ms. Williams. That is it.
    Mr. Costa. You got a little more time than----
    Ms. Williams. I know. Wasn't that fabulous.
    With this committee's assistance----
    Mr. Costa. Well, but I am supposed to be even-handed in 
this.
    Ms. Williams. This is indeed my one last sentence, and 
thank you so much, Mr. Chairman.
    With this committee's assistance, we can and must move 
toward a clean and renewable energy path to protect the Nation 
and the public lands that we cherish.
    Thank you so much.
    [The prepared statement of Ms. Williams follows:]

             Statement of Deborah L. Williams, President, 
                     Alaska Conservation Solutions

    It is an honor to testify before the Subcommittee on Energy and 
Mineral Resources about the significant, pervasive, and costly impacts 
that climate change is having on public lands in Alaska, and Alaska's 
potential renewable energy contributions to the nation. As described 
more fully below, global warming represents the single greatest threat 
to Alaska's public lands, and to the people who rely on those public 
lands. Fortunately, renewable energy from Alaska and elsewhere will 
benefit our environment, our economy, and our national security. 
Accordingly, I urge this Subcommittee to expand renewable energy 
opportunities and to support other actions to reduce greenhouse gas 
emissions and to protect our public lands in response to global 
warming.
I. Alaska's Public Lands and Global Warming: We are the Paul Revere of 
        Climate Change
    More than anywhere else in the United States, Alaska has 
experienced widespread, adverse impacts from global warming, which are 
negatively affecting our public lands and our public resources. These 
impacts are well documented and representative of many of the 
substantial human and economic costs associated with climate change. 
Alaska serves as an early warning system for the rest of the nation and 
world. We demonstrate clearly the need to recognize the assault of BTUs 
associated with global warming--and the imperative to take action now.
    A. Alaska's Public Lands: Their scope and contributions.  Alaska is 
very significant with respect to global warming on public lands for two 
reasons. First, Alaska contains a substantial percentage of our 
nation's public lands:

 
                ,--                                   ,
 
        National Park acreage:       approximately 68% in Alaska
        BLM Public Lands:            approximately 33% in Alaska
        National Forest Service      approximately 11% in Alaska
 Lands:                              approximately 83% in Alaska
        National Wildlife Refuge:
 

    There are also many other public land superlatives that apply to 
Alaska. Alaska hosts the largest National Forest (the Tongass), the 
largest National Wildlife Refuge (the Arctic National Wildlife Refuge), 
and the largest National Park (Wrangell-St. Elias National Park). 
Approximately half of the nation's congressionally designated 
wilderness resides in Alaska. Our vast public lands nourish species 
that migrate to states throughout the nation. Of particular importance, 
Alaska's public lands nourish vibrant Alaska Native cultures through 
fish and wildlife subsistence opportunities, a unique and priceless 
relationship. Others in Alaska and throughout the nation benefit from 
Alaska's public lands, and the fish and wildlife that these lands 
sustain, through tourism; ecosystem services; recreational 
opportunities; existence values; the support of beloved and 
irreplaceable ecosystems (such as the temperate rainforest) and species 
(such as the polar bear); and other services. Alaska's national public 
lands are a priceless national asset.
    B. Alaska Has Warmed Four Times More than the Global Average. 
Alaska is also significant because we have warmed much more than the 
rest of the nation, and we are able to document scientifically and with 
traditional knowledge dramatic impacts throughout the state. While the 
earth as a whole has warmed approximately 1o F in the last 50 years, 
according to the National Assessment Synthesis Team, Alaska has warmed 
approximately 4o F during this same time period. The impacts in the 
Last Frontier are pervasive and include, with respect to public lands, 
damage to: Alaska's water bodies and wetlands; vegetation; ice, 
glaciers, and permafrost; animals; and subsistence opportunities. 
Because of global warming, Alaska has also experienced damage to our 
infrastructure, health, economy, and quality of life.
    In this testimony, after a brief background section, I will 
describe the major scientific evidence regarding the impacts of global 
warming on public lands and related resources, and I will make 
recommendations to the Subcommittee associated with certain section as 
appropriate. Attached to this testimony is a comprehensive bibliography 
of the sources that support the factual information presented.
II. Background
    I currently serve as President of Alaska Conservation Solutions, 
located in Anchorage, Alaska. Founded in 2005, Alaska Conservation 
Solution (AkCS) exclusively addresses the impacts of and solutions to 
global warming, with a focus on Alaska. As President of AkCS, I have 
extensively toured the state of Alaska. In this capacity, I have not 
only observed the clear, dramatic impacts of global warming on our 
public lands, but I have also talked with federal land managers, 
scientists, Alaska Natives, and others about the impacts that they are 
measuring, documenting and observing. Furthermore, I have had the 
opportunity to work with many groups, companies and individuals 
regarding Alaska's renewable energy potential and contributions.
    In the past, I have had the privilege of working for the Department 
of Interior, and have been extensively engaged in public land issues. 
Upon graduating from Harvard Law School in 1978, I participated in the 
Department of Interior's Solicitor's Honors Program in Washington DC. 
After the completion of the program, I transferred to Alaska to 
represent the National Park Service and the Fish and Wildlife Service 
in the Department of Interior's Regional Solicitor's Office in 
Anchorage.
    Subsequently, in 1995, I received a Presidential Appointment as the 
Special Assistant to the Secretary of Interior for Alaska. In this 
position, I managed the Secretary's office in Alaska, the only such 
office outside of Washington, DC, and assisted the Secretary in 
overseeing the Department's extensive legislative mandates in the 49th 
state. I held this position for five years. Among my many 
responsibilities, I was actively engaged in public lands issues, 
subsistence matters, and climate change.
III. The Adverse Impacts of Climate Change on Alaska's Public Water 
        Bodies and Wetlands
    Because of global warming, water bodies throughout Alaska's public 
lands are shrinking substantially in size and numbers. In an exhaustive 
study of 10,000 closed ponds, scientists with the University of Alaska 
have documented a significant loss in the number of ponds, and in the 
surface area of those ponds, in key public land areas in the last half 
of the 20th century. For example, Innoko Flats National Wildlife Refuge 
lost 30% of its ponds during the last fifty years and experienced a 
total pond surface area loss of 31%. Similarly, the Copper River Basin, 
Wrangell St. Elias National Park, lost 28% of its pond surface water 
area in the last half century. Tetlin National Wildlife Refuge lost 20% 
of its ponds. According to the scientists, these dramatic changes 
present
        ``profound consequences for provisioning services and the 
        management of natural resources on National Wildlife Refuges in 
        Alaska...These refuges provide breeding habitat for millions of 
        waterfowl and shorebirds that winter in more southerly regions 
        of North America. Wetland areas have also been traditionally 
        important in the subsistence lifestyles of native peoples in 
        interior Alaska, and changes in the structure and function of 
        wetlands has the potential to affect the sustainability of 
        subsistence lifestyles'' (Riordan 2006).
    Similarly, wetlands in studied areas in the Kenai National Wildlife 
Refuge have decreased by 88% and pond area has declined by over 70% 
from 1950 to 1996. According to evidence from peat core samples, bushes 
are now in areas in the Kenai where there were no trees or shrubs 
during the last 8,000 to 12,000 years. These and other scientific 
studies confirm reports of disappearing and shrinking ponds from Alaska 
Native elders, with many ramifications including adverse impacts on 
migratory birds, water dependent species, subsistence opportunities, 
and fire.
    There are other documented impacts from global warming on Alaska's 
public waterways, the ``life blood line'' of Alaska's public lands. 
Rivers, like the Yukon River, have warmed substantially. According to 
temperature graphs produced by Dr. Richard Kocan from the University of 
Washington, the summer temperature of the Yukon River has increased 
over 10oF in the last 25 years. (The impact of this increase on salmon 
is discussed below.) Also, massive collapses of river-side permafrost 
are increasing sedimentation in the waterways. Unfortunately, however, 
we have very little information about the warming. Recommendation 1: 
There is inadequate stream and river monitoring data regarding 
temperatures and resulting impacts; Congress should fund additional 
monitoring, analysis and management response in this critical area.
IV. The Adverse Impacts of Climate Change on Vegetation on Alaska's 
        Public Land
    A. Trees. Trees throughout Alaska's public lands have been 
adversely affected by global warming, including white and black spruce, 
yellow cedar, birch and larch. According to a study that analyzed 
thousands of satellite images taken over two decades, there are vast 
reaches of boreal forest on our public lands where photosynthesis has 
clearly decreased over the last 22 years. In central Alaska where it is 
dry, white spruce and black spruce have shown documented declines in 
growth. Projecting forward, a 4oC increase in July temperatures would 
result in no growth of these species in much of interior Alaska (Please 
see Figures 1 and 2).
    Trees throughout Alaska are also subject to substantially increased 
diseases because of warmer temperatures. Southcentral Alaska 
experienced the world's largest outbreak of spruce bark beetle, killing 
mature trees on over 4 million acres of land, including vast forests in 
the Kenai National Wildlife Refuge, the Chugach National Forest, Lake 
Clark National Park, and other areas. Three global warming factors 
contributed to this. With longer warmer summers the spruce bark beetle 
can complete its life cycle in one instead of two years. Winter 
temperatures have not been cold enough for two consecutive years to 
depress survival rates. Lastly, the trees have not been able to defend 
themselves with sufficient pitch because of the stress of heat and 
drought.
    Other serious warming-related diseases that have damaged or killed 
large numbers of trees on public lands include the larch saw fly, 
spruce bud worm, birch leaf miner, aspen leaf miner, spruce aphid, and 
birch leaf rollers. For example, before 1990, spruce budworm was not 
able to reproduce in central Alaska. After warming in the 1990's, large 
infestations of budworms have occurred. With increased warming, all 
white spruce in Alaska will be vulnerable to outbreaks. Furthermore, 
trees in Southeast Alaska, including in the Tongass National Forest, 
are now, with warming, harboring aphid infestations.
    In Southeast Alaska's Tongass National Forest, scientists have 
documented a massive die-off of yellow cedar on over 500,000 acres of 
land. Many consider yellow cedar the Tongass National Forest's most 
valuable tree both economically and culturally. Because of warmer 
temperatures, there has been less snow to protect the tree roots and 
also early dehardening of the foliage. Then, when a subsequent late 
freeze occurs, the foliage and roots are severely injured, leading to 
tree death.
    B. Fires. Vegetation on Alaska's public lands has also been 
impacted by record breaking fire seasons. In 2004, over 6.6 million 
acres burned, the largest Alaska fire season ever documented. In 2005, 
approximately 4.6 million acres of Alaska burned, the third largest 
area ever recorded. (Please see Figure 3). Cumulatively, during these 
two years, over 25% of the forests in the northeast sector of Alaska 
perished. These burn rates are entirely consistent with global warming 
models and predictions. Some of the public lands most impacted by 
massive, global warming enhanced fires are Kanuti and Tetlin National 
Wildlife Refuges.
    C. Invasive Species. Finally, because of warming, Alaska's public 
lands and waters are now subject to increasing threats from invasive 
species. Plants that could not previously reproduce in a colder Alaska 
can now do so with our warmer climate. One example is Purple 
Loosestrife. This plant is an aggressive invader of wetlands, and a 
serious threat to habitat and biodiversity. It requires warm 
temperatures for germination (15-20C), and now, for the first time, can 
reproduce in Alaska waterways.
V. Dramatic Reductions in Ice, Glaciers and Permafrost, and their 
        Impacts on Public Lands
    A. The Arctic Ice Cap. The Arctic Ice Cap is a key ecological 
component of our nation's northernmost public marine environment and 
the adjacent public lands: the Arctic National Wildlife Refuge and the 
National Petroleum Reserve--Alaska. There was a record low amount of 
Arctic sea ice in September 2005. Between 1979 and 2005, an area twice 
the size of Texas has melted away, over a 20% decrease in the minimum 
summer area. It has since failed to fully recover. In November 2006, 
ice coverage was the lowest ever recorded for that month. Another way 
of stating this substantial loss is that, according to the IPCC, 
``since 1978...(the) annual average Arctic sea ice extent has shrunk by 
2.7 (2.1 to 3.3)% per decade, with larger decreases in summer of 7.4 
(5.0 to 9.8)% per decade.'' Throughout the Arctic Ice Cap, the 
thickness has also decreased on average by 40%. Arctic ice is critical 
habitat for polar bears, ice seals, walruses, certain species of bird, 
and other animals. It is also essential for the traditional subsistence 
activities of Alaska's Inupiat people.
    Equal to any other evidence, the projected modeling of the future 
of the Arctic Ice Cap supports the importance taking meaningful action 
now to reduce greenhouse gas emissions. The modeling shows that if we 
continue to increase emissions of greenhouse gases that the Arctic Ice 
Cap, and the entire critical habitat that it fosters, could be 
eliminated as early as 2040. However, that same modeling shows that if 
we substantially reduce emissions, we can save the Arctic Ice Cap and 
even expect some recovery. In other words, according to Dr. Marika 
Holland with the National Center for Atmospheric Research, their 
modeling ``indicates that society can still minimize the impacts on 
Arctic ice.'' Recommendation 2: Explore further the emission reduction 
scenarios that will, according to modeling, help sustain the Arctic Ice 
Cap, and support legislation that achieves those reductions.
    B. Glaciers. The rapid retreat of Alaska's glaciers represents 
about 50% of the estimated mass loss by glaciers through 2004 
worldwide. Between 1961 and 1998, Alaska and a small part of Canada 
lost over 588 billion cubic yards of glacial mass. In southeast Alaska, 
glacier surface elevations decreased over 95% of the area analyzed, 
with some glaciers thinning in a 52 year period by as much as 640 m 
(approximately 2,100 feet). The loss of Alaska's glaciers alone has 
contributed over 9% to global sea level rise.
    Glaciers are an important component of many of Alaska's public 
lands, ecologically, aesthetically, recreationally, and for tourism. 
Repeatedly, Alaska tourists list glaciers as one of the top three 
reasons they visit the state. Unfortunately, many of our most visited 
glaciers are retreating quickly and significantly. An entire U.S. 
Forest Service Visitor Center was built on a site to view the Portage 
Glacier in the Chugach National Park. That glacier is no longer visible 
from the visitor center. The most observed glacier in Alaska, the 
Mendenhall Glacier in the Tongass National Forest, has retreated 
hundreds of feet a year, and is projected to recede from its frequently 
photographed lake terminus.
    Rapidly retreating glaciers disrupt both fish and birds associated 
with our public lands. Sockeye salmon fry in Skilak Lake, part of Kenai 
National Wildlife Refuge, showed substantial declines in size in two 
recent years of large glacial melting. Fry in 2004 were about 50% 
smaller than average for the prior decade; fry in 2005 were 60% 
smaller. Similarly, the Kittlitz's murrelet, which feeds at the edge of 
glaciers, declined 60% between 1991 and 1999 in Glacier Bay National 
Park and declined 83% since 1976 in Kenai Fjords National Park (Please 
see Kittlitz murrelets photo, Photo 1).
    C. Permafrost. With respect to permafrost, all of the observatories 
in Alaska, on both public and private lands, have shown a substantial 
warming during the last 20 years, often resulting in damage to 
infrastructure, rivers, shorelines, lakes, and forests. (Please see 
Photo 2 demonstrating damage to National Wildlife Refuge forests from 
melting permafrost). In locations such as Franklin Bluff on the North 
Slope, the top layer of permafrost has warmed 3oC between 1987 and 
2003. Notably, the warming of permafrost has penetrated great depths, 
with observations of 2oC warming 60 feet under the ground. One should 
note that melting and warming permafrost also makes the construction of 
oil and gas infrastructure more difficult and costly.
VI. The Impact of Global Warming on Animals Associated with Alaska's 
        Public Lands
    Whether on ice, land, or water, animals throughout Alaska, have 
experienced declines due to global warming within our public areas.
    A. Polar Bears and Other Ice Dependent Species. Polar bears rely on 
sea ice for their survival, including feeding, mating, and resting. 
Because of global warming, Alaskan polar bears have experienced less 
ice, drownings, dislocation from sea ice, cannibalism, starvation, 
smaller skull size, and higher cub mortality. Similar ice conditions 
and trends in the Western Hudson Bay population in Canada have resulted 
in a 22% population decline in 17 years. In the last fifteen years, the 
population of Southern Beaufort Sea polar bears has been estimated to 
be as high as 2,500 bears, and then 1,800 bears. Recently, using the 
most rigorous surveying methodology to date, the population is believed 
to be only 1,526 bears.
    The decrease in sea ice jeopardizes this iconic national species. 
The impacts include a statistically significant decline in the survival 
rate for first year polar bear cubs in the southern Beaufort Sea from 
61 cubs per 100 adult females between 1967-89 to 25 cubs per 100 adult 
females between 1990-2006. Furthermore, skull measurements of both 
first year cubs and adult males were also statistically significantly 
smaller. Previously, between 1979 and 1991when there was more ice, 87% 
of Alaska polar bears surveyed were found on sea ice. This percentage 
fell to 33% from 1992 to 2004. This, and increased storm intensity, 
have contributed to documented drownings.
    Finally, the Arctic National Wildlife Refuge coastal plain and 
other coastal areas are becoming more important to the survival of this 
species. Between 1985 and 1994, 62% of Alaska polar bears denned on 
ice. That has shifted dramatically. Between 1998 and 2004, only 37% 
denned on ice, the rest denned on land. The Arctic Refuge supports the 
highest concentration of polar bear denning sites for our nation.
    As a result of the all the evidence the World Conservation Union 
(IUCN) in 2006 classified polar bears as vulnerable, concluding that 
five populations, including Alaska's southern Beaufort Sea population. 
Recommendation 3: The House Natural Resources Committee should support 
listing polar bears as threatened under the Endangered Species Act. 
Recommendation 4: As sea ice thins and retreats due to global warming, 
protecting the coastal plain of the Arctic National Wildlife Refuge is 
more important than ever to safeguard polar bear denning sites on 
public lands.
    Other Alaska ice dependent species are also showing signs of global 
warming stress. As ice pulls away from the continental shelf there are 
observations of walrus mothers having abandoned their calves. Further 
out on the ice, the snow cavities for some ring seals and other ice 
seals are collapsing with warming temperatures, exposing their young to 
predation or freezing.
    B. Salmon. Salmon populations in Alaska depend on public lands and 
these ecologically, economically and culturally significant species are 
adversely affected by increased temperatures. One of the state's most 
important rivers with respect to public lands, the mighty Yukon, flows 
through or is adjacent to multiple parks and refuges, including the 
Yukon Delta National Wildlife Refuge (our nation's second largest 
refuge), Innoko National Wildlife Refuge and Yukon Flats National 
Wildlife Refuge. In the last 25 years, the Yukon has warmed more than 
10oF in summer months. As a result, up to 45% of Yukon salmon are now 
infected with the parasite Icthyophonus, never found before 1985. This 
disease weakens fish because it attacks heart and skeletal muscle 
tissue. It also prevents the drying of fish, making infected fish 
inedible as fish-rack dried subsistence foods, a critical component of 
many Alaska Native diets.
    Global warming has also adversely affected other public land 
dependent salmon. After the warm summer of 2004, the pink salmon 
harvest in Southeast Alaska, which mostly relies on the Tongass 
National Forest, was dramatically lower than predicted in 2006. The 
Alaska Department of Fish and Game (ADF&G) had forecast a purse seine 
catch of 52 million. According to ADF&G, the actual harvest was only 
11.4 million, 40 million less than predicted. Officials with ADF&G 
targeted warmer temperatures as the cause. Fewer salmon are bad for 
fisherman, the fishing economy, and the entire ecosystem, which relies 
on abundant salmon runs for nutrition and nutrients.
    ADF&G has established standards for water temperatures, concluding 
that temperatures above 55oF are unhealthy for spawning areas. In four 
streams monitored in Alaska's salmon-rich Kenai Peninsula in 2005, 
there were more than 80 days that exceeded this temperature threshold. 
(Please see Figure 4).
    C. Ungulates. Other species on our public lands are also 
experiencing declines because of global warming. The Porcupine Caribou 
herd, which relies on the Arctic National Wildlife Refuge as well as 
public lands in Canada, has experienced a population decline since 1989 
of 3.5% per year to a low of 123,000 animals in 2001.'' (ACIA 2004) 
Scientists believe this is attributable to global warming caused by 
freezing rain (which coats their lichen making it very hard to access 
in the winter), changing river conditions, and less tundra.
    For species that rely on high elevation ecosystems on public lands, 
they are also experiencing the impacts of global warming. For example, 
Dall sheep live exclusively in alpine tundra. Due to warmer 
temperatures, the treeline in the Kenai Mountains of the Kenai National 
Wildlife Refuge has risen at a rate of about 1 meter/year over the past 
50 years. According to Dr. John Morton, chief scientist with the 
Refuge, ``...we're going to have declining Dall sheep. We're losing 
their habitat.''
    D. Bering Sea Species. Fish and other species in the Bering Sea, 
our nation's fish basket, are also showing signs of impact. Because 
certain National Wildlife Refuge islands are surrounded by the Bering 
Sea and because many other Refuges and Parks are adjacent to the Bering 
Sea, the health of the Bering Sea has a major impact on them. The 
Northern Bering Sea is changing from arctic to subarctic conditions 
caused by warmer air and water temperatures, and less sea ice. Even 
bottom water temperatures are demonstrably increasing. As a result, the 
prey base of benthic (bottom) feeding walrus, endangered sea ducks like 
spectacled eiders, and gray whales is declining; snow crab catches have 
declined 85% in six years along with other crab decreases; and crab 
populations have shifted northward. Yellowfin sole and Greenland turbot 
catches have been dropping, in addition to declines in fur seals and 
seabirds. Some pollock are moving into cooler Russian waters because of 
global warming. Recent surveys have measured the first decrease in U.S. 
pollock stocks in Alaskan waters in six years, resulting in a reduction 
of the catch allotment. In short, warming waters are creating a 
northward migration of marine life on an unprecedented scale. 
Recommendation 5: Because the Bering Sea is so important to the nation 
for fishery production (including salmon, pollock, crab and halibut), 
for sustaining marine mammals, and for nourishing Alaska Natives and 
others; and because the Bering Sea is already being stressed by global 
warming, Congress should re-instate the Moratorium on off-shore oil and 
gas production. Instead, renewable energy options, such as wind, wave 
and geothermal should be fully explored and implemented.
    E. Migratory Birds. Unfortunately, in addition to the impacts 
described above, there are many more species of animals that reside on 
public lands, which are being adversely affected by global warming. 
Because of space constraints, I will discuss just one more: a 
representative migratory bird that touches many states in the union, 
the scaup. Population of these diving ducks appears ``to be in peril'' 
(Consensus Report 2006). They have declined from over 7 million in 
1970s to a record low in 2006--3.2 million (Ducks Unlimited 2007). Why? 
We see the fingerprints of global warming, once again, with respect to 
Alaska public lands. Approximately 70% of these birds breed within 
western boreal forests, where there is the fastest rate of decline 
(94,000 birds per year [1978 to 2005]). These declines reflect breeding 
season events. There has been a19% wetland loss in Yukon Flats (1985-89 
v. 2001-03). Recently, scientist have determined that where ponds lose 
20% or more of their surface, there is a decline in scaup food sources 
such as amphipods, gastropods and chironomid larvae (Corcoran et. al 
2007). Therefore, where there is more warming, less water, and less 
food, there are population declines.
VII. Greater Storms, Sea Level Rise and Ocean Acidification from Global 
        Warming and Their Impacts on Public Lands
    Global warming causes more intense ocean-based storms, not only in 
the Atlantic Ocean, but also in the Bering Sea and the Arctic Ocean. 
While in 2005 the nation focused on hurricanes in the Gulf of Mexico, 
Western Alaska experienced a brutal storm, adversely affecting 34 
communities and our public lands. The storm surge in Nome was 9 feet 
above normal high tides with waves of 12 to 15 feet. Newtok saw 5 to 10 
feet of beach disappear along with equipment like a 1,000 gallon fuel 
tank. Unalakleet lost 10 to 20 feet of beach.
    Much less noticed, this global warming fueled storm also had a 
serious impact on public lands, including the Yukon Delta National 
Wildlife Refuge, one of the nation's most important geese breeding 
areas. Because so much of the Refuge is low in elevation, it was 
heavily influenced by storm surges of at least 9 feet that inundated 
considerable areas of fresh water lakes and wetlands. As a result, 
animals such as lemmings were killed, and as a precaution, the Refuge 
instituted a large fox trapping program to reduce predator populations 
to protect geese eggs. Major storms have also damaged Fish and Wildlife 
property.
    More generally, because global warming in Alaska is resulting in 
accelerated shoreline erosion, melting permafrost and greater flooding, 
global warming is redefining our public land maps in Alaska. Some 
shorelines have retreated more than 1500 feet over past few decades, 
and in one area in Western Alaska, Newtok lost 2-3 miles of shore in 40 
years. The critical habitat area north of Teshekpuk Lake in the 
northeast corner of the NPR-A, is already losing low elevation lakes, 
as the ocean breaches their boundaries and erases previous land masses. 
This inundation not only affects habitat, in some places on Alaska's 
North Slope, it is also affecting past and current oil and gas 
infrastructure. Older drilling sites in the National Petroleum 
Reserve--Alaska are now under water. Recommendation 6: Study the likely 
threats to oil and gas infrastructure and past drilling sites on public 
lands in Alaska, especially on or adjacent to the National Petroleum 
Reserve, from inundation caused by global warming.
    Notably, according to a General Accounting Office estimate, 
approximately 184 communities in Alaska are at risk from flooding and 
erosion. In response to a Congressional request, the Army Corps of 
Engineers issued a report detailing relocation needs for seven Alaska 
coastal communities. The report estimates that Shishmaref, Kivalina and 
Newtok have only 10 to 15 years left at their present storm-battered 
locations, and predicts that it will cost as much as $355 million to 
move them. This cost estimate does not include the social upheaval 
associated with relocating, as in the case of Shishmaref, from a 
special location that has been occupied for over 4,000 years by a 
culturally recognized tribe. Because most of these communities are 
surrounded by public lands, their moves will have consequences to these 
lands, in many cases requiring land exchanges (as was necessary with 
Newtok), road access, and other responses. Recommendation 7: Our nation 
has a moral responsibility to assist in and finance these moves in a 
culturally and environmentally sound manner, while at the same time 
insuring that the impacts on our public lands are minimized. In this 
appropriations cycle, Congress should insure adequate funding for 
planning and initial relocation efforts for the communities of 
Shishmaref, Kivalina, and Newtok, while determining future funding 
sources for these relocation needs.
    Ocean Acidification. The acidification of our oceans is probably 
the least studied--but unquestionably represents one of the direst 
consequences--associated with human emissions of carbon dioxide. Since 
the Industrial Revolution, humans have increased the acidity of our 
oceans by over 30% as we have augmented the amount of CO<INF>2</INF> in 
our atmosphere from approximately 270 ppm to 380 ppm. Scientists are 
just beginning to understand the effects of current and projected 
acidification. Alaska's waters, and associated public lands and 
resources, will probably be the most negatively effected. For example, 
acidification dissolves food chain building blocks like the plankton 
known as pteropods, which are critical food sources for Alaska salmon 
fry and other species. Acidification also reduces the saturation of 
carbonate ions, which especially represents a very serious problem for 
deep water corals found offshore of many of Alaska's public lands, 
including the Alaska Maritime National Wildlife Refuge. Recommendation 
8: Congress should definitely authorize more research on the status of 
and impacts from ocean acidification on our public resources and 
economy.
VIII. Adverse Impacts of Global Warming on Alaska's Oil and Gas Economy 
        and Public Lands-Based Economies
    Many sectors of Alaska's economy have been negatively impacted by 
global warming. The oil industry on Alaska's North Slope has 
experienced a much shorter winter season in which it can build ice 
roads and otherwise traverse the tundra for exploratory and drilling 
activities (Please see Figure 5). Even in the summer, oil production on 
the North Slope has decreased due to warmer temperatures, since 
compressor efficiency is reduced. Gas compression is needed to reinject 
produced gas into the gas cap, and this process represents a major 
constraint on production rates, particularly with warmer temperatures.
    Fires and fishery losses due to global warming also have economic 
consequences for the nation. Fires are not only costly to health, but 
also to fight. The record-breaking 2004 season in Alaska cost over $108 
million, while in 2005 fire fighting cost $56 million. Representing a 
loss of tens of millions of dollars, the 6% pollock quota reduction is 
one of the many fishery economic losses associated with global warming.
IX. Impacts of Global Warming on Indigenous Cultures, Subsistence 
        Activities on Public Lands, and other Matters
    Because of their close connection with land, water, vegetation, 
animals, and weather conditions, Alaska Native cultures are 
experiencing many severe consequences from global warming. A large 
number of these impacts are associated with public lands, which 
surround most Alaska Native villages and have served as their hunting 
and gathering areas for millennia. According to the Arctic Climate 
Impact Assessment, ``Climate change is occurring faster than people can 
adapt. [It] is strongly affecting people in many communities, in some 
cases threatening their cultural survival.'' The ACIA further notes: 
``...the Arctic is becoming an environment at risk...sea ice is less 
stable, unusual and highly variable weather patterns are occurring, 
vegetation cover is changing, and particular animals are no longer 
found in traditional hunting areas during specific seasons. Local 
landscapes, seascapes, and icescapes are becoming unfamiliar, making 
people feel like strangers in their own land.''
    The former Chair of the Inuit Circumpolar Conference, Sheila Watt-
Cloutier summarizes it well when she states: ``For the Inuit, climate 
change is a matter of livelihood, food, health, and individual and 
cultural survival. The erosion and potential destruction of our way of 
life brought about by climate change resulting from emission of 
greenhouse gases amounts to a violation of the fundamental human rights 
of Inuit.''
    Alaskans in rural areas, and especially Alaska Natives, are 
threatened with increased health problems associated with global 
warming, including giardia from expanding beaver populations, botulism 
when storing their food in warming soils, increasing accidents from 
thinner ice and more intense storms, failing water and sewer systems, 
greater incidences of paralytic seafood poisoning, and decreased 
availability of nutritious subsistence foods. Other health problems 
include respiratory stress due to increased smoke from fires. More 
generally, larger fires from global warming are also releasing 
sequestered mercury, especially in Alaska and Canada, at levels up to 
15 times greater than previously estimated.
    Because of these grave, adverse impacts and threats, Alaska Natives 
have recently taken the opportunity to speak with a strong voice, 
stating that they are very detrimentally affected by global warming, 
that they are deeply concerned about the future of their subsistence 
way of life and their culture, and that they want Congress to take 
action to implement mandatory emission reductions. In the last few 
months, over 130 tribes, Native Corporations and major Alaska Native 
organizations--representing tens of thousands of Alaska Natives--have 
passed strongly worded separate Resolutions seeking meaningful 
legislative action (please see the representative resolution from the 
Alaska Federation of Natives that is appended to this testimony.) 
Congress has a responsibility to heed their compelling observations, 
meaningful experiences, significant concerns and justified request for 
action on global warming.
X. The Future is in Our Hands
    The future course of global warming in Alaska depends on whether 
the United States and the rest of the world take the actions necessary 
to significantly reduce greenhouse gas emissions. If we do not, 
substantial warming is predicted (up to 25oF by the end of the 
century). The probable consequences of this amount of warming are many, 
including: the elimination of the Arctic Ice cap, the extinction of 
American polar bears, the inundation of hundreds of thousands of acres 
of land and scores of communities, the loss of most of Alaska's boreal 
forest, substantial increases in diseases, the significant decline and 
elimination of numerous arctic and subarctic species, the deterioration 
of our public lands, multiple adverse impacts on Alaska Native 
cultures, and the loss of billions of dollars of infrastructure. 
Notably, most scientists believe we still have time to avoid these 
cataclysmic changes, if we act to reduce emissions quickly and 
meaningfully.
XI. Renewable Energy in Alaska--Our Contribution
    Fortunately, Alaska has a positive role to play in the reduction of 
greenhouse gas emissions. As described fully in the Renewable Energy 
Atlas of Alaska (accessible online at www.akenergyauthority.org), 
America's northernmost state has outstanding and inexhaustible 
geothermal, wind, biomass, wave, tidal, and hydroelectric energy 
supplies. As the Renewable Energy Atlas states, ``With some of the best 
renewable energy resources in the country, Alaska has an opportunity to 
be a leader in their development...''
    There are some early, exciting developments in Alaska regarding 
renewable energy, but there needs to be much more Congressional 
assistance to achieve Alaska's renewable energy potential.
    A. Geothermal. Alaska has tremendous geothermal potential, both for 
direct use (including district heating, greenhouses, hydrogen 
production, absorption chilling, process heating in the seafood 
industry) and for electricity production. Currently there is an 
exciting example of geothermal use at Chena Hot Springs Resort that can 
serve as a model for many locations in Alaska as well as the nation and 
the world. Other large scale plants are also being investigated in 
Alaska. Recently, MIT issued a report declaring that geothermal power 
has tremendous potential for the United States, and needs more research 
and investment. Recommendation 9: Congress should quickly and 
decisively support expanded geothermal research and power production, 
including supporting Senator Murkowski's REFRESH ACT of 2007.
    B. Wind. Alaska has tremendous wind resources that are highly 
suitable for the generation of electricity and hydrogen in both urban 
and rural locations. Alaska's first wind farm, located on the Northwest 
coast of Alaska, has been displacing a significant portion of the 
utility's diesel fuel since 1997. To the south, a recently installed 
wind project in Toksook Bay is providing renewable energy to three 
communities. Wind power is economic, clean, local, and inexhaustible, 
and deserves considerable support as a major energy producer of the 
future. Recommendation 10: Congress should support the work of the 
Denali Commission and others in the installation of wind generation 
capacity, and also research the potential for wind to create hydrogen 
for local use, and ultimately for export.
    C. Ocean Power (Wave and Tidal). With our 34,000 miles of coastline 
(more than the rest of the nation), Alaska offers exciting 
opportunities for testing and implementing wave and tidal power. 
According to the Atlas of Renewable Energy, ``Alaska has one of the 
best wave resources in the world, with parts of its Southcentral and 
Southeast coastlines averaging 60kW per meter of wave front. The total 
wave power flux on southern Alaska's coast alone is estimated at 1,250 
TWh per year, or almost 300 times the amount of electricity Alaskans 
use every year!'' Recommendation 11: Congress needs to support the 
research and financial assistance associated developing our renewable 
wave energy as soon as possible.
    D. Biomass. Two exciting biomass fuels in Alaska are fish 
byproducts and municipal waste. Recently, with government assistance, a 
major processor conducted successful tests of raw fish oil/diesel 
blends, and now uses approximately one million gallons of up to 70% 
fish oil for power production each year. There is much more potential. 
According to the Atlas, ``currently state, federal and university 
groups are working together to assess the potential for recovering a 
portion of the estimated 12 million gallons of fish oil returned to the 
ocean each year as fish processing waste''. Recommendation 12: this 
research and analysis deserve to be supported, and other biofuel 
opportunities studied and implemented. With respect to waste product, 
Eielson Air Force Base densifies paper separated from the Fairbanks 
area waste stream and then uses the paper ``cubes'' at the base's coal-
fired power plant. Between 600 to 3,000 tons of this fuel have been 
produced per year in 1997. This possibility should be explored 
throughout the nation.
XII. Conclusion
    The impacts from global warming on Alaska's public lands are real, 
scientifically measurable, costly, damaging to Alaska Native cultures, 
harmful to treasured plants and animals, bad for the economy, and 
detrimental to future generations of Americans.
    Because of Alaska's rich ecological and cultural heritage, there is 
much at stake in the Last Frontier as the planet warms. Alaska's 
experiences with global warming are also informative to the rest of the 
nation. Going forward, Alaska represents a compelling reason to 
implement mandatory reductions on greenhouse gas emissions promptly and 
significantly, as we move toward a clean and renewable energy path with 
determination.
    [NOTE: Photographs have been retained in the Committee's official 
files.]
[GRAPHIC] [TIFF OMITTED] 34820.002

a.eps[GRAPHIC] [TIFF OMITTED] 34820.002

b.eps[GRAPHIC] [TIFF OMITTED] 34820.003

a[GRAPHIC] [TIFF OMITTED] 34820.003

b.eps[GRAPHIC] [TIFF OMITTED] 34820.004

                                 .eps__
                                 
    Mr. Costa. All right. I am going to accommodate Mr. Murray, 
who I understand has a time issue. He is the Chairman of Murray 
Energy Corporation. Mr. Murray, you are at the plate.

                STATEMENT OF ROBERT E. MURRAY, 
              CHAIRMAN, MURRAY ENERGY CORPORATION

    Mr. Murray. Chairman Costa, Members of the Committee.
    Mr. Costa. We need to get the microphone in there. There 
you go.
    Mr. Murray. Thank you for the invitation to provide this 
testimony this afternoon.
    I am Bob Murray. I am the founder of Murray Energy 
Corporation from a mortgaged home. The United States of America 
is a wonderful country.
    Twenty years ago, today I have 3,000 employees working in 
the most depressed areas of the United States of America. Penn 
State University says for every one of these 3,000 employees up 
to 11 secondary jobs are created to provide goods and services 
to our employees, so I am pleased to say that they tell me that 
I account for 36,000 high-paying, well-benefitted jobs in 
America. We also mine 32 million tons of coal a year, all from 
a mortgaged home, for American's electric utilities.
    Our subject today is the implications of proposed carbon 
dioxide emission limits on public lands. We operate in Utah, 
500 employees, UtahAmerican Energy, Inc., produce about 7 
million tons a year, in Carbon and Emery Counties, and I can 
tell you these folks there are very, very happy to have these 
jobs, high-paying, well-benefitted, and that is where they want 
to live.
    You see, Federal lands should not only have adequate 
stewardship for environmental purposes, but they also should be 
prudently developed to provide a high standard of living for 
our citizens. They and I are very threatened and troubled by 
the so-called global warming alarmism that is going on, whether 
carbon emission constraint measures, because they are going to 
have much worse adverse consequences to American citizens than 
what I have already experienced with the Clean Air Act 
Amendments of 1990.
    You see, so-called global warming alarmism is a human issue 
to me as well as an environmental one. The unfolding debate is 
totally skewed and one-sided, and it is preoccupied with 
possible speculative environmental disasters of climate change. 
Few are giving adequate attention to the destruction that we 
will definitely see, not speculative, for American working 
people from environmental climate change proposals that have 
been introduced in the Congress to date, every single one of 
them.
    Low-cost electricity is a staple of life today. A poll 
counts for 52 percent of that electricity is by far the lowest 
cost electricity, one-third to one-fourth the cost of natural 
gas. The Energy Information Agency says that electricity 
consumption in our country will go up 41 percent between now 
and 2030, and there is no other form of generating electricity 
in this country, and certainly not renewable that could replace 
this 52 percent of our electricity that coal accounts for.
    While we have been losing high-paying manufacturing jobs in 
America to foreign countries, you can imagine the havoc brought 
on our country as a result of curbing coal's use or destroying 
its potential as a vital domestic fuel, which every singe piece 
of legislation introduced in this Congress to date does.
    Local tax base will be destroyed, standards of living will 
be destroyed, and communities will be wiped out. All these 
bills will throw the prospects for our citizens and their 
economies in a spiraling reverse. It is a human issue to me, 
ladies and gentlemen, because I know the names of the people 
whose lives will be destroyed as a result of this rampage to 
enact global warming legislation when the science is not 
certain.
    While some want us to believe that it is certain, it is 
really highly speculative, and I can tell you there is far more 
risk that these limits on carbon dioxide will destroy coal and 
manufacturing-dependent communities in this country and inflict 
great hardships on American families, that we know.
    Further carbon capture, transfer, and sequestration 
technologies have not been commercially developed, and the need 
of investment in them will be thwarted with these discussions 
of global warming legislation. Some wealthy elitists in our 
country who can't tell fact from fiction can afford an Olympian 
detachment from the impacts of Draconian climate change policy. 
For them, the jobs and the dreams destroyed as a result will be 
nothing more than statistics, and the cares of other people. 
These consequences are abstractions to them, but they are not 
to me. I can name many of the thousands of the American 
citizens whose lives will be destroyed by these elitists ill-
conceived global goofiness campaigns.
    A number of companies are promoting constraints on coal use 
to achieve greater profits and/or competitive advantages. These 
people are not acting, and these companies, in the best 
interest of America. To name some of them, General Electric, 
duPont, Alcoa, Caterpillar, Shell Oil, British Petroleum, 
Excelon Energy, and there are others.
    You see, ladies and gentleman, I have seen the effect of 
the 1990 Clean Air Act Amendments, and the drastic reductions 
in coal production, and the wrenching impact on our 
communities. One hundred and eighteen mines were closed in 
Ohio, 36,000 primary and secondary jobs were lost, families 
broke up, many homes were lost, some were impoverished, and all 
this the environmentalists call success.
    I did not learn of this havoc from computer models, and I 
emphasize I didn't learn it from computer models, I lived it. I 
lived it. I saw it firsthand.
    Now we are globally discussing mandatory carbon emission 
reductions which will be far more sweeping and far deeper 
reductions and wreck economic carnage on our quality of life 
and on our standard of living of many Americans.
    The impacts on the economy's jobs and quality of life will 
not be equal around the country. Rather, the states that depend 
on coal-fired electricity will be damaged the greatest.
    What will a worldwide environmental gain be from the pain 
that will be suffered on millions of Americans? Very little. 
Since 1990, U.S. greenhouse emissions have increased by 18 
percent. China's have increased by 77 percent. China's 
emissions will surpass ours by 2009. China and India will emit 
twice as much carbon as the United States and the European 
Union, E-15, combined in 2050.
    The G-77 group of developing countries, led by China, which 
is building 50 new coal-fired power plants right now, again 
reiterated this winter that they will not agree to mandatory 
carbon emission constraints in a second Kyoto Round after 2012, 
nor have they actually ever reduced any emissions to date.
    What do you hope to accomplish by putting all of these 
people out of work and exporting these jobs if the rest of the 
world is not going to follow suit? Absolutely nothing but more 
economic havoc on America. All America is doing is exporting 
more jobs to other countries.
    The Kyoto Protocol was mentioned earlier. It has been a 
farce. There are only two nations that have met their Kyoto 
commitments. Canada's emissions are up 28 percent. Ours are up 
1 percent, 1 percent growth. The E-15 nations since Kyoto who 
signed it are emitting more than the United States where they 
have a flat population growth, and we are increasing 1 percent.
    The science is uncertain. Carbon dioxide-captured 
technology has not been proven on a commercial scale. The 
Congress must not be stampeded into preempting thorough climate 
research and the development of carbon capture, transfer, and 
sequestration technologies with emotionally developed or 
politically motivated legislation in an historical rampage, 
which it is, to enact carbon dioxide emission limitation 
mandates.
    We urge all members of the Committee and their colleagues 
in Congress to consider carefully the impact that climate 
change bills will have, not only on the environment, but also 
on the American people, too. This is a human issue to me as 
well as an environmental one.
    Thank you for allowing me to appear today.
    [The prepared statement of Mr. Murray follows:]

Statement of Robert E. Murray, Chairman, President and Chief Executive 
          Officer, Murray Energy Corporation, Cleveland, Ohio

    We thank the Members of the Energy and Mineral Resources 
Subcommittee and the House Natural Resources Committee for inviting me 
to provide this testimony today.
    I am Bob Murray, the Chairman, President and Chief Executive 
Officer of Murray Energy Corporation (``Murray Energy''), which I 
founded from a mortgaged home about twenty (20) years ago. Today, 
Murray Energy operates eleven (11) coal mines in the most economically 
depressed areas of Ohio, Illinois, Kentucky, Pennsylvania and Utah, 
which produce thirty-two million (32,000,000) tons of high quality coal 
per year for America's electric utilities, with about three thousand 
(3,000) employees. Current studies show that up to eleven (11) 
secondary jobs are created to provide the goods and services required 
by our miners. Thus, I am proud of the fact that we are advised that we 
have created up to 36,000 high-paying, well-benefited jobs in our 
Country since our inception in May, 1988.
    Our principal subject today is the impact of any proposed carbon 
dioxide emission limits or climate change measures on the coal 
industry...its employees...and its implications for public lands.
    UtahAmerican Energy, Inc. (``UtahAmerican''), a Subsidiary of 
Murray Energy, produces up to about seven million (7,000,000) tons of 
coal per year, with about five hundred (500) direct employees from 
Federal coal lands in Carbon and Emery Counties, Utah, and this 
production and employment will increase by about fifty percent (50%) in 
the years hence. Let me assure you that these Utahans are very pleased 
that we have heavily invested in their lives and futures and in this 
locale, which is where they want to live. You see, Federal lands should 
not only have adequate stewardship for environmental purposes, but they 
also should be prudently developed to provide a high standard of living 
for our citizens. They and I are very threatened and troubled by the 
so-called ``global warming'' or carbon emission constraint measures 
that have been introduced into the Congress that will ration the use of 
coal, with much worse adverse consequences to our American citizens 
than those that I have already experienced in my lifetime as a result 
of enactment of the 1990 Clean Air Act Amendment legislation.
    You see, so-called ``global warming'' is a human issue to me, not 
just an environmental one. The unfolding debate over atmospheric 
warming in the Congress, the news media, and by the pundits has been 
skewed and totally one-sided, in that they have been preoccupied with 
possible, speculative environmental disasters of climate change. 
However, few are giving adequate attention to the destruction that we 
will definitely see for American working people from all of the climate 
change proposals that have been introduced in the House and Senate to 
date.
    Today low cost electricity is a staple of life for all Americans, 
and fifty-two percent (52%) of this electricity is generated from coal. 
Further, coal-fired electricity is, by far, the lowest cost--about one-
fourth (1/4) to one-third (1/3) of the cost of natural gas-fired 
electricity. Moreover, the Energy Information Agency states that our 
electricity consumption in America will rise forty-one percent (41%) 
between now and 2030. It is projected that, over the next twenty (20) 
years or so, coal must be counted on to generate fifty-seven percent 
(57%) of America's electricity, which cannot be replaced by any other 
form of generation--not natural gas, nuclear, or water, and certainly 
not renewables.
    America is dependent on our coal because it is abundant, with some 
of our best deposits located on public lands; it is affordable; and it 
is critical to our energy security to protect all Americans from the 
hostile and unstable governments from which much of our Country's 
energy is currently imported.
    While we have been losing high-paying manufacturing jobs in America 
to foreign countries, can you imagine the havoc that will be wrought on 
our Country as a result of curbing coal's use, or destroying its 
potential as a vital domestic fuel, which every single piece of 
legislation introduced in the Congress to date does, by slapping 
mandatory controls on carbon dioxide emissions and United States coal 
utilization? Draconian legislation, such as the McCain/Lieberman or 
Bingaman Bills, would thoughtlessly impose arbitrary caps on the use of 
coal, despite the destructive implications to our economy.
    The West, where public lands dominate, is one of the regions where 
the twelve (12) Bills introduced to date to limit carbon dioxide 
emissions will inflict the maximum damage and destruction to human 
lives. High wage employment and concomitant benefits, local tax 
revenues, and the standards of living for our people will be brutally 
wiped out in many of our western communities, notwithstanding the 
implications against strengthening America's energy independence. All 
of the so-called ``global warming'' Bills introduced to date will throw 
the prospects for our citizens and their economies in a spiraling 
reverse. It is a human issue to me, as I know by name many of the 
thousands of persons whose lives will be destroyed from the current 
deceitful, hysterical, out of control, rampage perpetrated by fear-
mongers in our society and some legislators to mandate carbon dioxide 
emission limits.
    While some want us to believe that the science behind so-called 
``global warming'' is certain, to the contrary, the actual 
environmental risk associated with carbon emissions is highly 
speculative. It is a fact, however, that every proposal introduced to 
date will provide a far more certain risk that carbon dioxide emission 
limits will destroy coal and manufacturing dependent communities and 
inflict great hardships on America's families.
    Further, carbon capture, transfer, and sequestration technologies 
have not been commercially developed, and the needed investment in them 
must not be thwarted by discussions of ``global warming'' legislation. 
Also, I am a skeptic relative to our Country's commitment to 
gasification, liquification, or other technologies for the use of coal 
in processes other than pulverized coal combustion. I worked on the 
Great Plains Coal Gasification project in North Dakota, the only one in 
the western hemisphere, from 1968 to 1983, and there has not been 
another one built in the ensuing forty (40) years. Again, carbon 
emission legislation must not thwart the needed investment in coal 
utilization technologies.
    Some wealthy elitists in our Country, who cannot tell fact from 
fiction, can afford an Olympian detachment from the impacts of 
draconian climate change policy. For them, the jobs and dreams 
destroyed as a result will be nothing more than statistics and the 
cares of other people. These consequences are abstractions to them, but 
they are not to me, as I can name many of the thousands of the American 
citizens whose lives will be destroyed by these elitists' ill-conceived 
``global goofiness'' campaigns.
    Also, there are a number of companies that are promoting 
constraints on coal use to achieve greater profits and/or competitive 
advantages, which transparent motivations are not in the best interests 
of Americans. These, in part, include Excelon, Entergy, British 
Petroleum, Shell Oil, Caterpillar, Alcoa, Dupont and General Electric.
    You see, ladies and gentlemen, I have seen the effect of the 1990 
Clean Air Act Amendments, the drastic reductions in coal production, 
and wrenching impact on hundreds of communities as a result of that 
legislation. In Ohio alone, from 1990 to 2005, about one hundred 
eighteen (118) mines were shut down, costing more than thirty-six 
thousand (36,000) primary and secondary jobs. These impacted areas have 
spent years recovering, and some never will. Families broke up, many 
lost homes, some were impoverished, because of legislation that the 
environmentalists call a ``success''. Again, I did not learn of this 
havoc from computer models. I lived it and saw it firsthand.
    Now, we are glibly discussing mandatory carbon emission reductions, 
which will have far more sweeping and far deeper reductions in coal 
production, and will reek much greater economic carnage and reductions 
in the quality of life and standard of living of many Americans, than 
the Clean Air Act Amendments. But, the destruction from limiting coal 
use will not stop there. Natural gas costs will rise, further damaging 
the agricultural and chemical industries, and the loss of American 
manufacturing jobs, which depend on low cost electricity, will be 
accelerated.
    Also, the adverse impacts on the economy's jobs and quality of life 
will not be equal throughout the Country. Rather, the States that 
depend on coal-fired electricity will be damaged the greatest. Every 
State in our Country has a ``target'' on its back from proposed 
``global warming'' legislation, except those on the West Coast and in 
New England, where much of the hysteria for draconian legislation is 
originating, and which States already pay the most for their 
electricity, many twice as much, as shown in the attachment to my 
testimony.
    What will the world-wide environmental gain be from the pain that 
will be suffered on millions of American citizens? The answer is, very 
little. Since 1990, U.S. greenhouse gas emissions have increased by 
eighteen percent (18%), while China's have increased by seventy-seven 
percent (77%). China's emissions will surpass ours by 2009. By the 
middle of the century, China and India will emit twice as much carbon 
as the United States and the European Union, combined.
    The G-77 group of developing countries, led by China, which is 
building about fifty (50) new coal-fired power plants, again reiterated 
this winter that they will not agree to mandatory carbon emission 
constraints in a second Kyoto round after 2012, nor have they actually 
ever reduced any emissions to date. All America will be doing is 
exporting more of our jobs to these Countries, and widespread hardship 
will be reeked on thousands of American families as a result of further 
industrial contraction in our Country.
    The so-called Kyoto Treaty commitments by other countries have been 
a farce. European Union nations, with no population growth, have 
increased their emissions faster than the United States which has had a 
one percent (1%) population growth. Canadian emissions have increased 
twenty-eight percent (28%) since it signed the Kyoto Treaty, and only 
two (2) of the signatories thereto have achieved their emission 
reduction commitments.
    The climate change science is uncertain, and carbon dioxide capture 
technology has not been proven on a commercial scale. The Congress must 
not be stampeded into preempting thorough climate research and the 
development of carbon capture, transfer, and sequestration technologies 
with emotionally developed or politically motivated legislation in the 
current hysterical rampage to enact carbon dioxide emission limitation 
mandates.
    We urge all Members of this Committee and their colleagues in the 
Congress to consider carefully the impact that climate change Bills 
will have, not only on the environment, but on the American people, 
too. This is a human issue as well as an environmental one.
    Thank you for your invitation to appear before you today.
    Attachment
    [GRAPHIC] [TIFF OMITTED] 34820.011
    
                                 .eps__
                                 
    Mr. Costa. Thank you.
    Now I would like to hear from Dr. Anthony Westerling, 
Associate Professor, the Sierra Nevada Research Institute of 
the University of California. Dr. Westerling, we appreciate 
your research, and your academics, and your work in this area 
for many years. Thank you for your coming here today to present 
your work. You may proceed.

    STATEMENT OF ANTHONY WESTERLING, ASSISTANT PROFESSOR OF 
  ENVIRONMENTAL ENGINEERING, UNIVERSITY OF CALIFORNIA, MERCED

    Mr. Westerling. Thank you, sir. Just a moment, please.
    Just for the record, I would like to correct. I am an 
assistant professor. I appreciate the promotion.
    Mr. Costa. Don't worry, around here, we take credit for 
everything we can.
    [Laughter.]
    Mr. Westerling. Well, I will skip on ahead.
    I suspect that the reason I was asked to come here was this 
particular paper, so I thought I would highlight the results 
right off the top.
    If you look in the upper left corner there, you will see a 
map of the western United States, and those green areas are 
Federal lands in the Forest Service and Park Service that are 
mostly forested, and have reported fires consistently since 
1970.
    In the lower panel there, you can see a time series. The 
vertical red bars are the number of fires that have burned at 
least a thousand acres each on those lands since 1970, and you 
will notice that there is a very abrupt ramping up in the 
number of fires on average each year in the mid-1980s.
    Superimposed on this is a time series, the black line 
there, and it shows the temperature, the average spring and 
summer temperature, and you will note that it highly correlated 
with the annual number of large forest fires.
    I would like to point out in particular the non-linear 
relationship between temperature and forest wild fire in the 
western United States, and I think this is a very important 
point to bring home if I don't get anything else through today.
    If you look here, the horizontal access of this figure is 
showing deviations in the average temperature each year from 
the long-term average, and the vertical access is showing the 
number of large fires. In this case, it is a more comprehensive 
data set, 500 acres and above, and includes the Indian Affairs 
lands as well. And you will notice that as the temperature has 
increased you get more fires, but as you pass a certain 
threshold you get a very non-linear response, and you can have 
an enormous number of fires compared to the average for a small 
additional increase in temperature.
    The reason this is so has to do with the timing of spring. 
So we have mid to high elevation forests in mountains of the 
western United States that have significant snow cover. Most of 
the precipitation comes in the wintertime. If it warms up in 
the spring, the snow melts out earlier and the area dries out 
sooner. Summer comes months early, in a sense, and everything 
dries out. You get a lot more fires.
    What I am showing here is the timing of spring on the 
horizontal access as measured by streamflow in snow melt-
dominated streams of the western United States, and on the 
vertical access we have again the number of large fires in 
forests of the western United States.
    So as you look to the left, those are earlier years. As you 
look to the right, those are later springs, and so when you 
have a very early spring, that is when you get all of the large 
fire years.
    Just to bring the point home, here I am showing you on the 
left side all the fires that occurred, that were at least 1,000 
acres in size, in years that had late snow melt, and on the 
right side, in years that have an early spring snow melt, and 
they have been scaled up. I don't know if I have an arrow here. 
I do.
    OK, so you see this big circle here. That is a 500,000-acre 
fire. This is a 400,000-acre fire. This is maybe 200,000 acres. 
These little dots over here, that is 1,000 acres. So all the 
big fires are occurring in years with early snow melt, and very 
few are occurring in years with late snow melt.
    Now, the mechanism by which this has an impact, this non-
linear impact, is as I mentioned before, the drying of the 
western forests, and what this map is showing here is the 
degree of drying associated with the changes in the timing of 
spring, and in particular, the redder the pixels are the more 
drying there was, and you can see that most of the drying was 
concentrated in the Northern Rockies and in the Yellowstone 
area and parts of the Colorado Rockies, in particular, whereas 
in the Southwest, there was very little drying associated with 
this, and it stands to reason. That is a drier, warmer climate 
down there, and so a change in the timing of spring doesn't 
have as big an impact.
    But a very important point is that that region is 
relatively--most affected by fire suppression in terms of its 
impact on fuels, whereas in the Northern Rockies the area that 
has been most affected by changes in the timing of spring, you 
have a very large forest area. It shows the biggest increase in 
wild fire occurs there, an which were least affected by 
suppression.
    I should point out that this increase in fires is 
essentially fourfold increase in large fires, and a sixfold 
increase in the area burned in those large fires.
    It is important to note that these increases have occurred 
during a time when temperatures have increased less than 1 
degree Celsius in the spring and summer in this part of the 
United States, and this is an important point because this is 
less than half of the minimum projections of the IPCC for this 
region in the coming decades of the Twenty-First Century.
    So we can expect without a doubt an acceleration of 
wildfire in terms of a great increase in the number of very 
active fire seasons that we are going to see. The process that 
we have experienced up until now will continue.
    My final point is just that there is a great deal of carbon 
sequestered in these forests already and in the soils 
underneath them, and that burning them more frequently releases 
this carbon into the atmosphere, and so this is a positive 
feedback on climate change occurring on Federal lands in the 
West.
    Thank you.
    [The prepared statement of Mr. Westerling follows:]

      Statement of Dr. Anthony Westerling, Assistant Professor of 
      Environmental Engineering, University of California, Merced

    I thank Congressman Jim Costa and the members of the subcommittee 
on Energy and Mineral Resources for this opportunity to testify on 
recent research regarding the impact of climate change on public lands. 
I have a PhD in Economics from the University of California, San Diego. 
I currently hold joint appointments as Assistant Professor of 
Environmental Engineering and Assistant Professor of Geography at the 
new University of California campus in Merced, California. Prior to 
taking these appointments, I worked as a research scientist in Scripps 
Institution of Oceanography for six years, focussing primarily on 
climate and wildfire. I am a principal investigator in the NOAA 
Regional Integrated Science and Assessment (RISA) Program for 
California and in the California Energy Commission-supported California 
Climate Change Center, both centered at Scripps Institution of 
Oceanography. The research I will present in my testimony today was 
conducted at Scripps Institution of Oceanography supported by the NOAA 
RISA program, the USDA Forest Service, and the California Energy 
Commission.
WILDFIRE HAS GREATLY INCREASED IN WESTERN FORESTS.
    Since the 1970s and early 1980s, the frequency of large forest 
wildfires (those greater than 1000 acres) has increased roughly 300 
percent. The area burned in these fires has increased more than 500 
percent. That is, there has been a substantial shift toward larger 
wildfires in western forests since the mid-1980s. (Westerling et al 
2006).
    The length of time individual fires burn on average has increased 
from one week to five weeks. The wildfire season itself has also 
lengthened by about two thirds. (Westerling et al 2006).
    The greatest increase in forest wildfire has occurred in the 
Northern Rockies, between 6000 and 8000 feet in elevation. (Westerling 
et al 2006).
MOST OF THIS INCREASE IN WILDFIRE IS DUE TO WARMING AND EARLIER 
        SPRINGS.
    A trend towards warmer temperatures that has intensified in recent 
decades has resulted in a trend toward earlier Spring snowmelts (which 
are now occurring 1-4 weeks earlier than they did 50 years ago), and 
this has led to more large wildfires in western forests. (Mote et al 
2005, Stewart et al 2005, Westerling et al 2006)
    Since 1970, 56% percent of large forest wildfires and 72% of area 
burned in large forest wildfires occurred in years with early Spring 
snowmelts, while only 11% of large wildfires and 4% of area burned in 
large wildfires occurred in years with late spring snowmelt. 
(Westerling et al 2006)
    In years with warm temperatures and early springs, the snow has 
melted out earlier from mid-elevation forests. Snow carries over a 
significant portion of the winter precipitation that falls in western 
mountains, releasing it more gradually in late spring and early summer, 
providing an important contribution to spring and summer soil moisture 
(Sheffield 2004). An earlier snowmelt can lead to an earlier, longer 
dry season, providing greater opportunities for large fires due both to 
the longer period in which ignitions could potentially occur, and to 
the greater drying of soils and vegetation. Consequently, it is not 
surprising that the incidence of large forest fires is strongly 
associated with snowmelt timing (Westerling et al 2006)
    It is true that 20th Century fire suppression and land use have 
lead to increased fuel loads in some western forests, such as dry 
ponderosa pine forests in the Southwest and parts of the Sierra Nevada 
(Allen et al 2002, Covington et al 2000). However, the greatest 
increase in forest wildfires has occurred in more moist and naturally 
more dense forests of the Northern Rockies where plentiful fuel loads 
and the risk of large fires have not been significantly increased by 
the cumulative effects of fire suppression and land use (Schoennagel et 
al 2004, Schoennagel et al 2005, Whitlock 2004). Furthermore, even in 
forests that grew thicker over the 20th Century due to fire suppression 
and land uses such as grazing, large forest wildfires still tend to 
occur in warm years with early springs.
AS HUMAN-CAUSED CLIMATE CHANGE CONTINUES, WE WILL SEE MORE VERY ACTIVE 
        FOREST WILDFIRE SEASONS.
    The results of this research have important implications for 
resource management on federal lands in a warmer climate. They 
demonstrate that warmer temperatures result in more (and larger) large 
forest wildfires.
    The increased frequency of large forest wildfires observed in 
recent decades, considered in isolation, is not by itself evidence of 
climate change. However, we know from other research that human 
activity is warming the climate (IPCC 2007), and increased forest 
wildfire due to warming and earlier springs is an effect we expect to 
see in a world with a warming climate.
    The very substantial increase in large wildfire frequency, in area 
burned, in the length of time fires burn, and in the length of the fire 
season in western forests have been associated with an increase in 
average spring and summer temperatures of less than 1 degree Celsius 
since the 1970s (Westerling 2006). This is less than half the IPCC's 
consensus range of temperature increase by 2040 to 2069 for western 
North America (Running 2006).
    Thus, it is likely that forest wildfire activity will continue to 
intensify over the coming century. However, the full effects are 
difficult to anticipate, because we expect there will also be changes 
in the structure and species composition of western forests due to 
changes in climate and in wildfire, and these are likely to have 
feedback effects on wildfire. Assessments of the synergistic effects of 
changes in vegetation, wildfire, and other disturbances like insects in 
a warming climate are urgently needed.
FIRE SUPPRESSION, FUELS MANAGEMENT AND ECOLOGICAL RESTORATION ALL HAVE 
        A ROLE TO PLAY. THERE IS NO SINGLE POLICY THAT IS LIKELY TO 
        REVERSE THE TREND TOWARD MORE WILDFIRES.
    Western forests are diverse, and the risk of a large fire burning 
in these forests is the result of complex interactions between climate, 
ecosystems, and past wildfire and management. Different forest 
ecosystems can have different responses to climate change and to 
management policies. Policies need to be tailored to the needs of 
diverse ecosystems.
    Thinning forests that have been ``thickened'' by past management 
practices may help to reduce fuel loads that have lead to more severe 
fires in some places (for example, Ponderosa pine forests in the 
Southwest).
    However, thinning naturally dense forests (such as lodgepole pine 
in mid-elevation Northern Rockies forests) is a very different matter: 
it amounts to introducing an additional disturbance to forests already 
stressed by warming and earlier springs. It is not necessarily the case 
that such thinning would make these ecosystems more resilient to 
climate change, nor reduce the likelihood of large fires.
    Fuels management around structures and communities in the wildland/
urban interface will continue to be an important means of protecting 
property at risk.
    Increased fire suppression efforts in forests where in the past 
such efforts have resulted in increased fuel loads might, if effective 
in actually suppressing fires, further increase the vulnerability of 
these forests to climate change by preventing the reduction of (or 
further increasing) fuel loads. Appropriate use of natural and 
management fires might reduce fuel loads and the risk of large, severe 
fires in these forests.
    Further intensification of fire suppression efforts may not be very 
effective. Federal land management agencies devote considerable 
resources to suppressing wildfires, and the technologies employed have 
developed in sophistication over the last century. However, fire 
suppression technologies are still not very effective under climatic 
conditions that foster the rapid spread of wildfires.
CONCLUSION
    Warming and earlier springs have led to increases in forest 
wildfire, including more large fires, more area burned in large fires, 
longer burning fires, and a longer fire season.
    Human-caused climate change will lead to additional warming in 
future decades, and this will lead to further increases in forest 
wildfire in the western US.
    There is no single, simple management policy that will reverse this 
trend: complex problems don't always have simple answers.
    Policies that mitigate climate change by reducing the rate at which 
greenhouse gasses accumulate in the atmosphere will help to mitigate 
future increases in wildfire.
REFERENCES
Allen, C.D. et al. 2002 Ecological Restoration of Southwestern 
        Ponderosa Pine Ecosystems: A Broad Perspective. Ecol. Appl. 12, 
        1418-1433.
Covington, W.W. 2000. Helping western forests heal. Nature 408, 135-
        136.
IPCC 2007 Climate Change 2007: The Physical Science Basis: Summary for 
        Policymakers.
Mote, P. W. et al., Bull. Am. Meteorol. Soc. 86, 39 (2005).
Running, S. W. 2006 ``Is Global Warming Causing More, Larger 
        Wildfires?'' Science, 313: 927-928.
Schoennagel, T., Veblen, T.T. & Romme, W.H. 2004. The Interaction of 
        Fire, Fuels, and Climate across Rocky Mountain Forests. BioSci 
        54, 661-676.
Schoennagel T., Veblen, T.T., Romme, W.H., Sibold, J.S. & Cook, E.R. 
        2005. ENSO and PDO variability affect drought-induced fire 
        occurrence in Rocky Mountain subalpine forests. Ecol. Appl. 15, 
        2000-2014.
J. Sheffield, G. Goteti, F. H. Wen, E. F. Wood, J. 2004 Geophys. Res. 
        109, D24108
Stewart, I.T., Cayan, D.R., Dettinger, M.D., 2005 Changes toward 
        earlier streamflow timing across western North America. J. 
        Clim. 18, 1136-1155.
A.L. Westerling et al 2006: ``Warming and Earlier Spring Increases 
        Western U.S. Forest Wildfire Activity'' Science, 313: 940-943.
Whitlock, C. 2004 Land management: Forests, fires and climate. Nature 
        432, 28-29.
                                 ______
                                 
    Mr. Costa. Thank you very much, and knowing that you are a 
Southern Californian that has recently been transplanted to 
part of the strait that I live in, it is good to have you here, 
and good to have you back in Washington.
    Mr. Westerling. Thank you, sir.
    Mr. Costa. Our next witness is Mr. Auden Schendler, 
Executive Director for Environmental Projects for the Aspen 
Skiing Company, a company and industry that I have some 
familiarity with. Obviously it has been an important industry 
throughout the country, especially post-World War II. Mr. 
Schendler, would you please begin your testimony.

STATEMENT OF AUDEN SCHENDLER, EXECUTIVE DIRECTOR, COMMUNITY AND 
       ENVIRONMENTAL RESPONSIBILITY, ASPEN SKIING COMPANY

    Mr. Schendler. Right, and it was the----
    Mr. Costa. Hold on a second. We are having trouble here 
with the time clock. There you go. All right.
    Mr. Schendler. It was the 10th Mountain Veterans who 
created the ski industry in the U.S. actually and Aspen Skiing 
Company, so right after World War II, they said enough of this, 
we will go skiing, and I brought you only two slides, and this 
slide I bring you out of sympathy for the fact that you are 
stuck in this room this afternoon instead of being outside and 
you can look at this beautiful picture of Aspen, and powder 
skiing.
    Mr. Costa. That is very frustrating. You didn't have to 
bring that one.
    Mr. Schendler. And I do say I question your judgment in 
being here versus at Aspen skiing.
    [Laughter.]
    Mr. Costa. That is the question before us. Please go ahead.
    Mr. Schendler. Unfortunately, skiing in Aspen doesn't look 
like this right now. We have just finished up the warmest 
winter in the Northern Hemisphere in recorded history. It is 65 
degrees and sunny in Aspen right now, and we just found out 
three days ago that we have the third least sub-zero days in 
history, and so Aspen Skiing Company is concerned about this 
issue.
    Just briefly, we bring 1.4 million skiers to our four 
mountains, 15 restaurants and two hotels every year. We employ 
3,400 people in winter, and the ski industry in Colorado is a 
$2 billion industry. It employees fully 8 percent of the state. 
That is the winter sports industry, but if you include other 
climate-affected industries, such as hunting, river rafting and 
so on, a large part of our economy is based on stable and 
predictable climate.
    In some ways you could describe the ski industry as 
reluctant warriors on the issue of climate. It is not an issue 
we particularly want to talk about. Skiing is difficult. It 
takes 10 years to learn how to ski well. It is a sport that in 
some cases is made financially viable by condominium selling, 
and if you don't want to buy a condo because you think the ski 
resort will be gone, or if you don't want to teach your kids to 
ski because you think the snow will be gone, that is 
problematic for our business.
    So in response to growing coverage of climate change, the 
ski industry said, we are going to look at this. We hope there 
is not a problem but we are going to look at the best science 
out there, and the criteria we had was that this would be peer-
reviewed science, and we would not look at opinion. We would 
simply look at science.
    What is interesting is the cities of Aspen and Park City 
both did studies. They said, we want to see what is going to 
happen 10, 15, 20, all the way into 100 years from now, and 
those studies have come out in the last year.
    Aspen, according to this again peer-reviewed science would 
look like Colorado Springs by 2050. I don't know if you have 
been to Colorado Springs, but it is not a real skier-friendly 
place. It is more like the desert. We would have the climate of 
Amarillo by 2100, New Mexico by 2085, ski resorts like Taos, 
which is a wonderful area, would lose 90 percent of their 
snowpack. They would essentially be out of business.
    More important, all the science and climate modeling we 
have tells us that our season would be shortened. While the 
economics of the ski industry are pretty interesting, we are 
running in deficit until March, and then we start making our 
money, and if we were to lose March, we would go out of 
business. So this is of huge concern to us.
    I want to take off my corporate hat, and put on my human 
hat, my father hat. This is Willa. She refers to herself as a 
baby duck or a baby frog, depending on the day, and as I have 
dug into the sciences part of my job, trying to figure out what 
this means for our industry and our business, the more I study 
the science the more I realize that climate change is 
redefining the very terms we use. Words like environmentalism, 
sustainability, even government, and for me in particular, 
parenthood, now mean substantially dealing with climate change.
    I used to say this unfortunately isn't our issue. This is 
our children's issue, but James Hanson, who is the leading 
climatologist in the world, has said that we have 10 years to 
solve this problem. If we don't solve this problem within a 
decade, our children will be living on a planet that is 
unrecognizable to us.
    So I no longer say this is our children's issue. I say this 
is our issue. This is a problem we will solve for Willa in our 
lifetimes, in your lifetimes.
    Thank you.
    [The prepared statement of Mr. Schendler follows:]

           Statement of Auden Schendler, Executive Director, 
    Community and Environmental Responsibility, Aspen Skiing Company

    The mountain resort economy in the West is as endangered as the 
Polar Bear but a heck of a lot more valuable.
    You could say the ski industry is the Canary in the coal mine for 
climate change. If there's one business sector that is going to suffer 
most and earliest, it's skiing. And that's not good for the economy: 
the ski and winter recreation industry in Colorado alone accounts for 
over $2 billion in revenue annually and is responsible for 8% of 
employment in the state. <SUP>1</SUP> To understand the impact of the 
snowsports industry on a national scale, roughly quintuple that revenue 
number. That's why, in response to growing media coverage, scientific 
consensus, and observed climate changes on our mountains, we decided to 
explore the science. It turns out that the cities of Aspen, CO and Park 
City, UT independently commissioned studies to determine what, exactly, 
the future might look like, because that information is obviously 
critical to future planning. The Aspen and Park City studies focused 
exclusively on peer-reviewed science, and found that the consequences 
for Aspen were dire. According to the study ``climate models indicate 
that if global greenhouse gas emissions are reduced, Aspen is projected 
to experience about 6+F of additional warming by 2100, giving it a 
similar climate to that of Los Alamos, New Mexico. If global emissions 
continue their rapid rise, Aspen is projected to warm 14+F by the end 
of this century, giving it a similar climate to that of Amarillo, 
Texas.'' <SUP>2</SUP> For Park City, consequences were even worse, 
because they are at a lower altitude.
---------------------------------------------------------------------------
    \1\ The data comes from Colorado Ski Country USA, Economic Impact 
Study, March 2004.
    \2\ http://www.aspenglobalwarming.com/westerncoloradodata.cfm
---------------------------------------------------------------------------
    Aspen Skiing Company is the owner and operator of four major 
destination winter recreation complexes located in the central Rocky 
Mountain region of Colorado, spanning over 5,200 acres of public and 
private land on four mountains: Aspen, Buttermilk, Highlands and 
Snowmass, as well as two hotels, a golf course, and 15 restaurants. We 
host 1.4 million skiers annually and employ 3,400 people in winter. 
Aspen Skiing Company, along with the rest of the ski industry, is a 
reluctant warrior on the climate issue. Our entire business model is 
threatened by the problem. It's a difficult message for us, because 
global warming forces the questions: ``Why teach your children to 
ski?'' ``Why invest in a slopeside condo?''
    But the ski industry is also particularly sensitive to climate: 
skiers start banging down the doors around Halloween, so opening 
earlier than Mother Nature dictates (though use of artificial snow) has 
become part of the business. At the same time, our (and most) ski 
resorts operate in deficit until March, when we make most of our 
profit. If you shorten our season on either end--take away March, for 
example--we go out of business. The problem: a shortened season is a 
consistent predication of the climate modeling and science. A second 
prediction of the models is that we'll see warmer nights. In fact, 
we're seeing these already. The problem: in order to stay open later, 
and open early enough for customer demand, we need to make snow. And 
with warm nights, it becomes exponentially more expensive to make 
artificial snow. This fall and early winter, it was actually so warm 
that on many nights in December it was impossible to make snow at all.
    In some ways, focusing on the ski industry when thinking about 
climate change is trivial. The declining snowpacks we're seeing affect 
skiing for certain, but more importantly they affect water supply in 
the west and in particular California. The Colorado River supplies 
water to 25 million people in 6 western states and California, 
according to the Arizona Dept. of Environmental Quality. But scientific 
models predict the Colorado River basin will lose 24% of its snowpack 
by 2010-2039. <SUP>3</SUP> This is for a system that is fully allocated 
today and already ``at the brink of failure.'' <SUP>4</SUP>
---------------------------------------------------------------------------
    \3\ N.S. Christensen, A.W. Wood, N. Voison, D.P. Lettenmaier, and 
R.N. Palmer, ``The Effects of Climate Change on the Hydrology and Water 
Resources of the Colorado River Basin,'' Climatic Change 62(2004): 337-
363, 349-350.
    \4\ T. Barnett, R. Malone, W. Panel, D Stammer, B. Semtner, and W. 
Washington, ``The Effects of Climate Change on Water Resources in the 
West: Introduction and Overview,'' Climatic Change 62(2004): 7.
---------------------------------------------------------------------------
    Nonetheless, the ski industry is a good early indicator of the 
scope and scale of change we expect to see. And there are four major 
reports, published recently, that predict significant economic harm to 
the American ski industry and the region as a result of climate change. 
They are: Less Snow, Less Water: Climate Disruption in the West, by 
Stephen Saunders and Maureen Maxwell of the Rocky Mountain Climate 
Organization; Climate Change: Modeling a Warmer Rockies and Assessing 
the Implications, by Gregory Zimmerman, Caitlin O'Brady, and Bryan 
Hurlbutt of Colorado College; Climate Change and Aspen: An Assessment 
of Impacts and Potential Responses, by the Aspen Global Change 
Institute; and Save Our Snow: Climate Change in Park City by Stratus 
Consulting Group. Each of the studies relies on the best third party 
science available, and the best modeling and experts in the field. This 
testimony cites specific text from these reports related to the 
predicted economic impact of climate change on Aspen Skiing Company and 
the Colorado ski industry.
    First, it should be noted that the generally lower altitude 
European ski industry--itself a coal mine Canary for what we might 
expect here in the West--is already the suffering direct economic 
impact of climate change. And skiing is an even greater economic driver 
in Europe than in the U.S. This year, the Office for Economic 
Cooperation and Development released a study warning that climate 
change was threatening Europe's skiing trade. <SUP>5</SUP> And this 
year, several January World Cup races were cancelled due to rain or 
lack of snow, even though officials tried to salvage the events by 
helicoptering-in snow. Meanwhile several Scottish resorts have shut 
down, and, according to a European chamber of commerce member who asked 
to remain anonymous, 47 ski resorts in the Alps simply did not open 
last year from lack of snow, warm glaciers that were out of condition 
for skiing, or long periods of rain. ``We don't expect to have snow in 
low lying resorts such as Klosters for more than the next 10 years,'' 
said Werner Schmultz, from the World Radiation Centre in Switzerland. 
And in July 2006, ``Swiss researchers from the University of Zurich 
concluded that the Alps will lose 80 percent of their glaciers by the 
end of the century. (That's the average temperature rise scenario of 3 
degrees Celsius. The high end projections--a 5 degree C increase--will 
result in the loss of all Alpine glaciers.)'' <SUP>6</SUP> In response, 
some Swiss resorts are wrapping their glaciers in reflective blankets 
to try to protect them.
---------------------------------------------------------------------------
    \5\ http://www.swissinfo.org/eng/front/detail/
Climate_change_threatens_ski_resorts_in_
Europe.html?siteSect=105&sid=7347238&cKey=1166083840000
    \6\ From the Save Our Snow website, http://www.saveoursnow.com/
facts.htm. Accessed August 11, 2006.Harrison, Pete. ``Scottish Skiing 
Meets Global Warming,'' Reuters. January 2, 2004. Available online at 
http://www.zapworld.com/about/news/watch_scottishskiing.asp. Accessed 
February, 2006.
---------------------------------------------------------------------------
    ``Temperatures have risen to the point where artificial snow is 
melting faster than the snow machines can churn it out,'' Bill Wright 
of the Cairngorms Campaign environmental group told Reuters. ``The 
Scottish skiing situation is verging on crisis,'' he said. ``It's hard 
to resist the conclusion that global warming is a factor.'' 
<SUP>7</SUP>
---------------------------------------------------------------------------
    \7\ Seenan, Gerard. ``Global warming forces sale of Scottish winter 
sports resorts,'' The Guardian, Saturday, February 14, 2004. Available 
online at http://sport.guardian.co.uk/news/story/
0,10488,1148094,00.html
---------------------------------------------------------------------------
    Resorts in Scotland are moving away from ski-based economies. Some 
are successfully transitioning to non-winter-sports economies; others 
are going out of business. <SUP>8</SUP>
---------------------------------------------------------------------------
    \8\ Harrison, Pete. ``Scottish Skiing Meets Global Warming,'' 
Reuters. January 2, 2004. Available online at http://www.zapworld.com/
about/news/watch_scottishskiing.asp. Accessed February, 2006.
---------------------------------------------------------------------------
    A growing concern in Europe is the financing of the ski industry. 
In Switzerland, for example, ``Banks have stopped lending to resorts 
below 1,500 meters, worried that they will never get their money 
back.'' <SUP>9</SUP>
---------------------------------------------------------------------------
    \9\ Ibid.
---------------------------------------------------------------------------
    Back to the American West, the Colorado College report analyzed 
climate modeling data to try to predict ski country April 1 snowpack 
loss, from 1976 to 2085. Some areas, like the Utah resorts of Alta and 
Snowbird, are predicted to see 84% snowpack loss. Southern resorts like 
Taos will see 89% loss, essentially putting them out of business. (In 
the winter of 2005-6 New Mexico resorts received virtually no snow, 
and, by all accounts, had a catastrophic season.) Aspen's resorts--
Highlands, Aspen Mountain and Snowmass, are predicted to see a 43% loss 
in April 1 snowpack. The reports notes that ``Most ski counties in 
Colorado are predicted to lose around 50% [of April 1 snowpack.] 
Predictions for future mountain climate are warmer winters and shorter 
snow seasons. Winter sports dependent upon snow: downhill skiing, 
cross-country skiing, snowshoeing, and snowmobiling, are expected to 
decrease in popularity with warming because of worsening conditions, 
potentially becoming unviable as soon as 2050. According to Aspen 
Skiing Company CEO Patrick O'Donnell...if climate change shortens the 
ski season, `it is going to be an economic disaster.''' <SUP>10</SUP>
---------------------------------------------------------------------------
    \10\ Zimmerman, Gregory, O'Brady, Caitlin, and Hurlbutt, Bryan. 
Climate Change: Modeling a Warmer Rockies and Assessing the 
Implications. p. 99. From The 2006 Colorado College State of the 
Rockies Report. April 10, 2006. http://www.coloradocollege.edu/
stateoftherockies/06ReportCard/Climate%20Change,%20updated%2005-01-
05.pdf Accessed August 11, 2006.
---------------------------------------------------------------------------
    The report Less Snow, Less Water: Climate Disruption in the West 
predicts that by the end of the century, with a mid-range estimate of 
predicted warming, Aspen would have the climate of Colorado Springs, a 
desert community in southern Colorado with no ski business. The report 
also predicts smaller snowpacks and earlier snowmelt. In fact, new data 
already shows declining snowpacks, and increased warming, particularly 
at night and in winter, <SUP>11</SUP> with consequent impacts on 
snowmaking that have been previously described.
---------------------------------------------------------------------------
    \11\ Saunders, Stephen, and Maxwell, Maureen. Less Snow, Less 
Water: Climate Disruption in the West. September, 2005. pp 13-15. 
Available online at http://www.rockymountainclimate.org/
website%20pictures/Less%20Snow%20Less%20Water.pdf. Accessed August 11, 
2006.
---------------------------------------------------------------------------
    The 150-page study Climate Change and Aspen: An Assessment of 
Impacts and Potential Responses reports that ``sometime between 2030 
and 2100, Aspen climate will work against its reputation as a 
destination ski resort...The scenarios do imply greater costs and 
effort in terms of mountain and visitor management. If season delay or 
poor conditions do shave 5 to 20 percent off of skier numbers by 2030, 
then the economic consequences could be significant, ranging from 
losses of $16m to $56m in total personal income (in today's dollars.) 
Though it cannot be reliably quantified, poorer ski conditions are 
likely to affect the resort real estate market in Aspen, thus adding to 
losses.'' <SUP>12</SUP>
---------------------------------------------------------------------------
    \12\ Katzenberger, et al. Climate Change and Aspen: An Assessment 
of Impacts and Potential Responses. A Report of the Aspen Global Change 
Institute. July, 2006. pp 71-81. Available online at http://
www.agci.org/aspenStudy.html. Accessed August 11, 2006.
---------------------------------------------------------------------------
    Most strikingly, according to the report: ``High greenhouse gas 
emissions scenarios (A1FI) are likely to end skiing in Aspen by 2100, 
and possibly well before then, while low emission path scenarios 
preserve skiing at mid- to upper mountain elevations. In either case, 
snow conditions will deteriorate in the future.'' <SUP>13</SUP>
---------------------------------------------------------------------------
    \13\ Ibid, Katzenberger, et al. P. xvi, Executive Summary.
---------------------------------------------------------------------------
    The Park City study reports that by 2075, Thanksgiving will no 
longer be a ski holiday, and midseason snow depths will be 15 to 65 
percent lower--meaning an end to Utah's famous champagne powder. 
Throughout the Rockies, atmospheric warming will increase roughly a 
third faster than the global mean temperature, which means that 
snowmaking won't be possible, in most years, until the end of November. 
<SUP>14</SUP>
---------------------------------------------------------------------------
    \14\ An executive summary of the study, which isn't public yet, is 
available at http://www.saveoursnow.org/Executive_Summary.pdf
---------------------------------------------------------------------------
    According to a Deseret News report, the Park City study ``painted a 
bleak picture for Utah, where the tourism industry relies on the winter 
ski and snowboarding season. By 2100, the ski season could extend only 
from Christmas to Presidents Day, under the best-case scenario. Even a 
small 4- to 5-degree warming could be disastrous for the resorts--and 
winter. ``We only maintain snow under the low-emission scenario through 
midwinter. Remember, that's a 10- to 15-degree increase,'' said Brian 
Lazar of Stratus Consulting, which conducted the study with the 
Institute of Arctic and Alpine Research at the University of Colorado 
in Boulder. ``Under the high-emission scenario, we don't get snow.'' 
The report used a snow-modeling computer program to estimate the 
climate changes and snow levels for 2030, 2075 and 2100 under three 
different emission scenarios. Lazar said global warming will even 
affect the quality of the snow, turning the current Utah powder into 
skiers' cement.'' <SUP>15</SUP> <SUP>16</SUP>
---------------------------------------------------------------------------
    \15\ http://deseretnews.com/dn/view/0,1249,650221809,00.html
    \16\ http://www.saveoursnow.org/Executive_Summary.pdf.
---------------------------------------------------------------------------
    In short, there is compelling evidence that the ski industry stands 
to suffer significant financial losses from global warming induced 
changes such as shorter seasons, warmer nights, and reduced snowpack, 
and that impact is just one indicator of later, broader impacts of 
climate change. In a worst-case scenario, the industry will be gone by 
2100. In a best case scenario, the cost of doing business will increase 
exponentially and profit margins will drop precipitously, along with 
the quality of the product offered to guests. The irony is that this 
threatened industry operates mostly on public lands--and how the United 
States chooses to use other public lands will affect the future of our 
industry.
    At the same time, in CO in particular, we see the response to 
climate change--and even how public lands are used in this effort--as 
an economic opportunity. In fact, this is a major piece of our current 
Governor's platform. A great example of the potential for our state is 
the Grand Junction, CO based ski lift manufacturer Poma, which is 
moving towards manufacturing wind turbines. This could be an indigenous 
business in Colorado that provides manufacturing jobs while helping 
ranchers and farmers, who can install turbines, making their land do 
double duty. Might it be possible to make BLM lands easier to lease for 
wind farms? Would a federal fee for fossil fuel extraction help address 
the impacts of burning that fuel? We're not experts in public lands 
solutions to climate change, but in the end, global warming is clearly 
both a challenge and opportunity for Colorado and the West.
                                 ______
                                 
    Mr. Costa. Thank you very much, Mr. Schendler, and thank 
you for staying within the five minutes as well.
    Mr. Noah Matson is our next witness. He is the Director of 
Federal Lands for the Defenders of Wildlife. Mr. Matson.

  STATEMENT OF NOAH MATSON, DIRECTOR, FEDERAL LANDS PROGRAM, 
                     DEFENDERS OF WILDLIFE

    Mr. Matson. Thank you, Mr. Chairman, and to the Members of 
the Subcommittee.
    I am the Director of the Federal Lands Program at Defenders 
of Wildlife, and I want to thank you for the opportunity to 
testify before this committee.
    Energy policy, climate change, and public lands are 
inextricably linked. Current energy policy on America's public 
lands is doubly damaging for wildlife. The rapid and haphazard 
expansion of oil and gas drilling has devastated wildlife 
habitat, while the ultimate burning of these fossil fuels 
contributes to global warming pollution, which is the single 
greatest threat facing people and biolife today.
    Mr. Costa. We need to have the microphone a little closer. 
I am sorry.
    Mr. Matson. Sure. Auden mentioned the economic value of 
skiing to Colorado. Wildlife-dependent recreational uses 
throughout the United States, hunting, fishing, and bird 
watching, contribute over $100 billion to the U.S. economy, and 
the ecological services provided by fish, wildlife, and plants 
are almost incalculable. Yet wildlife is already bearing the 
brunt of global warming. The impacts of global warming of 
wildlife includes melting sea ice, habitat shifts, rising sea 
levels, longer droughts, increased wildfire, changes in weather 
extremes, and the spread of invasive species. As Deborah 
Williams testified, global warming is reeking havoc on Alaska 
wildlife and ecosystems. Sea levels are also on the rise. There 
are approximately 160 national wildlife refugees and 50 
national park units in coastal areas. Many of these refugees 
and parks protect coastal marshes that are only one or two feet 
above the current sea level. Even the lowest estimated sea 
level rise over the next century will have profound effects on 
these wetlands upon which millions of ducks and geese and other 
migratory birds depend.
    These are just some examples of the myriad global warming 
impacts wildlife are already experiencing. According to the 
Intergovernmental Panel on Climate Change, even if we stopped 
emissions today global warning and associated sea level rise 
will continue for centuries due to the time scales associated 
with climate processes.
    In other words, there is at least a century's long 
bottleneck that we must help wildlife navigate so that they can 
survive to reap the benefits from reductions in greenhouse gas 
emissions undertaken now.
    Consequently, our national strategy for combating global 
warming must include reducing greenhouse gas emissions, and 
responses to help wildlife navigate the looming bottleneck of 
complex threats caused by global warming.
    If global warming was the only stress on wildlife, more 
species might be able to weather it. Wildlife will have little 
chance of adapting to the impacts of global warming, however, 
if already stressed by loss and fragmentation of habit, 
competition with invasive species, and pollution. Thus reducing 
these other problems affecting wildlife is key to ensuring that 
wildlife and wildlife habitat are resilient to these changes.
    Unfortunately, our current energy policy does the exact 
opposite. The Bush Administration has treated wildlife as an 
impediment to the distraction of the energy and other resources 
from America's public lands. On national forests, the Bush 
Administration eliminated the 20-year-old requirement that 
national forests maintain viable wildlife populations, giving 
the Forest Service the green light to offer our national 
forests to energy companies with little assurance that wildlife 
populations would be left when these companies have gone.
    The administration has essentially converted the Bureau of 
Land Management into an agency dedicated to energy development. 
The number of drilling permits approved by the BLM has 
quadrupled over the last five years. The result, an industry-
funded study in Pine Dale, Wyoming, documented a 46 percent 
decline in the mealier population in an area of rapid energy 
development, reflective of the dramatic adverse effects to the 
ecology of the entire region.
    The direct impacts of energy development are just a tip of 
the melting iceberg. These impacts compound the threats of 
global warming as Well. Take the sage grouse. There is broad 
overlap between known oil and gas reserves and sagegrass 
habitat in the intermountain west. Oil and gas development 
requires clearing of habitat for roads, well pads, and 
pipelines. Noise from oil and gas operation interferes with the 
breeding behavior of sage grouse, which must hear distant calls 
to locate mates.
    Oil and gas development also facilitates the spread of 
noxious weeks like cheatgrass. Cheatgrass, a fire-adapted 
species, increases the risk of devastating fires in sagebrush 
habitats. Cheatgrass has also well adapted to global warming 
and will take over sagebrush habitats that sage grouse and 
other species depend on as the climate of the West changes.
    This emphasizes the importance of conservation measures 
now, to increase sagebrush and other vulnerable habitats 
resilience, the impacts of global warming. Unfortunately, most 
of the core sage grouse strongholds have been leased for oil 
and gas development. On top of this, staff and funding from 
BLM's wildlife program are regularly diverted to process 
drilling permits.
    A coordinated interagency response is essential to address 
the impacts of global warming. It makes no sense for each 
coastal wildlife refuge or national seashore to re-invent 
responses to rising sea levels. Agencies should also be 
required to address global warming in their program planning, 
land management, and environmental analyses.
    Finally, substantially more money than is currently 
provided to conservation is needed to help wildlife navigate 
the global warming bottleneck.
    Defenders of Wildlife looks forward to working with the 
Committee to ensure that wildlife survive the next century. 
Thanks again for the opportunity speak to speak before you.
    [The prepared statement of Mr. Matson follows:]

                  Statement of Noah Matson, Director, 
              Federal Lands Program, Defenders of Wildlife

    Mister Chairman and members of the subcommittee, I am Noah Matson, 
Director of the Federal Lands Program at Defenders of Wildlife. Founded 
in 1947, Defenders of Wildlife has over 500,000 supporters across the 
nation and is dedicated to the protection and restoration of wild 
animals and plants in their natural communities.
    I want to thank you for the opportunity to testify before the 
subcommittee. Energy policy, climate change and public lands are 
inextricably linked. Current energy policy on America's public lands is 
doubly damaging for wildlife: the rapid and haphazard expansion of oil 
and gas drilling has devastated wildlife habitat, while the ultimate 
burning of these fossil fuels contributes to global warming pollution, 
which is the single greatest threat facing people and wildlife today.
    Fish and wildlife are a fundamental part of America's history and 
character, and the conservation of fish and wildlife is a core value 
shared by all Americans. Wildlife conservation provides economic, 
social, educational, recreational, emotional and spiritual benefits. 
The economic value of hunting, fishing, and wildlife-associated 
recreation alone is estimated to contribute over $100 billion to the 
U.S. economy, through job creation, tourism infrastructure, and 
recreational spending. In addition to these direct economic benefits, 
fish, wildlife, and plants provide important ecological services to our 
economy that are irreplaceable, including pollination of our crops, 
water and air purification, flood control, and an increasingly 
important service: carbon sequestration.
    Our vast system of federal public lands is critical to the future 
of wildlife in America. Public lands protect endangered and threatened 
species, and help prevent species declining to the point where 
Endangered Species Act listings are necessary. Public lands provide 
comparatively intact tracts of land that serve as refuges from human 
development and other pressures, and provide important migration 
corridors for many species to respond to the changing climate. They 
help keep common species common, including game species valued for 
hunting and fishing activities. They provide refuge for species 
impacted by the effects of global climate change, and will play an 
important role in the adaptation of both people and wildlife to those 
impacts in the future.
    To ensure that our cherished wildlife survive beyond the next 
century, we must reduce our greenhouse gas emissions, reform the way 
energy and other extractive uses are produced on our public lands, and 
develop programs to assist wildlife in the face of global warming.
Impacts of Global Warming on Wildlife
    The subcommittee's hearing could not have come at a more important 
time. Last month the Intergovernmental Panel on Climate Change (IPCC) 
concluded that evidence of global warming is unequivocal, and that 
dramatic changes to the planet's climate are, with a 90 percent 
certainty, the result of human-generated emissions of greenhouse gases. 
Quite simply, there is no remaining scientific debate: we are causing 
global warming and it is past time that we do something about it.
    We are already in the midst of what Harvard Professor Edward O. 
Wilson and others have referred to as the sixth great mass extinction 
crisis in the history of the planet. However, unlike previous 
extinction events, this one is due entirely to human activity, 
principally habitat destruction, pollution, and overexploitation of 
wildlife and finite natural resources. In the United States, over 
15,000 species are at risk of extinction and the country loses a 
staggering 6,000 acres of open space a day, stressing natural systems 
and diminishing recreational opportunities and quality of life. 
Moreover, in each of the previous mass extinctions, it took more than 
10 million years for new species to evolve to replenish the 
biodiversity that was lost.
    Global warming only makes a bad situation worse. Under some climate 
change scenarios, the National Academy of Sciences predicts extinctions 
of 60% of all species on the planet. Extinctions alter not only 
biological diversity but also the essential evolutionary processes by 
which diversity is generated and maintained. Furthermore, we continue 
to destroy much of the habitat needed for species to survive and 
recover.
    The first response to reduce the impacts of global warming on 
wildlife must be to reduce greenhouse gas emissions so wildlife can 
have a future. Second, immediate steps must be taken to reduce the non-
climate related threats that wildlife is facing. Securing and restoring 
habitat, fighting invasive species, and reducing pollution all 
strengthen natural resilience in wildlife and wildlife habitat to cope 
with global warming. Finally, strategies must be developed to help 
wildlife adapt to changing ecological conditions.
Types of Global Warming Impacts
    Global warming will impact--and is already impacting--wildlife in a 
variety of ways:
Sea and land ice meltdowns
    According to the IPCC, average Arctic temperatures increased at 
almost twice the global average rate in the past 100 years. Satellite 
data since 1978 show that annual average Arctic sea ice extent has 
shrunk by 2.7% per decade. Temperatures at the top of the Arctic 
permafrost layer have generally increased since the 1980s (by up to 
3+C). The maximum area covered by seasonally frozen ground has 
decreased by about 7% in the Northern Hemisphere since 1900, with a 
decrease in spring of up to 15%.
    Indeed, polar bears depend entirely on sea ice as platforms for 
hunting the marine mammals that provide their nutritional needs. 
Because the necessary ice bridges linking land and sea have 
disappeared, adult and young polar bears have starved and drowned. Some 
polar bears have even resorted to cannibalism, leading scientists to 
remark that they are witnessing stressors unprecedented in decades of 
observation. Consequently, the U.S. Fish and Wildlife Service has 
proposed listing the polar bear as threatened under the Endangered 
Species Act, a proposal which Defenders of Wildlife strongly supports. 
There are numerous other arctic species that are fairing no better than 
polar bears.
    On land, prospects are no better. Disappearance of permafrost has 
led to draining of Arctic wetlands, aquatic habitats used extensively 
by the breeding waterfowl that winter in the lower 48 states and 
support a multi-billion dollar sport hunting economy.
    One place where all of these changes are occurring is the Arctic 
National Wildlife Refuge in Alaska. The Arctic Refuge is the most 
important on-shore denning habitat for polar bears in the United 
States. As offshore sea-ice denning areas melt away, the Arctic Refuge 
becomes one of the last places for these polar bears to winter with 
their newborn cubs. The refuge's famed Porcupine caribou herd is also 
being affected by global warming. Caribou are departing their wintering 
grounds a month earlier than normal and are still having trouble making 
it to the coastal plain of the Arctic Refuge in time for the earlier 
arrival of spring, when the most nutritious forage is available for 
their calves. Thus, the importance of the Arctic Refuge to wildlife is 
made even greater by global warming, making proposals to open the 
refuge to oil and gas development even more misguided.
Habitat shifts
    As the planet warms, the habitat occupied by particular species 
shifts as well, typically northward in the northern hemisphere, 
upslope, and inland. Species' northern and elevational ranges have 
shifted, on average, almost four miles northward and 20 feet upward 
each decade. Clearly, if you're a species that already lives at high 
elevation, you may be out of luck as habitat choices simply run out.
    The Environmental Protection Agency (EPA) estimates that many tree 
species may shift their ranges 200 miles to the north. Places like the 
Green Mountain and White Mountain National Forests are expected to lose 
tree species wholesale, including the regionally important sugar maple 
whose range may shift entirely out of the United States. Changing 
forest composition will directly affect wildlife that depends on the 
current tree species of New England's forests, like Bicknell's Thrush, 
a very rare bird dependent on New England's high elevation balsam fir 
trees, which may decline 96% by century's end due to global warming, 
according to the EPA.
Rising sea levels
    Estimates of sea level rise from global warming range from 7 to 22 
inches over the next century, according to the latest IPCC report. 
Catastrophic melting of Antarctica or Greenland could raise sea levels 
by over ten feet. However, even a minor rise will have negative 
consequences for some wildlife. Coastal species like the endangered 
Florida Key deer depend entirely upon low-elevation barrier islands, 
and are especially vulnerable to sea level rise.
    Federal properties and resources are at serious risk. There are 
approximately 160 national wildlife refuges and 50 national park units 
in coastal areas. Many of these refuges, like Breton National Wildlife 
Refuge in Louisiana, protect coastal marshes that are only a foot or 
two above the current sea level. Even the lowest estimated rise in sea 
level over the next century will have profound effects on coastal 
wetlands, which are one of the most biologically productive ecosystems 
on earth. Coastal marshes also happen to be tremendous carbon sinks, 
and their loss will reduce their ability to absorb carbon and 
potentially even release more carbon dioxide into the atmosphere as 
inundated marsh plants decompose.
Longer droughts
    Drought resulting from global warming poses an additional threat to 
species that rely on already scarce water in arid environments such as 
the American southwest. For example, even in the best of times, 
survival can be precarious for desert bighorn sheep. Inhabiting steep, 
rocky terrain in the driest areas of the American southwest, they live 
in small groups isolated by miles of blazingly hot terrain. In 
southeastern California, rainfall has declined by up to 20%, leading to 
drying up of springs and disappearance of plants. More than a third of 
the sheep populations that once lived in California's mountains have 
disappeared in the last century.
    Non-arid regions are going to face dramatic changes as well. In our 
recent report, Refuges at Risk--The Threat of Global Warming: America's 
10 Most Endangered National Wildlife Refuges 2006, Defenders of 
Wildlife highlights the impact of global warming on the National 
Wildlife Refuge System. We point out that the prairie pothole region of 
the country is the nation's ``duck factory''; its thousands of small 
lakes and ponds providing ideal habitat for breeding waterfowl. Over 50 
national wildlife refuges, such as Medicine Lake refuge in eastern 
Montana, and Devils Lake Wetland Management District in North Dakota, 
have been established in this region to protect breeding bird habitat. 
Climate scientists predict that warmer climates in the northern prairie 
wetlands region will increase the frequency and severity of droughts--
so much so that the number of breeding ducks in this region could be 
cut in half.
Increased wildfire
    Related to longer droughts is increased frequency and intensity of 
wildfires. Fire suppression and risk reduction programs already consume 
almost half of the U.S. Forest Service's budget. Increased fire 
directly inhibits our public lands from providing the suite of benefits 
we demand from them, including supporting wildlife, recreation, and 
timber production. In a study published in the journal Science, 
researchers found that compared to data from the 16 years prior, the 
period from 1987 to 2003 was 1.5 degrees higher in the West, had a 78-
day longer fire season and four times as many large wildfires, which 
burned over six times more land than the previous study period. These 
dramatic changes were correlated with decreased winter rains, earlier 
snowmelt caused by warming temperatures, and have caused dramatic 
changes to national forests and other public lands.
Excess carbon dioxide
    Often described as the rainforests of the ocean, coral reefs 
support a dazzling array of creatures. But die-offs of corals, as much 
as 98% in some locations during the last 25 years, landed two coral 
species on the endangered species list. Staghorn and elkhorn coral form 
massive thickets, provide cover for numerous reef fish, and are 
essential for the health of entire reef ecosystems. However, warming 
ocean temperatures are stripping corals of the algae they need to 
survive, while carbon dioxide emissions are increasing the acidity of 
the oceans. Reefs subsequently turn into rubble because of decreased 
concentrations of carbonate ions, a key building block for calcium 
carbonate required by the corals.
    The threat from global warming to coral reefs affects many national 
wildlife refuges, including the Northwest Hawaiian Islands refuge, Guam 
National Wildlife Refuge, and the Palmyra Atoll, Midway Atoll, and 
Kingman Reef refuges in the south Pacific.
Other impacts
    Global warming will affect wildlife in other ways as well. For 
example, changes in migration patterns will alter some species' ability 
to find suitable habitat and food. For example, the timing of bird 
migration is finely tuned to available food resources, and many species 
are struggling to cope with changing seasonal patterns. Changes in 
average precipitation (far more or far less annual rain and snow than 
falls currently) will place strain on species adapted to current 
precipitation patterns.
    Another result of global warming is that certain weather events 
will become more extreme, causing a greater probability of freshwater 
flooding inland and more intense and violent storms and other weather 
events, such as hurricanes, along the coasts. Rapidly changing 
environments will also heighten the risk of invasive native and 
invasive non-native species, both of which can pose threats to the 
species they displace. For example, global warming has been implicated 
in the recent severe outbreak of bark beetles in southwestern forests 
including New Mexico and Arizona. In the 2002-2003 season, 3.5 million 
acres of pinon pine and 2 million acres of ponderosa pine were 
affected. Warming-induced drought stressed trees so they were unable to 
protect themselves with increased sap production. Warmer winters also 
reduced bark beetle mortality and expanded their breeding season.
Helping wildlife navigate the global warming bottleneck
    According to last week's IPCC report, global warming and associated 
sea level rise will continue for centuries due to the timescales 
associated with climate processes and delayed feedbacks, even if 
greenhouse gas concentrations are stabilized now or in the very near 
future. Thus, even if we act now, as we must, to reduce greenhouse gas 
emissions, wildlife will continue to feel the effects of global warming 
for at least the next 100 years, the period in which carbon dioxide 
already in the atmosphere will persist. In other words, there is at 
least a century-long bottleneck that we must help wildlife navigate, so 
that it can survive to reap the benefits from reductions in greenhouse 
gas emissions undertaken now. Consequently, our national strategy for 
combating global warming must consist of two parts. First, we must act 
now to reduce greenhouse gas emissions, to address the root cause of 
climate change. Second, we must also craft responses and mechanisms now 
to help wildlife navigate the looming bottleneck of complex threats 
caused by global warming. Some ways to do this are suggested in the 
following pages of my testimony.
Energy Policy Reform and Building Resilience to Global Warming
    Many species and ecological systems have the ability to tolerate 
and adapt to some degree of ecological and climate changes. If global 
warming was the only stress on wildlife, more species might be able to 
weather it. Wildlife will have little chance of adapting to the impacts 
of global warming if already stressed by loss and fragmentation of 
habitat, competition with invasive species, and pollution. Thus, 
reducing other stressors on wildlife is key to helping wildlife 
navigate the bottleneck of global warming impacts, and ensuring that 
wildlife and wildlife habitat are resilient to these changes should be 
a top priority. Unfortunately, our current energy policy does the exact 
opposite.
    The Bush administration has treated wildlife as an impediment to 
the extraction of energy and other resources from America's public 
lands. On National Forests, the Bush administration eliminated the 20 
year old requirement that national forests maintain viable wildlife 
populations. This requirement, adopted under the Reagan administration, 
helped ensure the persistence of wildlife while Forest Service pursued 
timber and energy production and other uses. Without this requirement, 
the Forest Service has been given the green light to offer our national 
forests to energy and timber companies with little assurance that, 
after these companies reap the benefits of public resources and leave, 
wildlife populations will be left for Americans to enjoy.
    The Bureau of Land Management (BLM), unfortunately, has never had 
such a requirement. Still, the agency is supposed to sustain wildlife 
in managing the suite of multiple-uses BLM lands provide. Yet, the 
administration's energy policy has essentially converted the BLM into a 
dominant-use agency, an agency dedicated to energy development. 
Wildlife protections under the Bush administration have been 
specifically targeted as impediments to energy development, instead of 
viewing wildlife conservation as the cost of doing business on public 
lands.
    The result: Nationwide, the number of oil and gas drilling permits 
approved by BLM more than quadrupled, from 1,803 to 7,736 for the years 
1999 through 2005. Last year the BLM predicted they would receive over 
10,000 drilling permit applications in 2007. There are over 60,000 
producing wells on public lands and over 35 million acres are under 
active leases.
    The impacts on wildlife are clear. In the Farmington, New Mexico 
field office, BLM approved plans to develop nearly 10,000 new wells. 
Yet the high level of drilling that has already occurred in the area 
has devastated wildlife. According to the New Mexico Department of Game 
and Fish, the elk population in the area plummeted 88% from 1999 to 
2004. Even an industry funded study in Pinedale, Wyoming documented a 
46% reduction in the mule deer population in an area of rapid energy 
development. Gas and oil drilling doesn't just impact elk or mule deer, 
of course, but these species are indicative of the dramatic adverse 
affects to the ecology of the entire region.
    In addition to the direct impacts all this development has on 
wildlife through habitat loss and on-site pollution, the processing of 
thousands of drilling permits is consuming all BLM staff time in the 
field offices where energy development is greatest. According to the 
GAO, ``dramatic increases in oil and gas permitting activity have 
lessened BLM's ability to ensure that environmental impacts are 
mitigated.'' Worse still for wildlife, according to a BLM internal 
review, up to 50% of staff and funding from BLM's fish, wildlife, and 
threatened and endangered species programs have been diverted to 
support the energy program, slashing the agency's ability to conduct 
habitat management and restoration, population monitoring and other 
wildlife management activities.
    The synergistic effects of global warming and energy development 
and other non-climate related threats to wildlife and ecosystems are 
best illustrated by two examples: sage grouse and coastal wetlands.
Sage grouse, oil and gas development, and global warming
    Two years ago, the Fish and Wildlife Service was petitioned to list 
the sage grouse under the Endangered Species Act. This caused wide-
spread concern within the BLM and with the many users of BLM lands, 
particularly the oil and gas industry. And for good reason: There is 
broad overlap between known oil and gas reserves and sage grouse 
habitat in the Intermountain West. For example, in Wyoming, 26,000,000 
acres (66.7%) of the state's remaining sage grouse habitat falls within 
areas of potential oil/gas development; 9,000,000 acres (28.1%) in 
Colorado; 3,000,000 acres (43.5%) in Utah; and 1,700,000 acres (16.2%) 
in Montana, according to an analysis conducted by Trout Unlimited.
    Oil and gas development requires clearing of habitat for roads, 
well pads, and pipelines. In many areas, new power lines are erected to 
operate equipment, providing raptor perches where none previously 
existed, threatening sage grouse with increased predation. Noise from 
oil and gas operations interferes with the breeding behavior of sage 
grouse, which must hear distant calls to locate localized mating 
grounds. Finally, there is always the likelihood of spills, leaks and 
explosions of natural gas, oil, and other chemicals and contaminated 
water.
    Oil and gas development also facilitates the spread of invasive 
species like cheatgrass. Cheatgrass, a fire-adapted species, alters the 
fire regime of sagebrush ecosystems causing larger-scale, hotter fires 
than would normally burn in this system. Oil and gas development also 
increases the risk accidental human-caused wildfire ignition. Sagebrush 
typically recovers very slowly after a fire, and may take 30 years or 
more to reestablish at the same level of coverage as pre-fire 
conditions. In the period of time before regrowth has occurred, sage 
grouse lack cover and are more vulnerable to predators, and there are 
fewer succulent plants and insects available for them to eat.
    Cheatgrass is well adapted to global warming, and is an example how 
global warming can disrupt ecosystems. Because cheatgrass is fire 
adapted, it can withstand the increased fire risk of the drier 
conditions caused by higher evaporation rates with global warming. 
Cheatgrass and other exotic grasses have also been shown to out-compete 
native plants with increased atmospheric concentrations of carbon 
dioxide, the main contributor to global warming. In other words, global 
warming is expected to significantly alter sagebrush ecosystems that 
sage grouse and other species depend on.
    This emphasizes the importance of conservation measures now to 
increase sagebrush and other vulnerable ecosystems' resilience to the 
impacts of global warming. Unfortunately, most of the core sage grouse 
strongholds have been leased for oil and gas development. On top of 
this, stipulations to development designed to limit disturbance to sage 
grouse during the sensitive breeding period are regularly waived by the 
BLM. Add to this the diversion of staff and funding from BLM's wildlife 
program to process drilling permits and the gutting of the Forest 
Service's wildlife viability requirement, and the picture looks grim 
for the future of sage grouse, even if global warming were not a threat 
to its survival.
    Restoring the Forest Service's requirement to maintain viable 
populations of wildlife and instituting a similar requirement for BLM 
would go a long way towards restoring the balance of uses on our public 
lands and help wildlife survive now and in the future in the face of 
global warming.
Coastal wetlands, oil and gas development, and global warming
    Coastal wetlands are extremely productive ecosystems, important to 
both migratory waterfowl and commercial fisheries. Louisiana is home to 
40 percent of remaining wetlands in the contiguous U.S. Louisiana's 
coastal marshes provide vital wintering areas for millions of ducks and 
other birds, and important resting areas for birds crossing the Gulf of 
Mexico. These wetlands also produce 20 percent of the country's 
commercial fish harvest, according to the USGS National Wetlands 
Research Center. These wetlands serve as vital buffers against storm 
surges. For every mile of coastal wetlands, storm surges are reduced by 
one foot in height.
    These important wetlands are disappearing at the rate of 40 square 
miles of marsh a year--a full 80 percent of the wetland losses in the 
country. This devastating loss is caused by a variety of factors, 
including the loss of marsh-building sediment from the historic 
flooding of the Mississippi River, subsidence, sea level rise, and oil 
and gas development.
    Louisiana is the portal for most of the offshore oil and gas 
production in the Gulf of Mexico. The oil and gas industry has dredged 
thousands of miles of canals through Louisiana's coastal wetlands, 
including through federal lands like Delta National Wildlife Refuge at 
the mouth of the Mississippi River. Canals allow saltwater to intrude 
into freshwater marshes, killing sediment-trapping vegetation, speeding 
the pace of erosion.
    Global warming-induced sea level rise will further accelerate this 
problem. Not only will the loss of these wetlands have dire 
consequences for fish and wildlife, it will harm the oil and gas 
industry itself. Over 20,000 miles of oil pipelines crisscross these 
marshes from offshore--pipelines that will be directly exposed to whims 
of nature as wetlands recede around them.
    Again, this example emphasizes the critical importance of timely 
conservation measures to buffer against the effects of global warming. 
Though we cannot stop the seas from rising, we can fill in canals and 
restore a portion of the historic sediment flows from the Mississippi 
River to these wetlands to prevent catastrophic loss of coastal 
marshes.
A Coordinated, Interagency Response is Essential
    In addition to building ecological resilience to global warming by 
reducing the current threats to wildlife and habitat, federal agencies 
must use their existing authorities and be given additional direction 
to consider the impacts of global warming on wildlife in program 
planning, land management, and environmental analysis pursuant to the 
National Environmental Policy Act, the Endangered Species Act, and 
other relevant laws. Though the brunt of some global warming impacts 
may not be fully felt for a number of years, planning to address and 
ameliorate those impacts on wildlife and wildlife habitat must begin 
now.
    Equally important, new governmental processes and structures need 
to be explored that will themselves be resilient and adaptive to the 
threats from global warming. While it is important for each federal 
agency to develop measures for protecting wildlife from the effects of 
global warming, it is insufficient for individual agencies, or even 
individual federal land units, to contemplate and plan strategies 
purely on their own. The problem is simply too complex.
    We believe it is imperative that a national strategy be developed 
for addressing the impact of global warming on wildlife, with the 
express purpose of helping wildlife navigate the bottleneck of global 
warming impacts over the next century. This strategy should examine 
management issues common to geographic areas and threat type (e.g., sea 
level rise, increased hurricane frequency and intensity). Individual 
agencies and land management units should then coordinate their 
management activities with these national and regional goals and 
strategies. State strategies, particularly those set forth in state 
wildlife action plans, should address global warming impacts on 
wildlife and also be coordinated with the national strategy.
Scientific Capacity Should be Enhanced
    Building more robust scientific, inventory and monitoring programs 
is essential to managing wildlife and federal lands in a world altered 
by global warming. The scientific capacity of federal agencies, 
however, is woefully inadequate. No federal land system has a 
comprehensive biological inventory of their lands. The National Park 
Service has completed inventories on individual units, but other 
federal land systems, including the National Wildlife Refuge System, do 
not have comprehensive biological inventories. How are agencies to know 
how ecological systems are changing as a result of global warming, and 
subsequently what adaptive responses may be necessary, if they do not 
even know what is there? Building applied research, inventory and 
monitoring capacity across the agencies is essential.
    A coordinated science arm of a national strategy for addressing the 
impacts of global warming on wildlife will also be essential in 
developing and determining the efficacy of specific measures to address 
those impacts. A number of different types of responses have already 
been proposed by the scientific community including the protection and 
restoration of habitat corridors to assist species in shifting their 
ranges and the protection of climate ``refugia''--areas that are not as 
vulnerable to the whims of a changing climate and are better able to 
preserve biodiversity through the climate bottleneck. These and other 
strategies will need to be further developed and tested.
Providing Funding to Address Global Warming's Impacts on Wildlife
    Development and implementation of a national strategy to address 
global warming's impacts on wildlife, providing the necessary science 
to underpin that strategy, and taking action to reduce other stressors 
on wildlife will require substantially more money than is currently 
provided to conservation. As Congress develops legislation to cap 
greenhouse gas emissions, it is likely to create a system of emissions 
credits that can be traded. In the process, there is an opportunity to 
auction some of these credits, producing substantial revenue for the 
federal Treasury. A portion of that revenue should be dedicated to 
programs to offset the impacts of global warming on wildlife, with 
special emphasis on providing funding to address federal 
responsibilities for wildlife and land conservation in the face of 
global warming.
    In addition, as the subcommittee explores methods to capture the 
true costs of energy development on public lands, including requiring 
mitigation fees and increased royalties, a portion of these funds 
should be dedicated to restoring wildlife and wildlife habitat to build 
natural resilience to the impacts of global warming.
    This was the promise of the Land and Water Conservation Fund 
(LWCF). The LWCF, funded largely by a portion of federal offshore oil 
and gas royalties, was designed to provide a permanent conservation 
benefit to the American public in exchange for the liquidation of 
federal natural resources. The promise of the LWCF, however, has never 
been fulfilled. In fact, the Bush administration's FY 2008 budget 
request includes the second lowest request in the history of the 40 
year program. The need for land protection through the LWCF and 
programs like it has never been greater. In designing revenue streams 
for conservation, the subcommittee should ensure that funds are 
dedicated to conservation and mitigation purposes.
Conclusion
    Global warming is the conservation challenge of our time. It casts 
a long shadow over all of our other efforts to conserve and recover 
wildlife. We must act promptly to reduce greenhouse gas emissions to 
halt and eventually reverse the changes we are causing to our planet 
from global warming. At the same time, we must take steps to enable 
wildlife to survive the next century of inevitable impacts from global 
warming, to navigate this bottleneck, so that wildlife and, ultimately, 
humans, will benefit from the actions we take now to stop global 
warming.
    On behalf of Defenders of Wildlife, thank you for the opportunity 
to share our perspective on this critical issue. We look forward to 
working with this subcommittee and others in Congress to develop a 
program that will result in effective measures to help wildlife 
navigate the global warming bottleneck so that our children and 
grandchildren will be able to enjoy the wealth of wildlife and its 
habitat that we have enjoyed.
                                 ______
                                 
    Mr. Costa. Thank you very much, Mr. Matson.
    Our last witness, and we will be able to go to questions, 
comments of the Committee on the second panel, is Dr. timothy 
Ball, who is the Chair of the Natural Resources Stewardship 
Project. So you have a presentation as well, a PowerPoint. Very 
good, Mr. Ball.
    I really apologize to members of the Subcommittee. We have 
to have a better presentation than this. For those of us who 
are now getting to a chronological age where we are being 
challenged, this is a tough, tough read for me. But I think you 
have the accompanying documents in our packets. So with that 
understood, please begin.

             STATEMENT OF TIMOTHY F. BALL, CHAIR, 
             NATURAL RESOURCES STEWARDSHIP PROJECT

    Mr. Ball. Thank you, Mr. Chairman, and Members of the 
Subcommittee, and pictures are worth a thousand words, and 
maybe in my case, a million.
    It is interesting to sit here and listen to these 
presentations, and as Yogi Berra said, ``It is deja vu all over 
again,'' because I remember when I started my career in the 
1970s, I was hearing exactly the same arguments about global 
cooling, about the impending doom, about the disaster on 
species, and so on. And so as I said, it is an extremely 
interesting experience for me.
    I am also pleased to hear that climate change is finally 
being accepted. I have been called as recently as the last six 
months in The Times of London a climate change denier. My whole 
career has been going around the country and the world telling 
the people that climate changes all the time. The illustration 
I have before you is a production from the Canadian Geological 
Survey, and it shows you the ice conditions just 22,000 years 
ago, and you see the dark blue area there, the largest area is 
ice up to 10,000 feet thick, covering almost all of central and 
eastern Canada, and the ice stretching down into the 
northeastern and central United States, and I say that is just 
22,000 years ago.
    There was a similar ice sheet in Scandinavia and two more 
in Siberia, and at that time sea level was 500 feet lower than 
it is at present. So the idea about sea level changing is 
nothing new, and what is significant about this is that all 
that ice melted in about 5,000 years, and this was long before 
there was human CO<INF>2</INF> or anything else, and the 
explanation for that melting is primarily given by these 
factors which are called the Milankovitch Effect, and 
interestingly enough, this is not included in most of our 
textbooks across North America today. I have checked them out.
    What it shows in the lower right is the orbit of the earth 
around the sun as an almost circular but slightly elliptical 
orbit. That is the situation right now. But the orbit is 
changing every single year pulled by the gravitational pull of 
the planet Jupiter, and what you see on the lower left is the 
orbit as it was 22,000 years ago, an extreme eclipse, so the 
orbit is changing every single year.
    And in the center of the diagram you see that the tilt is 
shown at 23.5 degrees. It isn't. It is just close enough for 
government work. But it also constantly changes from 21.4 to 
24.8, and that has nothing to do with the wobble. That is a 
straight change in tilt.
    Both of those factors are changing every single year. None 
of these things are included in the IPCC climate models, and 
they argue is because they are too short a time span. But we 
are talking about projections of 50 and 100 years when they 
become significant.
    In the IPCC report and all the studies, they only look at 
one factor of solar variability and that is changes in the 
electro-magnetic radiation or heat and light. But even with 
that, they acknowledge that it explains 50 percent of the 
warming of the last 130 years. What they leave out is what I 
have just shown you, the sun/earth relationships, the orbit 
tilt. They also leave out what is called the corpuscular 
radiation or the solar winds, and that very, very highly 
correlates with climate changes I will show you shortly.
    This is an ice core temperature record from Greenland, and 
what it shows you on the right side is the dramatic warming 
that occurred about 10,500 years ago as we came out of that Ice 
Age, and the ice sheets started to melt, and then on the left 
side it shows you the present temperature, and you will see 
that for most of the last 10,000 years the world has been 
warmer than it is at present. In fact, you could argue that it 
has been cooling since about 8,000 to the present.
    This warming between four and 8,000 years is called the 
Holocene Optimum, and there are people that are trying to get 
rid of it, just like they tried to get rid of the Medieval warm 
period, because it hampers their argument that today is warmer 
than it has ever been. It is simply not true.
    We don't need just scientific graphs to show it. This is a 
photograph of a white spruce. It is 100 kilometers north of the 
current tree line taken by Professor Ritchie and used with his 
permission. Its radio-carbonated at 4,940 years old, and in 
order to have a tree of that dimension growing that far north 
of the current tree line, the world would have had to have been 
between 3 and 5 degrees Celsius warmer than it is at present. 
So we have seen much warmer, even since the end of the last Ice 
Age, so what is going on today is well within our normal 
variability.
    What you see here is the sunspot data starting at 1610, and 
it shows you that the variability, and basically when the sun 
is warmer, or when the sunspots are higher the earth is warmer. 
When the sunspots are lower the earth is cooler. This shows you 
the greenhouse gases, water vapors. Ninety-five percent of the 
greenhouse gas is virtually ignored. CO<INF>2</INF> is less 
than 4 percent.
    And just to finish up, Mr. Chairman, I beg for five second, 
this shows you the CO<INF>2</INF> record for 600 million years 
from the geologic record. We are currently at an all-time low 
of CO<INF>2</INF>, at 385 parts per million. Plants operate 
best at 1,000 parts per million, and that is being done in 
commercial greenhouses, so the plants essentially are 
CO<INF>2</INF> low and starved. So to suggest lowering the 
CO<INF>2</INF> is just ludicrous.
    [The prepared statement of Mr. Ball follows:]

               Statement of Dr. Timothy F. Ball, Chair, 
                 Natural Resources Stewardship Project

    Rapid change is normal especially in climate. Despite scientific 
knowledge of this most people still view change as gradual. This allows 
extremists to argue that any new change is not normal and therefore due 
to human activities. Climate always changes. Just 22,000 years a 
massive ice sheet covered ago Canada. Thirty years ago the scientific 
consensus said we were entering another ice age.
    Science works by creating then testing theories. Each theory is 
only as valid as its assumptions. If the assumptions prove correct and 
the theory produces accurate predictions then it may become a law.
    The theory of global warming assumes; CO<INF>2</INF> is a 
greenhouse gas that traps heat keeping the earth warm; that if the 
atmospheric levels increase the global temperature will rise; that 
human addition of CO<INF>2</INF> will cause an increase in 
CO<INF>2</INF> and therefore temperature.
    The warming theory became a fact and a law before the research had 
even begun. Scientists who tried to question the theory were sidelined 
as skeptics. The scientific method was almost completely thwarted.
    The evidence continues to grow and show that the theory is 
completely wrong. Ice core records show that the temperature rises 
before CO<INF>2</INF> not as assumed. Geologic and other records show 
no correlation between CO<INF>2</INF> and temperature. Changes in the 
sun explain almost all of the temperature known change.
    The biggest problem is that all ``predictions'' of global warming 
are based on computer models (known as General Circulation Models (GCM) 
that simply don't work. The models can't recreate known conditions, 
can't handle clouds and are unable to forecast for six months from now, 
yet we're expected to accept forecasts for 100 years are accurate and 
certain. This is now the basis of massive and expensive public policy.
    What's wrong with warming? In fact most of the world is better off 
in warmer times.
    They say we should act anyway. This is known as the Precautionary 
Principle. However, it assumes there is some validity to your theory 
and it can make accurate predictions. This is simply not true for the 
global warming theory. Besides, there are far more important issues.
    We are totally committed to warming, but the scientific evidence is 
we are cooling.
    [NOTE: Photographs and ``180 YEARS OF ATMOSPHERIC CO<INF>2</INF> 
GAS ANALYSIS'' by Ernst-Georg Beck, Reprinted from ENERGY & 
ENVIRONMENT, Volume 18, No. 2 2007, have been retained in the 
Committee's official files.]

    [Attachments to Mr. Ball's statement follow:]
    [GRAPHIC] [TIFF OMITTED] 34820.005
    
    [GRAPHIC] [TIFF OMITTED] 34820.006
    
    [GRAPHIC] [TIFF OMITTED] 34820.007
    
    [GRAPHIC] [TIFF OMITTED] 34820.008
    
    [GRAPHIC] [TIFF OMITTED] 34820.009
    
    [GRAPHIC] [TIFF OMITTED] 34820.010
    
                                 ______
                                 
    Mr. Costa. All right. Thank you very much, Mr. Ball, for 
your testimony, and now we will have the opportunity to 
question the witnesses. I will begin.
    Dr. Westerling, in your testimony you used the 
Intergovernmental Panel on Climate Change as one of your 
baseline sources for tracing warming trends. There are a lot of 
other studies that I keep hearing about, and projections on 
trends that are specific to the western United States.
    Can you give us a bottom line based on your studies and 
looking at others what trends do you see in the next five to 10 
years? I know you spoke while I was gone, but you had made a 
presentation yesterday, and I know about the correlation with 
regards to forest fires.
    Mr. Westerling. Yes, sir. Five to 10 years is a very short 
time frame.
    Mr. Costa. I think so.
    Mr. Westerling. And one of the things to keep in mind is 
that all of the IPCC projections, the Intergovernmental Panel 
on Climate Change projections, whether you vary the models or 
the scenarios or the types of emissions we have, basically have 
identical results for the next decade or so because they don't 
begin to diverge until later in the century as the small 
differences between these models and between the scenarios tend 
to accumulate over time.
    Mr. Costa. Let us stipulate for the record there are a 
number of factors, but do you want to respond?
    Mr. Westerling. Right. So what I am going to say is that 
over the next five to 10 years I would expect to see just a lot 
like the last five to 10 years.
    Mr. Costa. OK.
    Mr. Westerling. And whereas, you know, mid-century I would 
expect to see, according to the IPCC, minimum warming in the 
western United States that is double what produced the very 
impressive increase in wildfire activity in the western Iraq.
    Mr. Costa. I am concerned not only about wildfires, but 
also the impacts on our water supply and water quality. Let me 
ask another quick question, then I want to move on to one of 
the other witnesses.
    You are doing work for Governor Schwarzenegger with the 
State of California, and you have quantified economic costs and 
risk. Can that analysis that you are doing be expanded to other 
western states that have similar forestry conditions?
    Mr. Westerling. Certainly it could be done. Yes, we could 
expand it to the rest of the western United States very easily.
    Mr. Costa. All right. Ms. Williams, quickly again because 
of time, I am familiar with, you know, all politics is local, 
but when I was first in the legislature with the first energy 
crisis and Governor Brown created an energy commission, and did 
a lot of interesting things, some better than others, but to 
try to find a mix of renewables. One of the areas in 
conservation that we did with btu's allowed, and of course, our 
climate that is more temperate so that makes it better in 
California, of course, but where we used a lot less than the 
national average in terms of thermal units per individual.
    Any thoughts on how that is applied in Alaska and where 
that can be applied elsewhere?
    Ms. Williams. Well, Congressman, you are absolutely 
correct. The very first strategy should be energy conservation 
and energy efficiency.
    My father was a great Republican Conservative, and he 
taught me at an early age the base of conservative is conserve, 
and so first and foremost we, as Americans, should lead the way 
on energy conservation and energy efficiency, and that is 
something that we are discussing a great deal in Alaska and 
trying to implement, and that is something that we should do as 
a nation and that is something that this committee can 
certainly promote.
    Mr. Costa. Appreciate that.
    Mr. Ball, I was interested in your comments. Let us say for 
the sake of argument that some of the information that you 
provided here is not used in some of the other evaluations that 
has been done, but it just seems to me that, based on some of 
the slides you showed us, that I don't think there is a debate 
that the climate is changing, and has constantly changed, so I 
think you testified to that, is that not correct?
    Mr. Ball. I think that the public has generally been 
educated in what is called the----
    Mr. Costa. No, no, I am talking about what--you said what 
your view was on the public, how they have been educated. But I 
am just saying I don't think there is a debate that the climate 
has not changed, will continue to change. That is a force of 
nature.
    Mr. Ball. I don't agree with that. With 30 years of 
speaking to the public and educating, most of the public think 
change is very gradual over long periods of time. What we are 
really talking about, the rate of change and the variability, 
the degree of variability of change, and it is much greater 
than the public have been led to believe.
    Mr. Costa. But I am not talking about the public. I am 
talking about the facts that scientific testimony, I think, has 
clearly indicated, going back to the Ice Age, to your 
information, that it is a natural evolving for a lot of 
factors, some of which you submitted in your testimony, that 
the climate continues to change.
    Mr. Ball. Well, as I said, I respectfully disagree. My 
experience is that that is not what is taught in the schools. 
That is not----
    Mr. Costa. No, I am not talking about what is taught in the 
schools. I am asking you if you believe whether or not the 
climate is staying the same constantly, or whether you believe 
it is changing. That is what I am asking.
    Mr. Ball. No, I have said right in my comments that I was 
accused of being a climate change denier. My whole career has 
been trying to get people to understand the rate at which 
climate changes in very short periods all throughout the 
earth's history. That is the point I am trying to make.
    Mr. Costa. Well, I know, but I think the discussion, the 
debate, and that is what I opened up here with my comment, and 
I have run out of time now, excuse me for a second, if you will 
bear with me, is the debate is as to what impact man is having 
on climate change. But my point is that I don't think there is 
any debate that the climate has continued to change over the 
4.5 billion years of the history of the plant, and Ice Age to 
receding Ice Age, I mean, how the Great Lakes broke from the 
Ice Age. I don't think there is any debate about the climate 
changing. We may not agree on this point. I thought we might.
    Mr. Ball. Well, I think we can to some extent, but I say 
the degree to which it has changed, but also until you 
understand the extent of natural variability and the mechanisms 
of natural variability, it is simply impossible to separate out 
any minuscule effect that humans might have, and so I think 
that that is----
    Mr. Costa. Well, that, I think, is the subject of the 
debate, but I understand that. I understand your point on that, 
and I thought your testimony was helpful in highlighting your 
view on that. All I am trying to do is make the point that--and 
again I have gone beyond my time, thank you for bearing with 
me, my colleague--the degree man is impacting is minuscule, I 
think is the term you just used.
    Mr. Ball. Minuscule. Yes.
    Mr. Costa. Thank you.
    Mr. Pearce. Thank you.
    Mr. Murray, I am told that China plans to build 544 new 
coal-powered plants. That would be one new coal plant every 
week for more than 10 years, and so my question is will 
regulating CO<INF>2</INF> unilaterally by the U.S. serve any 
purpose if developing nations do not likewise do something?
    Mr. Murray. It would do very little for the climate on 
earth, very little. As I testified, they are currently building 
50, and that would fit well with the 544 over 10 years. They 
are not looking at any sort of carbon capture, transfer, or 
sequestration. They don't even consider it.
    The G-77 countries, all developing countries led by China, 
told us this winter that post-Kyoto in 2012 they have no 
intention of capturing carbon dioxide. So what we are really 
talking about here is killing American jobs, exporting more 
American jobs for little or no environmental benefit.
    Mr. Pearce. OK. In your testimony, you mentioned some 
companies that have come out in obvious support of global 
warming. Would you explain to me why--I mean, you are a 
business guy, they are business guys--why would companies do 
that? They are worried about exporting jobs, too.
    Mr. Murray. Congressman Pearce, I can answer it in one 
word. Profit. And they are not acting in the best interests of 
the United States of America. Let me explain.
    Energy and Excelon have nuclear power and natural gas 
plants, so they want to see coal-fired go away, so their power 
can compete in the global marketplace. Had a discussion with 
Jeffrey Immelt, Chairman and CEO of General Electric. He is out 
to make a profit off of the global warming, and says that. 
Caterpillar, Alcoa and you have two European companies here, BP 
American and Shell, and, of course, they want economically 
dominate the United States.
    Mr. Pearce. Sure, I understand. Now, you are in the coal 
business, and coal provides about 52 or 53 percent of our 
nation's energy.
    Mr. Murray. Correct.
    Mr. Pearce. Now, what is going to happen to coal-producing 
states if we implement the legislation that is before us? What 
is going to be the--in other words, we have go coal exporter 
states, coal importer states. So what is going to happen to the 
coal exporter states?
    Mr. Murray. Folks on fixed incomes will have a great deal 
of time, trouble maintaining their standard of living. That is 
the first thing that will happen because electric rates will go 
out of sight. These proposals right now are equivalent to a $65 
a ton tax on coal that I sell for 20.
    Mr. Pearce. Why will electric utility rates go out of 
sight? I am not sure I understand what you----
    Mr. Murray. Because right now coal accounts for 52 percent 
of the electricity in the country. But it is the cheapest. It 
is one-third to one-fourth the cost of electricity from natural 
gas.
    Mr. Pearce. OK.
    Mr. Murray. And it is even cheaper to nuclear. It is 
disparate across the country. Some states like Ohio have 88 
percent coal-fired. They are going to be hurt. People on fixed 
incomes are going to lose their standard of living, and, sir, 
Ohio is never going to export another product in the global 
marketplace because low-cost electricity is a staple of life, 
and something we have got to have in this country to export our 
products competitively in the global marketplace for no 
environmental benefit. That is what we are looking at.
    Mr. Pearce. So again, what about the job bases then in 
these coal-producing states like West Virginia?
    Mr. Murray. It will be depressed and placed into reverse 
the economy of this United States. We are exporting jobs right 
now to China, and they have told us they don't plan to do 
anything between now and 2012, and after 2012, yet we are 
exporting jobs to China. Why are we--this Congress--are not 
looking at this side of it? We are exporting jobs to China. We 
are going to continue to do it because they are going to be 
more competitive while this Congress shoots every American 
worker in the head.
    Mr. Pearce. I appreciate your passion for workers. I had 
employees, too, and you get invested in their lives. You get to 
understand their kids, and you understand what that is like to 
be--I was in the oil and gas business in 1999 and 2000, when 
the price of oil fell to $6, and I saw competitors lay off 68 
percent of their employees. My wife and I made the choice to be 
buyers after fixed pay, with no pay cuts, and I mean, I 
understand what you are talking about.
    Mr. Murray. It is a human issue, sir.
    Mr. Pearce. I know.
    Mr. Murray. And I know the names of the people whose lives 
are going to be destroyed for little or no environmental 
benefit here.
    Mr. Pearce. I appreciate----
    Mr. Murray. It has become a political hysterical rampage.
    Mr. Pearce. Appreciate your passion for the employees and 
employees' families, and I know that you said you have a plane 
to catch, you need to get out.
    Mr. Chairman, I think if that is OK with you, we will watch 
him depart there.
    Mr. Costa. I did have a couple of questions but I can 
submit them in writing.
    Mr. Murray. No, sir. Go ahead. Mr. Chairman, I am at your 
pleasure, sir.
    Mr. Costa. All right. Quickly, Mr. Murray, as one of the 
largest independent cooperators, if I understand that 
correctly, we are talking--I mean, first of all, I come from a 
perspective where I don't think there is one silver bullet, and 
notwithstanding my support for renewables, I represent a large 
agriculture area looking at what agriculture could do to reduce 
our dependency, every conversation I have ever had with folks 
talk about the important role that coal has in America's 
future.
    I don't like to make blanket statements, but that is just 
me, but I do believe that clean coal technology in large-scale 
applications of emission reduction is going to be part of our 
future. I would like to get your take on what you think the 
possibilities are in the coal area for emission reduction.
    Mr. Murray. Thank you, Mr. Chairman. That is an excellent 
question.
    I spent 15 years of my life building the Great Plains Coal/
Gasification Project in North Dakota. That is the only clean 
coal technology project that has been built to a commercial 
scale in the Western Hemisphere. I am as skeptic about clean 
coal technology because there is no commitment to it.
    First, the Congress has appropriated funds for clean coal 
technology, but the administration hasn't spent it, and that 
has gone on now for years. So I am skeptic about clean coal 
technology. It has been 40 years since I spent 15 years of my 
life building the Great Planes Coal/Gasification Project. I 
know clean coal technology as well as anybody alive. I am an 
engineer, and I have lived it, and I am a real skeptic that 
there is any commitment in this country to a development of 
clean coal technology, and that needs to come first before the 
legislation because, Mr. Chairman, we have no way of getting 
and capturing CO<INF>2</INF> right now on a commercial scale.
    Mr. Costa. Well, I believe this is one of the areas that 
certainly the Subcommittee intends to look at, and I wanted to 
get your take based upon your own experience on that area.
    Let me move on to, and if you need to leave, Mr. Murray, we 
will release you.
    Mr. Murray. Please, sir.
    Mr. Costa. Mr. Schendler, as an industry that works with 
Federal lands and having----
    Mr. Murray. Are you finished with me, sir?
    Mr. Costa. I am finished.
    Mr. Murray. Thank you, Mr. Chairman.
    Mr. Costa. I mean for this afternoon.
    Mr. Murray. Thank you, sir.
    [Laughter.]
    Mr. Murray. Thank you. You have been very gracious. Thank 
you.
    Mr. Costa. Thank you.
    I am sorry, Ms. Williams, do you have to leave too?
    Ms. Williams. No, I deferred my appointment. Thank you.
    Mr. Costa. All right. I am trying to be fair with all of 
our witnesses.
    Mr. Schendler, a lot of complaints are oftentimes with 
Federal regulations on public lands, and certainly I have 
constituents who come to me in the past with trying to just fix 
the problem. I would like to know your business, you know, is 
in some of the very beautiful parts of the Rockies, as we say, 
how the ski industry has been able to impact or deal with the 
various government types of regulation that for the best of 
intentions try to protect public lands?
    Mr. Schendler. Historically, government regulations have 
not affected the industry. If anything, it has enabled it, so 
we have had a very positive relationship, I think, with the 
government on the use of public lands.
    Mr. Costa. I think the time has gone to reset, but I am 
going to defer to my colleague here, because I don't know what 
is happening with this time thing. We are going to have to get 
a better sink here.
    Mr. Pearce. All right, thanks.
    Mr. Ball, you heard the discussion earlier with Mr. Myers 
about the level of carbon pre-1940. What was that level? He 
said 250, and my question is, is there any----
    Mr. Ball. The pre-industrial level was set at 280 parts per 
million----
    Mr. Pearce. OK.
    Mr. Ball.--based on the ice core record, and also on an 
article by Tom Wigley, on climate change in 1983, and also by 
the research of Calendar. There is an article that came out 
just today in the Journal of Energy and Environment by Ernst 
Beck, which takes the 90,000 atmospheric readings from the 
Nineteenth Century, starting in 1812, and shows that the 
CO<INF>2</INF> level in the Nineteenth Century was actually at 
360 parts per million.
    Mr. Pearce. That is a significant difference.
    Mr. Ball. Sir?
    Mr. Pearce. Significant difference in the----
    Mr. Ball. Oh, tremendous difference.
    Mr. Pearce. Is Mr. Beck a scientist?
    Mr. Ball. sir?
    Mr. Pearce. Mr. Beck is a scientist?
    Mr. Ball. Mr. Beck is an atmospheric chemist in Germany, 
and I have been working with him for a year on this article, 
and he not only shows that the average level of pre-industrial, 
but also that the CO<INF>2</INF> varies tremendously from year 
to year.
    Mr. Pearce. What would this do to the models if that--Mr. 
Chairman, I would ask unanimous consent to submit an article 
like that.
    Mr. Ball. Yes.
    Mr. Costa. Without objection.
    Mr. Ball. Thank you.
    Mr. Costa. OK.
    [NOTE: The article submitted for the record has been 
retained in the Committee's official files.]
    Mr. Pearce. What would it do to the models if that input is 
significant?
    Mr. Ball. Well, it changes the whole slope of the 
CO<INF>2</INF>, the whole argument of human injuring global 
warming is based on that slope of a pre-industrial natural 
level of 280 to a current level of 385. If you push up the 280 
to 360, the slope virtually disappears.
    By the way, that also speaks to some of the serious 
problems with the CO<INF>2</INF> record in the ice cores, and 
in that CO<INF>2</INF> record in ice cores, the temperature 
changes before the CO<INF>2</INF>, not as the basis assumption 
is.
    Mr. Pearce. OK. Mr. Westerling quoted significantly from 
that IPCC report. Have you read the report or just the 
executive summary?
    Mr. Westerling. You mean the new report?
    Mr. Pearce. No.
    Mr. Westerling. Since it is not published yet.
    Mr. Pearce. Have you read the new report?
    Mr. Westerling. I have read the executive summary.
    Mr. Pearce. And were scientists, Mr. Ball, were scientists 
allowed to give input on that executive summary or was that 
policy----
    Mr. Ball. There were two people that were involved with the 
guidance of the politicians and the bureaucrats that wrote the 
report. One was Phil Jones and the other was Kevin Trenberth.
    Mr. Pearce. So the executive summary does not have the 
scientific input----
    Mr. Ball. No.
    Mr. Pearce. OK. I am going to walk down, and just yes or 
no, and if it is not a yes or no, I am sorry, I am going to 
take my time back because we are up against this clock and that 
clock.
    Coal generates about 52 percent of the energy today. Do you 
believe that with your world view that you are describing here 
today that America can continue to get 50 percent of its power 
from coal and help you to achieve your world views? Yes or no, 
Mr. Matson?
    Mr. Costa. Who are you directing the question to?
    Mr. Pearce. I am going to walk straight down the panel.
    Mr. Costa. Oh, OK.
    Mr. Pearce. Mr. Matson.
    Mr. Costa. Mr. Matson.
    Mr. Pearce. Ms. Williams and right on down the panel. Yes 
or no?
    Mr. Matson. Repeat the question. Sorry.
    Mr. Pearce. Yes, can we continue to get 50 percent of our 
energy from coal and achieve what you feel like we need to 
achieve as far as climate?
    Mr. Matson. Unlikely, but I think there are alternatives to 
coal.
    Mr. Pearce. Unlikely. Ms. Williams?
    Ms. Williams. Unlikely.
    Mr. Pearce. Unlikely. Mr. Schendler?
    Mr. Schendler. Mr. Schendler or Mr. Westerling?
    Mr. Pearce. I am sorry. Yes, Mr. Westerling. Mr. Schendler, 
you will be next.
    Mr. Westerling. Not with current topology.
    Mr. Pearce. Not with current.
    Mr. Schendler. No. Yes, with sequestration.
    Mr. Pearce. Mr. Ball?
    Mr. Ball. Yes.
    Mr. Pearce. OK. We are going to do the same exercise on 
nuclear technology. If we are going to convert from coal, 
something has to be there. In other words, we know we provide 
300 million people, about 1 million get energy from wind, and 
about 1 million for solar, so something has to have enough 
capability, enough quantity. Nuclear, yes or no?
    Mr. Matson. To do what? To entirely place our energy?
    Mr. Pearce. Yes, to fill the void left by the coal that we 
are going to shut down.
    Mr. Matson. I think there is a tremendous opportunity in 
energy efficiency.
    Mr. Pearce. Yes or no? Can you give a yes or no, nuclear?
    Mr. Matson. We should be using it as an alternative. There 
are plenty of other alternatives to examine.
    Mr. Pearce. Nuclear, yes or no? Nuclear, yes or no, Ms. 
Williams?
    Ms. Williams. To fill the entire void, no.
    Mr. Pearce. No. No.
    Ms. Williams. To fill some of the void, yes.
    Mr. Pearce. Nuclear, yes or no?
    Mr. Westerling. Depends on the time frame of nuclear.
    Mr. Pearce. Yes or no?
    Mr. Westerling. Yes or no? Yes or no to what? I mean, it 
really----
    Mr. Pearce. To fill the void. We are going to shut down 
coal to achieve your world view, and I am just asking if you 
will accept technology of the nuclear to provide that void.
    Mr. Westerling. I think there is going to be an important 
component, but I don't think it would be----
    Mr. Pearce. OK.
    Mr. Westerling.--sufficient by itself to fill the void.
    Mr. Pearce. Mr. Schendler?
    Mr. Schendler. As a portion, nuclear would be part of the 
solution.
    Mr. Pearce. All right.
    Mr. Ball. Yes.
    Mr. Pearce. OK, just trying to figure out what our options 
are going to be.
    I see my time has expired, Mr. Chairman, and I would have 
another round if you have the opportunity.
    Mr. Costa. Mr. Westerling, Dr. Westerling, excuse me, in 
your testimony you talked about the cost of fire suppression, 
and the human terms of the severe fire seasons. Any of us who 
live in western states understand the cost impacts and the map 
that we looked at yesterday clearly indicates that.
    Both the Government Accountability Office and the Inspector 
General have raised related concerns in escalating wildfire 
costs. Assuming that the trends are going to continue, and you 
and I kind of got in between five or 10 years what those trends 
are, what is your recommendations on how we can continue to 
protect our communities that today have been impacted by forest 
fires?
    Mr. Westerling. There are a range of measures and some of 
them are already being done, and I would refer you to say 
literature on the fire-wise communities, for example. So there 
are ways to make homes and communities more resistant to 
wildfire by, for example, clearing vegetation around 
structures, changing the kinds of materials used in building 
the structures. So we can continue to do more of that, but we 
are already doing quite a lot in that area.
    Another set of measures is related to fire suppression, and 
as you pointed out yourself, we are already spending a great 
deal of money on fire suppression in the western United States, 
and there has been very significant technical innovation in the 
kinds of resources that we have to apply to suppress fires. And 
so it is not likely that we will see any sort of revolutionary 
impact of additional resources or technological change in fire 
suppression in the near future.
    Mr. Costa. Regardless, it is going to cost us----
    Mr. Westerling. It is going to----
    Mr. Costa.--on the Federal level and it is going to cost us 
on the state level.
    Mr. Westerling. For the longer term, the best thing that we 
could do would be to reduce the growth of sprawl, reduce the 
growth of urban----
    Mr. Costa. Sound planning would obviously impact not just 
forests, but our farming as well, but I don't want to get into 
that. That is not the subject of our hearing.
    Our friend from Alaska, Ms. Williams, you mentioned 
something in your comments about conserving and conservation. 
Of course, one of the great conservationists, presidents of the 
Twentieth Century was Theodore Roosevelt, and you know, I guess 
it is because I just don't see the world through black and 
whites, but shades of gray, and unless you are trying to play a 
``gotcha'', I am really looking for how we deal with the 
challenges we face.
    Let us say for just a moment for the sake of the discussion 
that the climate warming issue and man's impact was just put on 
the side for a moment, but just common sense in terms of, you 
know, the planet had less than 200 years ago 2 billion people 
on it, today it has got more than 6 billion. I like to joke I 
am one of the few people, much to my mother's dismay, who is 
actually doing something about this population issue, because I 
have not contributed to the problem, but when we talk about 
sustainability, I mean doesn't common sense tell us that we 
have to employ a host of management tools to deal with our 
sustainability notwithstanding the argument or the discussion 
or the debate that we have had this afternoon on climate 
impacts?
    Ms. Williams. I agree with you very much, Mr. Chairman, and 
I think that is the role of Congress in tackling this greatest 
threat that we face. There are many contributors to it. We have 
discussed some of them today. What we have also discussed is 
just some of the costs.
    We have heard from a couple of the witnesses about the 
human costs of maybe restricting coal production, but I can 
assure you, Mr. Chairman, the human costs of climate change are 
very dramatic, and I would invite the Subcommittee and the 
entire committee to come to Alaska. Go to Shishmaref, and see 
the tears going down peoples' faces as they have to relocate 
their community that they have been occupying for 4,000 years 
because of the impacts of global warming are requiring 
relocation.
    So when we see the impacts, my mother had to be 
hospitalized because of smoke from the 2004 fires, at 90. And 
so when you look at health costs, cultural costs, economic 
costs, I have friends who fish and their children may not be 
able to fish because of the acidification of the ocean and the 
loss in fishing opportunities.
    Mr. Costa. My time has expired.
    Ms. Williams. So, Mr. Chairman, our goal is indeed to look 
at the full spectrum of contributors to this because this is 
the greatest threat that we face as a nation.
    Mr. Costa. We may take you up on your suggestion. Informed 
sources tells me that the Chairman has committed to the Ranking 
Member of the Full Committee--I am not talking about the two of 
us here--but Mr. Young, the Representative, the gentleman from 
Alaska, for the Committee to actually go up to Alaska in 
August, I believe, of this year.
    Ms. Williams. Wonderful.
    Mr. Costa. And so how many of the members will be able to 
make the trip up there, but I will certainly suggest to the 
Chairman your reference about the visit you suggested, and I 
would suggest to all the members of the Committee, having been 
up to Alaska several times, that those that can do because it 
is one of America's great treasures and great resources, and it 
would be good to see firsthand some of the issues you pointed 
out.
    For the last round, the gentleman from New Mexico.
    Mr. Pearce. Thank you, Mr. Chairman. How long are we going 
to have to submit questions?
    Mr. Costa. Standard 10 days.
    Mr. Pearce. OK.
    Mr. Costa. I made that in the opening comment.
    Mr. Pearce. OK. I am sorry.
    Mr. Ball, up here I am looking at a chart of the sources of 
greenhouse gases. Now, when I look, I see the orange is water 
vapor, and then the other biological activity and the human 
element at about .28.
    Is that the standard view? In other word, is that a correct 
scientific view that that is about the size of the human 
element?
    Mr. Ball. Yes, that is about the size.
    Mr. Pearce. All right. Let us move to the next chart here. 
We have a lot of ground to cover so I don't mean to cut 
everybody off but we are going to go through a lot of 
questions.
    Now, this one doesn't show, but you can barely see a 
turquoise line which shows the increase of carbon, and it is 
moving up on this scale right in there. In other words, they 
had to blow that thing up quite a bit. This is the scale really 
shows how the CO<INF>2</INF> has changed. If we blow it up a 
thousand times, then we go to this chart, and so am Y reading 
these charts correctly that to get this kind of really dramatic 
increase in carbon where it shows up on the scale you have to 
blow the scale up tremendously big?
    Mr. Ball. The top graph is from Mount Aloa, and of course, 
the first about 15 years of that record is very questionable 
and not usually used. And yes, it is the way that it is 
presented to----
    Mr. Pearce. OK. Ms. Williams raised questions about the 
polar bears. You just wrote an article about polar bears. Tell 
me what happened to polar bears in the medieval time?
    Mr. Ball. Mitch Taylor is the expert in Nunavik, up in 
Iglulik, and worked with him, and also with Marcel Dick of 
Churchill, and of the 14 groups of polar bears in the Canadian 
Arctic, which are the majority, only one has shown any sign of 
decline, and that is the group around Churchill, and the 
evidence is that they have shown decline. They are the ones 
where they talk about thinning, the animal getting thinner and 
sparser, smaller. That is because of a decrease in the food 
supply.
    Mr. Pearce. OK. We need to move on. I am sorry to 
interrupt. We have just got a very short period of time here.
    Just to get into the record, we had testimony that the elk 
population--in one of our written testimonies--in New Mexico 
have decreased, and yet when I look at the 1912--1875, there 
was 2,000 elk; 1912, decreased down to 60; 1956, 213 released, 
365 on private lands; 1958, 8,000; today we are at about 
72,000, so I am not sure where we got the 88 percent decline in 
our population for New Mexico, but just to put that into the 
record.
    Let us see, we talked about modeling. Many of the people 
today talked about modeling, Mr. Ball. Tell me about scientific 
process versus modeling. Help me understand that.
    Mr. Ball. The modeling leaves out so many of the variables 
on global climate that it really does not simulate. When they 
run them backwards in what is called hindsight forecasting, 
they can't re-create conditions of even 30-40 years ago. They 
certainly can't re-create the Ice Age conditions.
    Mr. Pearce. The modeling is a leap of some sort.
    Mr. Ball. Yes.
    Mr. Pearce. Now, we had testimony also that within a decade 
the children will live in a plant that is unrecognizable, and 
then we also had testimony that everything is kind of in this 
long playout, that even if we put changes in today, you get a 
century's worth of effects. Is it believable that within 10 
years our children are going to live in a plant that is 
unrecognizable?
    Mr. Ball. No, absolutely not, and these kind of 
predications, we have a fellow in Canada by the name of David 
Suzuki. He said we have 10 years to live, but he said it 20 
years ago.
    Mr. Pearce. OK. Mr. Westerling, your testimony says that 
where the changes observed in western hydroclimate and 
wildfires as a result of greenhouse is presently unclear. That 
is an article back July of 2006. So you are describing it as 
very unclear, and that is in the ``Science Express.''
    Then in today's testimony you say that it is an absolute 
slam-dunk. That it is a human-caused climate change.
    Which of those is really--there is a difference in those. 
Would you like to address that?
    Mr. Westerling. Yes. Well, first, I would like to correct 
you if I may, sir, that the actual language in the published 
paper after peer review, which is not the ``Science Express'' 
version, says ``Beyond the scope of this study,'' not presently 
unclear.
    Mr. Pearce. So the article is incorrect, the way it was 
printed?
    Mr. Westerling. Yes, sir.
    Mr. Pearce. So you didn't say it was unclear?
    Mr. Westerling. No, sir.
    Mr. Pearce. OK.
    Mr. Westerling. But it----
    Mr. Pearce. It is published under your name.
    Mr. Westerling. That is correct. Have you ever published a 
paper with Science, sir? It is a rather chaotic experience.
    What I would say is that the work I presented in this paper 
was not intended to be evidence of climate change with only a 
34-year record, and what we wanted to make clear was that we 
were taking that as a given, but we were not establishing that 
with our work.
    Mr. Pearce. OK. But your testimony today, you slam-dunk it. 
That is absolute. You make a very strong connection between the 
human activity----
    Mr. Westerling. Of course.
    Mr. Pearce. Yes, OK.
    Mr. Westerling. I have great confidence, sir, in the 
scientific process and in the IPCC process.
    Mr. Pearce. OK.
    Mr. Westerling. And I think it produces science that we can 
rely on.
    Mr. Pearce. Is the science unclear? Is the science a slam-
dunk, Mr. Ball?
    Mr. Ball. Absolutely not, and as I said, there are so many 
variables. I mentioned the sun, and other variables not 
included, so it is not a slam-dunk at all.
    Mr. Pearce. OK, that is all I needed to know. Appreciate 
it.
    Mr. Chairman, thanks for your indulgence. Great hearing.
    Mr. Schendler. May I make a correction to the record?
    Mr. Costa. I am sorry, Mr. Schendler. You wanted to correct 
the record?
    Mr. Schendler. Just one quick note. What I said was that if 
we don't act within 10 years, this is quoting James Hanson, we 
would live on a planet that would be unrecognizable to us, not 
that the plant would be unrecognizable in 10 years. Thank you.
    Mr. Costa. All right. Sometimes we speak and we convey 
images--I mean, I do it on occasion--that have unintended 
consequences, and so I certainly want to allow opportunities 
for people to make sure that people understand clearly what 
they intended to say, and so I certainly allow you that 
opportunity.
    I want to thank all the witnesses for your valuable 
testimony. I want to thank the members for your questions. As I 
indicated, if there are additional questions for the witnesses, 
we would ask that you respond in writing. We have a 10-day 
rule. I will urge all the members of the Subcommittee for 
Subcommittee staff purposes to not wait until the ninth day to 
submit the questions or like some students do their homework, 
but preferably if you can get the questions in within the next 
couple of days, that will make it very helpful to the members 
of the staff.
    If there is no further business before the Subcommittee, 
once again I want to thank everyone, and the Subcommittee is 
now adjourned.
    [Whereupon, at 5:15 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
